<html>
<title> - CYBER INCIDENT RESPONSE: BRIDGING THE GAP BETWEEN CYBERSECURITY AND EMERGENCY MANAGEMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  CYBER INCIDENT RESPONSE: BRIDGING THE GAP BETWEEN CYBERSECURITY AND 
                          EMERGENCY MANAGEMENT 

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                and the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

                           Serial No. 113-39

                               __________

       Printed for the use of the Committee on Homeland Security

                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-116 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Filemon Vela, Texas
Steve Daines, Montana                Steven A. Horsford, Nevada
Scott Perry, Pennsylvania, Vice      Bennie G. Thompson, Mississippi 
    Chair                                (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    14

                               Witnesses

Ms. Roberta Stempfley, Acting Assistant Secretary, Office of 
  Cybersecurity and Communications, National Protection and 
  Programs Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Charley English, Director, Georgia Emergency Management 
  Agency, Testifying on Behalf of National Emergency Management 
  Association:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Craig Orgeron, CIO and Executive Director, Department of 
  Information Technology Services, State of Mississippi, 
  Testifying on Behalf of National Association of State Chief 
  Information Officers:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Mike Sena, Director, Northern California Regional 
  Intelligence Center, Testifying on Behalf of National Fusion 
  Center Association:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Mr. Paul Molitor, Assistant Vice President, National Electrical 
  Manufacturers Association:
  Oral Statement.................................................    38
  Prepared Statement.............................................    39

                             For the Record

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of National Governors Association....................     3

                                Appendix

Questions From Chairwoman Susan W. Brooks for Roberta Stempfley..    65
Questions From Chairwoman Susan W. Brooks for Charley English....    67
Questions From Chairwoman Susan W. Brooks for Craig Orgeron......    68
Questions From Chairwoman Susan W. Brooks for Mike Sena..........    69
Question From Chairwoman Susan W. Brooks for Paul Molitor........    70


  CYBER INCIDENT RESPONSE: BRIDGING THE GAP BETWEEN CYBERSECURITY AND 
                          EMERGENCY MANAGEMENT

                              ----------                              


                      Wednesday, October 30, 2013

     U.S. House of Representatives,        
      Committee on Homeland Security,      
   Subcommittee on Emergency Preparedness, 
          Response, and Communications, and
     Subcommittee on Cybersecurity, Infrastructure 
             Protection, and Security Technologies,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the Emergency Preparedness, Response, and 
Communications subcommittee] presiding.
    Present from Subcommittee on Emergency Preparedness, 
Response, and Communications: Representatives Brooks, Palazzo, 
Payne, and Clarke.
    Present from Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies: Representatives Meehan, 
Clarke, and Horsford.
    Mrs. Brooks. The Subcommittees on Emergency Preparedness, 
Response, and Communications and Cybersecurity, Infrastructure 
Protection and Security Technologies will come to order.
    I would like to welcome our witnesses, everyone in the 
audience, and those who are watching this webcast to our joint 
hearing today on Cyber Incident Response.
    I would like to start out by thanking Chairman Meehan and 
Ranking Member Clarke for working with me and Ranking Member 
Payne, who we anticipate both of those Members will be here 
shortly, on this important issue.
    I would like to thank our witnesses for their patience as 
we have worked to reschedule this hearing, in addition in the 
slight delay this morning.
    I would also like to thank the staffs who have worked 
together in preparing us for this very important hearing this 
morning.
    October is Cybersecurity Awareness Month, and I think it is 
so very important that we observe this month in part of our 
awareness because it must be our ability to not only protect 
our networks and our critical infrastructure from intrusions, 
but also, what is our ability to respond should an intrusion 
become successful? After all, we do know that the threat of a 
cyber attack is real and in a speech just prior to her 
resignation former Secretary of Homeland Security Janet 
Napolitano discussed that threat. She forecasted that our 
country will face a major cyber event that will have a serious 
effect on our lives, our economy, and the everyday functioning 
of our society.
    Now, earlier this past week National Geographic Channel 
aired a program entitled ``American Blackout''--a program which 
I watched with some interest on Sunday evening. It explored the 
cascading effects of a Nation-wide 10-day power outage caused 
by a cyber attack. For the Members of the committee, if you 
have not seen that I strongly recommend that you watch this 
show.
    The movie was eye-opening and quite scary and happened to 
be on a topic that I had discussed just recently with Hoosier 
Power Companies in my district just last month. The effects of 
the blackout depicted in this movie caused serious public 
health and public safety issues, including severely impacting 
the food and water supply; the availability of fuel, which we 
also saw during Hurricane Sandy, which just 1 year ago 
yesterday when that horrific hurricane came upon our shores; 
the ability of hospitals to function; the ability to access 
money from ATM machines or to use credit cards; and most 
importantly, the ability to enforce the law and maintain civil 
society.
    Now, I agree with the former Secretary when she noted that 
we have made some great strides in addressing cyber threat, but 
clearly more work must be done and must be done quickly. This 
assessment that work remains was echoed at a hearing we held in 
the Emergency Preparedness Subcommittee last month.
    The 2013 National Preparedness Report released by FEMA 
earlier this year again highlighted States' concerns about 
their own cybersecurity capabilities. The 2013 report noted 
gains in cybersecurity at the State level but that the States 
continue to report that cybersecurity is among the lowest of 
their capabilities. Let me repeat that: It is among the lowest 
of the States' capabilities.
    At that hearing California's homeland security advisor, 
Mark Ghilarducci, noted that cybersecurity is an emerging and 
evolving threat that everybody is still grappling to get their 
arms around. He noted that the Federal Government's ability to 
provide guidance to States has been rather limited.
    I agree this is not an easy task, but information sharing 
about the threat and actions to take before, during, and after 
a cyber attack is critical. I hope that Ms. Stempfley will tell 
us about the Department's efforts to share information with 
State and local authorities including emergency managers, 
fusion centers, and the private sector to help them work to 
address and elevate the importance of this evolving threat; and 
that I hope that our State and local witnesses will also 
discuss how they share information and coordinate with relevant 
officials in their States and localities and with the private 
sector, which, I must note, controls at least 85 percent of our 
Nation's critical infrastructure. We must ensure that this 
coordination is taking place now so we are prepared to respond 
to a cyber incident that will have physical consequences.
    I am also interested in learning today how DHS, working 
with other Federal agencies and departments and exercise 
participants, is working to address the lessons that were 
learned in the National-level exercise exercised in 2012, which 
simulated a large-scale cyber attack.
    Just as I have noted the challenges we face in addressing 
the cyber threat, we must also discuss the progress that is 
being made. In my own district I am proud to say that the 
Indianapolis division of Homeland Security has established a 
cyber defense force to improve the overall cybersecurity 
preparedness of the Indianapolis metropolitan area, and the 
State of Indiana has included cybersecurity in its threat and 
hazard identification and risk assessment, or in its own THIRA.
    The National Emergency Management Association is working 
also with Texas A&M to develop cybersecurity awareness training 
programs for emergency managers. Fusion centers are also 
becoming much more engaged in cybersecurity.
    States are also taking innovative steps to address the 
threat. For example, Michigan has established the role of a 
chief security officer, which has oversight of both 
cybersecurity and physical security.
    The National Guard is becoming much more engaged in 
cybersecurity as well. In Maryland the Air National Guard's 
175th Network Warfare Squadron is assisting with the 
development of State cybersecurity assessments and has worked 
with Maryland Emergency Management on cybersecurity exercises.
    Next month the North American Electric Reliability 
Corporation, or NERC, will hold GridEx 2013, an exercise that 
will test the electricity subsector's readiness to respond to a 
cyber incident including physical consequences.
    These are all critically important steps, but as I noted 
earlier, much work remains to ensure we are prepared to respond 
to a cyber attack.
    Chairman McCaul and Chairman Meehan have been working to 
develop thoughtful, effective cybersecurity legislation this 
Congress. I am pleased the draft bill that that committee has 
worked on includes provisions addressing cyber incident 
response and it is my hope that today's hearing will help to 
further inform that committee's work.
    Before I conclude, I would like to ask unanimous consent to 
include in the record a statement from the National Governors 
Association, which provides greater details on steps States are 
taking to enhance their cybersecurity posture.
    [The information follows:]
              Statement of National Governors Association
                            October 30, 2013
    On behalf of the Nation's governors, thank you for the opportunity 
to comment on bridging the gap between cybersecurity and emergency 
management. Protecting the Nation from cyber threats and their 
potential consequences requires strong partnerships among all levels of 
government, law enforcement, the military, and the private sector. Over 
the past several years, Governors have been working to improve the 
cybersecurity posture of their States and to improve State-Federal 
coordination. Based on these efforts and States' interaction with the 
Federal Government, we are pleased to offer the recommendations below.
                 state efforts to address cybersecurity
    Since the terrorist attacks of September 11, 2001, and Hurricane 
Katrina in 2005, National preparedness and response activities have 
emphasized a ``whole community'' approach. Despite this progress, 
State-Federal coordination efforts for cybersecurity are still in their 
early stages. In the absence of unified Federal guidance, States are 
moving forward to develop methods, strategies, and partnerships to 
improve their cyber resiliency and strengthen capabilities to prepare 
for, respond to, and recover from potential cyber attacks.
    Governors are leading efforts to expand collaboration and drive 
change at both the State and Federal level. This is taking place 
through initiatives such as the National Governors Association (NGA) 
Resource Center for State Cybersecurity and the Council of Governors. 
Through these collaborative forums, Governors have identified a number 
of areas where enhanced Federal support and engagement could further 
assist States in this National effort. For instance, the Federal 
Government should:
  <bullet> Enhance Federal coordination and consultation with States 
        and recognize that Governors have emergency powers and 
        authorities that can benefit the Federal Government.
  <bullet> Leverage all available resources, such as the National 
        Guard, to support both Federal and State cybersecurity 
        missions.
  <bullet> Provide flexibility for State investments in cybersecurity 
        through reform of Federal grant programs and support for 
        innovative State solutions that leverage existing resources 
        such as fusion centers.
  <bullet> Clarify Federal statutes, roles, and authorities to address 
        cyber incident response, taking into consideration the role of 
        States and the impact on current State laws and regulations.
  <bullet> Improve information sharing and State access to Federal 
        cybersecurity resources, such as those for technical support, 
        education, training, and exercises.
            encouraging action and promoting best practices
    Governors' efforts are focused on the need to improve not just 
States' cybersecurity, but that of the Nation. To help Governors 
address this challenge, NGA formed the Resource Center for State 
Cybersecurity in 2012. The Resource Center, co-chaired by Maryland 
Governor Martin O'Malley and Michigan Governor Rick Snyder, brings 
together experts from key State and Federal agencies and the private 
sector to provide strategic and actionable recommendations Governors 
can use to develop and implement effective State cybersecurity policies 
and practices.
    On September 26, 2013, the NGA released Act and Adjust: A Call to 
Action for Governors for Cybersecurity, a paper that provides strategic 
recommendations Governors can immediately adopt to improve their 
State's cybersecurity posture (attached). NGA also released an 
electronic dashboard designed to provide Governors with an overview of 
their State's cybersecurity environment and assist them in monitoring 
implementation of the paper's recommendations. The dashboard is 
currently being pilot tested in Maryland and Michigan in conjunction 
with the Multi-State Information Sharing & Analysis Center (MS-ISAC). 
Through the Resource Center, Governors are exploring other vital areas 
as well, including:
  <bullet> The role of fusion centers in collecting and disseminating 
        real-time information on cyber threats to State agencies and 
        law enforcement;
  <bullet> Enhancing the cybersecurity of energy systems and the 
        electrical grid in coordination with utility commissions, 
        owners, and operators at the State level; and
  <bullet> Developing a trained and enduring cyber workforce within 
        State government.
                  leveraging resources government-wide
    Identifying innovative solutions to address cybersecurity and 
secure the Nation against the growing cyber threat requires engagement 
by senior leaders at all levels of government. In addition to their 
work within their respective States, Governors also have engaged 
directly with the Federal Government through the Council of Governors 
(Council). Currently co-chaired by Governor O'Malley and Iowa Governor 
Terry Branstad, the Council brings together 10 Governors and the 
Secretaries of Defense and Homeland Security to address issues 
regarding the National Guard and homeland defense.
    Since it was formally established in 2010, the Council has served 
as a valuable forum to facilitate coordination between State and 
Federal military activities, such as a 2010 agreement establishing 
dual-status command authority during major disasters. This authority 
was employed during recent events such as Hurricane Sandy and the 
Colorado floods. The Council is now working to turn this commitment to 
collaboration into similar actions to address State-Federal 
coordination on cybersecurity and the development of National Guard 
cyber capabilities.
    Governors firmly believe the Guard's unique status serving both 
Governors and the President and its access to civilian-acquired 
skillsets makes it an ideal and cost-effective resource to address our 
Nation's growing cyber vulnerabilities. With the flexibility to support 
both Federal and State-related cyber missions, the Guard can be a force 
multiplier in support of the Department of Defense, the Department of 
Homeland Security (DHS), the Federal Bureau of Investigation and 
States. While the National Guard's role in cybersecurity is still being 
deliberated, Guard cyber units across the country are already 
demonstrating their unique capabilities including:
  <bullet> Serving as a key coordinating hub between various 
        stakeholder groups.--Several National Guard cyber units are 
        actively engaged with their Governor's office, State emergency 
        management agencies, State Chief Information Officers and other 
        State, local, and Federal officials in the development of State 
        cyber incident response plans. Several States have also 
        integrated Guard units within their fusion center.
  <bullet> Providing key support services in planning, testing, 
        training, and exercises.--Guard unit participation is 
        continuing to grow in State and National-level cyber exercises 
        such as Cyber Guard, Cyber Storm, and Cyber Shield. Several 
        State Guard units also are providing risk assessment and 
        vulnerability testing support to State agencies and local 
        critical infrastructure owners and operators.
  <bullet> Providing a readily available and highly-trained 
        workforce.--National Guard cyber units include personnel from a 
        significant number the Nation's top cybersecurity and 
        information technology companies such as Microsoft, Cisco, 
        Siemens, Intel, GE, Boeing, IBM, and Google. This access 
        provides a unique opportunity to leverage and sustain ``leading 
        edge'' civilian-acquired cyber skillsets not readily available 
        or easily built from within the Federal Government.
    Earlier this year, Governors secured the commitment of former U.S. 
Department of Homeland Security Secretary Janet Napolitano and 
departing U.S. Department of Defense Deputy Secretary Ash Carter to 
work with them to identify new opportunities to strengthen the State-
Federal partnership on cybersecurity and to better leverage existing 
resources such as the National Guard. This work is on-going, and we 
look forward to providing the committee an update on our progress early 
next year.
               opportunities for state-federal engagement
    As the development of Federal legislation to address cybersecurity 
continues, Governors urge Congress to consider the following 
recommendations:

  <bullet> Ensure coordination and consultation with States.--Like all 
        disasters, response and recovery begins at the State and local 
        level. Federal cyber incident response guidance such as the 
        National Cyber Incident Response Plan (NCIRP) must not be 
        developed using a Federal-centric approach, but must integrate 
        key State officials and consider Governors' authorities 
        throughout the process.
  <bullet> Promote the role of the National Guard to support both 
        Federal and State cybersecurity missions.--This includes 
        ensuring that the National Guard is considered concurrently 
        with active duty forces in any new cyber force structure 
        developed by U.S. Cyber Command and the military services.
  <bullet> Support State investments in cybersecurity through reform of 
        homeland security preparedness grants.--In recent years, 
        decreased funding levels across preparedness grant programs 
        combined with their current rigid requirements has limited 
        States' ability to address emerging threats, such as 
        cybersecurity, or provide adequate support to fusion centers.
  <bullet> Address ambiguities with cyber incident response.--This 
        includes clarifying current statutory authorities governing 
        disaster management, such as the Stafford Act and the Economy 
        Act. Roles and responsibilities of the various Federal agencies 
        with cybersecurity coordination and operational authority 
        during an incident should be better-defined and corresponding 
        guidance to State and local authorities (such as the NCIRP) 
        should be updated accordingly.
  <bullet> Improve information sharing with States to provide real-time 
        intelligence on threats.--Improving existing information-
        sharing capabilities such as the MS-ISAC and State and local 
        fusion centers can further support this effort. DHS also can 
        provide more structured and coordinated access to Federal 
        cybersecurity initiatives such as workforce and training 
        programs, Federal cybersecurity exercises, and forums for 
        public-private partnerships.
                cybersecurity is a shared responsibility
    Governors recognize the critical need to improve our Nation's 
cybersecurity posture. This is an immense challenge that requires an 
unprecedented level of coordination among all levels of government and 
the private sector. Governors are committed to addressing this 
challenge within their States and are actively seeking to partner with 
their Federal counterparts. As the committee continues to consider the 
legislative path forward for cybersecurity, NGA stands as a ready 
resource for innovative policy solutions that will both support 
Governors' efforts and enhance the State-Federal partnership to address 
our Nation's most pressing cybersecurity challenges.
                         Attachment.--NGA Paper
    act and adjust: a call to action for governors for cybersecurity
September 2013, Thomas MacLellan, Division Director, Homeland Security 
        & Public Safety Division, NGA Center for Best Practices
    Cybersecurity remains one of the most significant challenges facing 
the Nation. Although implementing policies and practices that will make 
State systems and data more secure will be an iterative and lengthy 
process, Governors can take a number of actions immediately that will 
help detect and defend against cyber attacks occurring today and help 
deter future attacks.
    Those actions include:
  <bullet> Establishing a governance and authority structure for 
        cybersecurity;
  <bullet> Conducting risk assessments and allocating resources 
        accordingly;
  <bullet> Implementing continuous vulnerability assessments and threat 
        mitigation practices;
  <bullet> Ensuring that the State complies with current security 
        methodologies and business disciplines in cybersecurity; and
  <bullet> Creating a culture of risk awareness.
    By implementing those recommendations immediately, Governors can 
greatly enhance States' cybersecurity posture.
Guiding Principles
    This Call to Action, as well as the work of the NGA Resource Center 
for State Cybersecurity (Resource Center), is guided by a set of core 
principles:
  <bullet> Support Governors.--The work of the Resource Center is 
        singular in its focus on supporting Governors' efforts to 
        improve cybersecurity. The Resource Center marks the first 
        large-scale effort exclusively focused on the role of Governors 
        in improving cybersecurity.
  <bullet> Be Actionable.--The goal of the Resource Center is to 
        provide to Governors recommendations and resources that promote 
        actions that reduce risk.
  <bullet> Reduce Complexity.--Cybersecurity policy is designed and 
        implemented in a complex environment. The Resource Center aims 
        to reduce that complexity by looking for common principles and 
        practices that are effective in that environment.
  <bullet> Protect Privacy.--The recommendations made through the 
        Resource Center aim to both improve cybersecurity and protect 
        the privacy, civil rights, and civil liberties of citizens.
  <bullet> Employ Technologically Neutral Solutions.--The 
        recommendations made through the Resource Center emphasize 
        nonproprietary, open standards.
  <bullet> Focus on the State as Enterprise.--The work of the Resource 
        Center aims to improve Governors' understanding of the State as 
        an enterprise including the interdependencies among State 
        agencies; between the public and private sector; and regionally 
        across State boundaries.
  <bullet> Promote Flexible Federalism.--To the extent possible, the 
        Resource Center emphasizes the benefits of and opportunities 
        for flexibility within Federal programs to allow for tailored 
        State solutions.
  <bullet> Rely on Evidence-Based Practices.--The Resource Center makes 
        recommendations that build on evidence-based practices.
  <bullet> Use and Generate Metrics.--The Resource Center promotes 
        recommendations that use dynamic performance metrics to manage 
        and improve State processes and practices.
  <bullet> Promote the Use of Incentives.--The Resource Center makes 
        recommendations that promote the use of incentives to improve 
        cybersecurity practices in a State.
Immediate Actions to Protect States
    Domestic and international actors are launching a significant 
number of cyber attacks against States. Although many of the actions 
necessary to reduce the Nation's vulnerabilities to cyber attacks 
require long-term structural improvements and business redesign, 
Governors can take actions now that can immediately improve their 
State's cybersecurity posture. Implementation of the actions described 
below will help to ensure strong governance and oversight, a baseline 
of cybersecurity capabilities, and quicker identification of attacks 
and threats; it also will help to improve basic cybersecurity 
practices.
    Establish a governance structure for cybersecurity.--Because State 
systems and networks are interconnected, developing a robust 
cybersecurity posture will require an enterprise-wide approach. To that 
end, Governors need to ensure that they have a strong State-wide 
governance structure with some degree of central authority that 
provides a framework to prepare for, respond to, and prevent cyber 
attacks. Several recent attacks reveal that States which fail to put in 
place a strong governance structure are at a distinct disadvantage.
    For many States, chief information security officers (CISOs), who 
are responsible for developing and carrying out information technology 
(IT) security policies, have only limited responsibility and authority 
over State-wide cyber networks. CISOs can operate in federated or 
decentralized environments where technology and security resources are 
dispersed across various agencies and departments. In addition, the 
sharing of cyber threat information with the private sector and local 
governments is handled by State homeland security agencies, further 
complicating the overall cybersecurity governance structure.
    According to a survey conducted by Deloitte for the National 
Association of State Chief Information Officers (NASCIO), 56 percent of 
State CISOs indicate that they have authority over only their executive 
branch agencies, departments, and offices.\1\ Although most States have 
a CISO, if they do not have a visible agency-level security posture, 
they can encounter obstacles to implementing an effective cybersecurity 
program. Among the elements of an effective program are enforcement 
mechanisms to ensure compliance with security policies and audit 
findings. States without governance structures to build and operate 
effective programs will be limited in their ability to identify an on-
going cyber attacks and respond in a coordinated way.
---------------------------------------------------------------------------
    \1\ ``State Governments at Risk: A Call for Collaboration and 
Compliance,'' Deloitte and the National Association of State Chief 
Information Officers, October 26, 2012, accessed March 10, 2013, http:/
/www.deloitte.com/assets/Dcom-UnitedStates/Local%20Assets/Documents/
AERS/us_aers_nascio% 20Cybersecurity%20Study_10192012.pdf, 10.
---------------------------------------------------------------------------
    Governors can grant their chief information officers (CIOs) or 
CISOs the authority to develop and steer a coordinated governance 
structure (for example, a task force, commission, or advisory body) 
that can greatly improve coordination and awareness across agencies 
that operate State-wide cyber networks. Such an approach also helps 
enable the CIO or CISO to take actions to prevent or mitigate damage in 
the event of a cyber breach.
    Michigan has created a centralized security department run by a 
chief security officer (CSO) that brings together both physical 
security and cybersecurity. Directors, managers, and employees within 
each agency coordinate through the centralized governance structure to 
focus on each agency's need for both physical security and 
cybersecurity. Governance of that type is especially important during 
an incident or a disaster. The approach allows the CSO and CIO to work 
closely to manage the State's cyber networks and infrastructure and to 
ensure that effective governance practices are in place.
    Although a central authority is essential, it does not obviate the 
importance of collaboration among local governments, nongovernmental 
organizations, and the private sector. Those relationships are 
essential to understanding the culture, operations, and business 
practices of various agencies and organizations with cyber assets 
within the State. In Michigan, for example, in addition to dedicated 
and full-time State employees in the Office of Cybersecurity, a risk 
management team leverages many resources around the State to gather 
information and resolve an incident efficiently and effectively.
    Minnesota is another example of a State that adopted a governance 
framework that stresses teamwork and communication between a 
centralized information technology organization and stakeholders. The 
State CIO works collaboratively with the Governor, the Technology 
Advisory Committee, and other agency leaders. Minnesota also has 
several governing bodies that have an agency CIO, providing a direct 
link to the State CIO and operational decisions made at the different 
agency team levels.\2\
---------------------------------------------------------------------------
    \2\ ``State of Minnesota IT Governance Framework,'' http://mn.gov/
oet/images/StateofMinnesotaITGovernanceFramework.pdf (June 2012).
---------------------------------------------------------------------------
    Recognizing the need to foster collaboration at all levels of 
government and with the private sector, California recently created the 
California Cybersecurity Task Force. The task force focuses on sharing 
information to improve the security of Government and private-sector IT 
assets.\3\
---------------------------------------------------------------------------
    \3\ ``California Launches Cybersecurity Task Force,'' http://
www.govtech.com/security/California-Launches-Cybersecurity-Task-
Force.html (May 17, 2013).
---------------------------------------------------------------------------
    Conduct risk assessments and allocate resources accordingly.--
Governors and other key State actors need a comprehensive understanding 
of the risk and threat landscape to make accurate and timely decisions 
when allocating scarce resources. Without a comprehensive understanding 
of the risks, including the interdependencies among critical assets, 
States are vulnerable to interruptions in business operations as well 
as financial and data losses. To gain this awareness, States must 
develop security strategies and business practices by conducting risk 
assessments that identify information assets, model different threats 
to those assets, and allow for planning to protect against those 
threats.\4\
---------------------------------------------------------------------------
    \4\ ``5 Steps to Cybersecurity Risk Assessment'' http://
www.govtech.com/security/5-Steps-to-Cyber-Security.html?page=1 (June 
24, 2010).
---------------------------------------------------------------------------
    In addition to establishing sound business practices and using 
existing resources, States also must conduct hands-on activities and 
exercises as a part of their assessments. Those practices include 
regular penetration testing and vulnerability scanning and should be 
referenced in security policies. States can take advantage of resources 
from Federal and private entities to conduct those activities. Once an 
independent State-wide assessment has been conducted, Governors can 
make necessary decisions on where scarce resources should be allocated 
to prevent the loss of essential information and resources and to 
protect critical infrastructure and assets. The initial assessment also 
will help determine the frequency of such assessments in the future, 
based on the risk profile of agencies. As an example, agencies with 
sensitive citizen data might require annual assessments and quarterly 
follow-up in their corrective action plan.
    Additionally, Governors and their senior staff who have appropriate 
security clearances should receive regular classified cybersecurity 
threat briefings. The Department of Homeland Security (DHS) can assist 
States in planning these briefings.
    Implement continuous vulnerability assessments and threat 
mitigation practices.--Consistently monitoring threats and 
vulnerabilities will help Governors proactively defend cyber networks. 
Every day, States are exposed to phishing scams, malware, denial-of-
service attacks, and other common tactics employed by cyber attackers. 
Governors must ensure that mission-critical systems are equipped with 
technologies and have implemented business practices that will identify 
potential threats, track all stages of cyber attacks in real time, and 
offer mitigation techniques and options for any resulting loss or 
damage.
    Maryland leverages the cybersecurity capabilities of the Maryland 
Air National Guard 175th Network Warfare Squadron to support its 
cybersecurity assessments. State agencies participate in collaborative 
web penetration training exercises with the Maryland Air Guard 
Squadron. The exercises that feature simulated attacks from malicious 
outsiders or insidious insiders are useful in evaluating the security 
of selected State websites and portals. Security issues uncovered 
through the penetration tests lead to technical and procedural 
countermeasures to reduce risks. The Guard also provides network 
vulnerability assessment services to various State agencies while, in 
return, it receives beneficial training for the squadron's members. A 
number of other States have similar practices in place.
    The Multi-State Information Sharing and Analysis Center (MS-ISAC) 
has been designated by DHS as a key resource for cyber threat 
prevention, protection, response, and recovery for the Nation's State, 
local, territorial, and Tribal governments. Through its state-of-the-
art Security Operations Center, available 24 hours a day, 7 days a 
week, the MS-ISAC serves as a central resource for situational 
awareness and incident response. The MS-ISAC also provides State, 
local, Tribal, and territorial governments with managed security 
services, which are outsourced security operations that include on-
going monitoring of networks and firewalls for intrusions.
    Another related resource available to State and local governments 
is DHS's newly-launched Continuous Diagnostics and Mitigation (CDM) 
program. The CDM program at the Federal level works by expanding 
deployment of automated network sensors that feed data about an 
agency's cybersecurity vulnerabilities into a continuously updated 
dashboard. To support States in improving their capabilities to prevent 
and detect intrusions, the CDM has a blanket purchasing agreement that 
reduces the cost to States of purchasing tools and services that 
enhance their cybersecurity. It is important to note that such 
purchases are most effective when coordinated with MS-ISAC's managed 
security services so as to maintain collective situational awareness 
across State and local governments.
    Ensure that your State complies with current security methodologies 
and business disciplines in cybersecurity.--States can turn to two 
industry standards for a baseline of effective cybersecurity practices. 
First, the Council on CyberSecurity's Critical Controls for Effective 
Cyber Defense is an industry standard that provides States with a 
security framework that can strengthen their cyber defenses and 
ultimately protect information, infrastructure, and critical assets. 
Compliance with that standard will provide a baseline of defense, deter 
a significant number of attacks, and help minimize compromises, 
recovery, and costs. The controls are based upon five guiding 
principles: Using evidence-based practices to build effective defenses, 
assigning priorities risk reduction and protection actions, 
establishing a common language that measures the effectiveness of 
security, continuous monitoring, and automating defenses.\5\ The 
controls also identify key network components and how to secure them.
---------------------------------------------------------------------------
    \5\ ``CSIS: 20 Critical Security Controls,'' http://www.sans.org/
critical-security-controls/guidelines.php.
---------------------------------------------------------------------------
    The second standard is the Information Technology Infrastructure 
Library (ITIL). An ITIL is a set of practices for information 
technology service management (ITSM) that are designed to align 
information technology (IT) with core business requirements. The latest 
editions of ITIL, which were published in July 2011, form the core 
guidance of best management practices and can greatly strengthen 
States' IT practices. The ITIL has been adopted by companies in many 
private-sector industries, including banking, retail services, 
technology, and entertainment. For States, an ITIL will help ensure 
that States' IT assets correlate with their critical assets.\6\
---------------------------------------------------------------------------
    \6\ ``ITIL: The Basics,'' http://www.best-management-practice.com/
gempdf/ITIL_The_Ba- sics.pdf.
---------------------------------------------------------------------------
    Create a culture of risk awareness.--The best firewalls and most 
advanced antivirus software cannot deter a cyber attack if the 
individuals using a network are either careless or inattentive to basic 
security practices. The strongest door and most secure lock will not 
keep a burglar out if the door is left open or unlocked.
    Governors have the opportunity to promote a culture of 
cybersecurity awareness that will help to minimize the likelihood of a 
successful cyber attack. Building a strong cybersecurity culture means 
making individuals aware of the many risks and on-going threats facing 
their networks. Those individuals must understand the potential 
negative implications of their activities or inattentiveness. To 
develop a strong cybersecurity culture, focus should be put on 
increasing awareness, setting appropriate expectations, and influencing 
day-to-day security practices of end-users. Awareness can be created by 
including relevant training and content in the orientation process of 
new staff as well as annual review of current staff. Expectations about 
users' behaviors can also be set by adding cybersecurity components to 
job responsibilities.
    However, creating a culture of awareness will be an on-going 
process that will require constant attention and on-going training. 
Governors have the opportunity to use the bully pulpit to make 
cybersecurity the responsibility of all, including ordinary citizens. 
In Delaware, State employees conduct cybersecurity presentations for 
elementary school students to reinforce the importance of internet 
safety practices. The State also hosts video and poster contests that 
encourage the public to create materials that promote cybersecurity 
awareness.\7\
---------------------------------------------------------------------------
    \7\ See http://www.dti.delaware.gov/information/
cybersecurity.shtml.
---------------------------------------------------------------------------
    Effective awareness training and education for end-users is 
recognized as the single most effective factor in preventing security 
breaches and data losses. States such as Michigan have launched 
security awareness training for all State employees and have posted on-
line guides that are available to the public with the goal of reducing 
risk.\8\ More than 50,000 users and partners are currently enrolled in 
Michigan's training program, an on-line interactive program consisting 
of a dozen 10-minute lessons. Other organizations, such as the MS-ISAC, 
also offer training resources that are readily available on-line.
---------------------------------------------------------------------------
    \8\ See State of Michigan Security Office website.
---------------------------------------------------------------------------
    Michigan also has recently launched a research, test, training, and 
evaluation facility for cybersecurity and cyberdefense. In partnership 
with State universities, the private sector, and State and local 
governments, Merit Network Inc., a 501(c)(3) nonprofit organization, 
built and developed the state-of-the-art center to further advance 
cybersecurity training in Michigan. A wide variety of course offerings 
includes certifications in incident handling, disaster recovery, 
forensics, and wireless security. Dozens of technical staff have 
already completed training and received certifications.
    In addition to offering training, States like Maryland conduct 
table-top exercises to raise the awareness and response capabilities of 
key State actors. Maryland, through the State's Emergency Management 
Administration (MEMA), facilitated an initial cabinet-level table-top 
exercise in which cybersecurity and continuity of operations awareness 
and readiness were assessed. In addition to MEMA, DHS and the National 
Security Agency Cyber Command assisted in hosting this exercise.
The Path Forward
    The actions described above are a first step for Governors to 
improve cybersecurity for State-owned and -operated systems. However, a 
secure cybersecurity fabric will require an enterprise-wide approach 
that includes coordination and partnerships with critical 
infrastructure owners and operators, private industry, and the public.
    Over the course of the next year, the NGA Resource Center for State 
Cybersecurity will issue a series of reports focusing on critical areas 
for mid- to long-term actions Governors can take to strengthen their 
States' cyber posture. Those areas include improving coordination 
between State and Federal governments, leveraging State fusion centers 
to respond to cyber threats, enhancing the cybersecurity of critical 
energy systems and infrastructure, and developing a skilled 
cybersecurity workforce.
    In addition to the work of the Resource Center, NGA also is leading 
efforts through the Council of Governors to collaborate with the 
Departments of Defense and Homeland Security on how the National Guard 
could be used to better protect both State and Federal networks. The 
National Guard's unique role serving Governors and the President, 
combined with its ability to attract and retain individuals who have 
full-time employment in IT and related fields, make it an ideal 
solution to help address the shortage of highly-skilled personnel 
necessary to protect critical networks and systems.
    Across the country, several States have established National Guard 
cyber capabilities that are closely aligned with civilian agencies and 
coordinate regularly with public utility commissions, owners and 
operators of critical infrastructure, and other public and private-
sector partners.

The NGA Resource Center for State Cybersecurity is made possible 
through the generous support from our grant makers, including the 
American Gas Association, Citi, Deloitte, Edison Electric Institute, 
Good Technology, Hewlett-Packard, IBM, Northrop Grumman, Nuclear Energy 
Institute, Symantec, and VMware.

    Mrs. Brooks. With that, I look forward to hearing from our 
distinguished panel of witnesses.
    The Chairwoman now will recognize the gentlelady from New 
York, Ms. Clarke, for any opening statement she may have.
    Ms. Clarke. I thank Chairwoman Brooks and Ranking Member 
Payne as well as Chairman Meehan for holding today's joint 
subcommittee hearing.
    We all know that cybersecurity is a matter of National, 
economic, and societal importance. Present-day attacks on the 
Nation's computer systems do not simply damage an isolated 
machine or disrupt a single enterprise system, but current 
attacks target infrastructure that is integral to the economy, 
National defense, and daily life.
    Computer networks have joined food, water, transportation, 
and energy as critical resources for the functioning of the 
National economy. When one of these key cyber infrastructure 
systems is attacked, the same consequences exist for a natural 
disaster or terrorist attack.
    National or local resources must be deployed. Decisions are 
made to determine where to deploy resources. The question is: 
Who makes these decisions?
    The data required to make and monitor the decisions and the 
location of available knowledge to drive them may sometimes be 
unknown, unavailable, or both. Indeed, computer networks are 
the central nervous system of our National infrastructure and 
the backbone of emergency management is a robust cyber 
infrastructure. These systems enable emergency management 
agencies to implement comprehensive approaches to natural 
disasters, terrorist attacks, and law enforcement issues.
    Mr. Payne has introduced a bill, the SMART Grid Study Act, 
that will give a fuller picture of the smart grid's role and 
our reliance on it, especially during an event where emergency 
management response is key to our resilience. I am glad to see 
the strong support that the National Electrical Manufacturers 
have given this bill and I especially look forward to their 
testimony today.
    There is a general lack of understanding about how to 
describe and assess the complex and dynamic nature of emergency 
management tasks in relation to cybersecurity concerns. There 
are many issues involving knowledge integration and how to help 
managers improve emergency management task performance.
    Ever since the first computer virus hit the internet it has 
been apparent that attacks can spread rapidly. Just as society 
has benefited from the nearly infinite connections of devices 
and people through the U.S. cyber infrastructure, so has 
malicious parties with the intent of taking advantage of this 
connectivity to launch destructive attacks.
    We must find a way to develop tools that we can use to 
improve emergency management successes through effective 
handling, cyber complexity, cyber knowledge, and cyber 
integration at the ground level of our first responders.
    Madam Chairwoman, I look forward to today's testimony and I 
yield back.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
    We all know that cybersecurity is a matter of National, economic, 
and societal importance. Present-day attacks on the Nation's computer 
systems do not simply damage an isolated machine or disrupt a single 
enterprise system, but current attacks target infrastructure that is 
integral to the economy, National defense, and daily life.
    Computer networks have joined food, water, transportation, and 
energy as critical resources for the functioning of the National 
economy. When one of these key cyber infrastructure systems is 
attacked, the same consequences exist for a natural disaster or 
terrorist attack.
    National or local resources must be deployed. Decisions are made to 
determine where to deploy resources. The question is: Who makes these 
decisions? The data required to make and monitor the decisions, and the 
location of available knowledge to drive them may sometimes be unknown, 
unavailable, or both.
    Indeed, computer networks are the ``central nervous system'' of our 
National infrastructure, and the backbone of emergency management is a 
robust cyber infrastructure. These systems enable emergency management 
agencies to implement comprehensive approaches to natural disasters, 
terrorist attacks, and law enforcement issues.
    Mr. Payne has introduced a bill, the Smart Grid Study Act, that 
will give a fuller picture of the smart grid's role and our reliance on 
it, especially during an event where emergency management response is 
the key to our resilience. I'm glad to see the strong support that the 
National Electrical Manufacturers have given this bill, and I 
especially look forward to their testimony today.
    There is a general lack of understanding about how to describe and 
assess the complex and dynamic nature of emergency management tasks in 
relation to cybersecurity concerns. And there are many issues involving 
knowledge integration and how it helps managers improve emergency 
management task performance. Ever since the first computer virus hit 
the internet, it has been apparent that attacks can spread rapidly.
    Just as society has benefited from the nearly infinite connections 
of devices and people through the U.S. cyber infrastructure, so have 
malicious parties with the intent of taking advantage of this 
connectivity to launch destructive attacks.
    We must find a way to develop tools that we can use to improve 
Emergency Management successes through effectively handling cyber 
complexity, cyber knowledge, and cyber integration at the ground level 
for our first responders.

    Mrs. Brooks. Thank you.
    I thank the Ranking Member of the Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies and I now turn to the Ranking Member for the 
Emergency Preparedness, Response, and Communications, the 
gentleman from New Jersey, Mr. Payne, for any opening 
statements.
    Mr. Payne. Thank you, Madam Chairwoman. Let me apologize 
for my tardiness, but Amtrak didn't cooperate this morning, so 
I apologize for that.
    I would like to thank Chairwoman Brooks and Chairman Meehan 
for calling this hearing today.
    Yesterday marked the 1-year anniversary of Super Storm 
Sandy, which devastated communities all along the Eastern 
Coast, especially in my home State of New Jersey. Although the 
people of New Jersey, with a lot of help from the Federal 
Government, have begun the long effort to rebuild what was 
lost, much work remains. I know that I am not alone when I say 
that the people affected by Hurricane Sandy can be sure that 
members of this panel will continue to work to make sure that 
the communities are rebuilt and the lessons learned are 
incorporated into future disaster plans.
    With that, I will turn to the topic of today's hearing, 
responding to cyber attack. Last month the Subcommittee on 
Emergency Preparedness, Response, and Communications held a 
hearing reviewing the findings of the Federal Emergency 
Management Agency's 2013 National Preparedness Report. For the 
second year in a row, States indicated that of the 31 core 
capabilities, cybersecurity is one of the capabilities about 
which they are least confident.
    The threats posed by a cyber attack are not new, but the 
impact of a cyber attack becomes more grave as every aspect of 
Government and the private sector become more reliant on cyber 
technologies. For example, communications essential to an 
effective emergency response, from the emergency alert system 
to E-911 and eventually FirstNet, all are vulnerable to cyber 
attack. The data networks and computer systems used to 
coordinate an efficient response to ensure that adequate 
resources are deployed to the appropriate locations are 
similarly vulnerable to a cyber breach.
    A cyber attack on any of these systems could severely 
undercut Federal, State, and local abilities to respond to 
disasters effectively. Moreover, we have seen a significant 
increase in cyber threats to our critical infrastructure.
    We know that disasters like Super Storm Sandy can wreak 
havoc on our power systems but rarely consider the harm that a 
malicious cyber attack could do to our electrical grid. 
Accordingly, I have introduced the SMART Grid Study Act, which 
will provide a comprehensive assessment of actions necessary to 
expand and strengthen the capabilities of our electrical power 
systems to prepare for and respond to, mitigate, and recover 
from a natural disaster or cyber attack to the electric grid. 
My legislation will go a long way to provide sector-specific 
awareness of cyber vulnerabilities and how to address them.
    We must help State governments undertake similar efforts to 
understand the cyber threats posed to their networks and how to 
address them. It is no secret that a lack of funding has 
contributed to the lack of confidence States have in their 
cybersecurity capabilities. I would be interested in learning 
how cuts to homeland security grant funding since 2011 has 
affected States' cybersecurity efforts.
    I have also heard that States have struggled to implement 
governing structure for cybersecurity and that finding a 
workforce with the appropriate training has proven difficult. 
So I would be interested to learn how the Department of 
Homeland Security is helping States identify best practices for 
an effective cybersecurity governance structure and improve 
training for State cybersecurity workforces.
    I look forward to learning more about how State emergency 
managers are working with State chief information officers to 
understand the role each play in responding to a cyber 
incident.
    I want to thank the witnesses for being here today and I 
look forward to their testimony.
    Madam Chairwoman, I yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                            October 30, 2013
    Yesterday marked the 1-year anniversary of Super Storm Sandy, which 
devastated communities all along the East Coast, and especially in my 
home State of New Jersey. Although the people of New Jersey--with a lot 
of help from the Federal Government--have begun the long effort to 
rebuild what was lost, much work remains.
    I know I am not alone when I say that the people affected by 
Hurricane Sandy can be sure that members of this panel will continue to 
work to make sure that the communities are rebuilt and the lessons 
learned are incorporated into future disaster plans.
    With that, I will turn to the topic of today's hearing: Responding 
to a cyber attack. Last month, the Subcommittee on Emergency 
Preparedness, Response, and Communications held a hearing reviewing the 
findings of the Federal Emergency Management Agency's 2013 National 
Preparedness Report. For the second year in a row, States indicated 
that--of the 31 core capabilities--cybersecurity is one of the 
capabilities about which they are least confident.
    The threats posed by a cyber attack are not new. But the impact of 
a cyber attack becomes more grave as every aspect of Government and the 
private sector become more reliant on cyber technologies. For example, 
communications essential to an effective emergency response, from the 
Emergency Alert System, to E9-1-1, and eventually FirstNet, are all 
vulnerable to a cyber attack.
    The data networks and computer systems used to coordinate an 
efficient response and ensure that adequate resources are deployed to 
the appropriate location are similarly vulnerable to a cyber breach. A 
cyber attack on any of these systems could severely undercut Federal, 
State, and local abilities to respond to disasters effectively.
    Moreover, we have seen a significant increase in cyber threats to 
our critical infrastructure. We know that disasters like Super Storm 
Sandy can wreak havoc on our power systems but we rarely consider the 
harm that a malicious cyber attack could do to our electric grid.
    Accordingly, I have introduced the SMART Grid Act, which would 
provide for a comprehensive assessment of actions necessary to expand 
and strengthen the capabilities of the electrical power system to 
prepare for, respond to, mitigate, and recover from a natural disaster 
or cyber attack to the electric grid.
    My legislation will go a long way to provide sector-specific 
awareness of cyber vulnerabilities and how to address them. We must 
help State governments undertake similar efforts to understand the 
cyber threats posed to their networks and how to address them. It is no 
secret that a lack of funding has contributed to the lack of confidence 
States have in their cybersecurity capabilities.
    I will be interested in learning how cuts to Homeland Security 
Grant funding since 2011 have affected State cybersecurity efforts. I 
have also heard that States have struggled to implement a governance 
structure for cybersecurity and that finding a workforce with the 
appropriate training has proven difficult.
    So I will be interested to learn how the Department of Homeland 
Security is helping States identify best practices for an effective 
cybersecurity governance structure and improve training for State 
cybersecurity workforces. I look forward to learning more about how 
State Emergency Managers are working with State Chief Information 
Officers to understand the role each play in responding to a cyber 
incident.

    Mrs. Brooks. Thank you.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 30, 2013
    In 2010, former White House Counterterrorism Advisor Richard Clarke 
stated that this country's lack of preparation for a cyber attack could 
lead to a breakdown in our critical infrastructure system that would be 
like an ``electronic Pearl Harbor.'' While some may consider his 
assessment a bit exaggerated, I think we would do well to remember it 
as we begin today's hearing.
    We should also recall that in the 112th Congress, this committee 
marked up cybersecurity legislation. Unfortunately, the Republican 
leadership of the House did not allow that legislation to come to the 
floor of the House. In January, the President issued an Executive Order 
requiring certain basic steps that will improve this Nation's ability 
to protect and defend against cyber attacks.
    While I applaud the President's efforts, I must point out that an 
Executive Order cannot expand existing legal authorities. In May of 
this year, the Department of Homeland Security testified before this 
committee that the ``United States confronts a dangerous combination of 
known and unknown vulnerabilities in cyberspace.'' DHS also told us the 
Department processed approximately 190,000 cyber incidents involving 
Federal agencies, critical infrastructure, and the Department's 
industry partners--a 68 percent increase from 2011.
    Mr. Chairman, I think that we should all have concern about cyber 
attacks on critical infrastructure--especially attacks that could 
disable the electric grid. For most of us, spending a day or two 
without electricity is an inconvenience. For others, it can be a matter 
of life or death. That is why I am pleased that Rep. Payne, Jr. 
introduced H.R. 2962, the SMART Grid Study Act. If enacted, the bill 
will require a comprehensive study to examine the construction, job 
creation, energy savings, and environmental protections associated with 
fully upgrading to a SMART Grid System. The information gathered in the 
study may help us reduce the frequency and severity of outages during 
disaster events. I urge my colleagues to support this bill.
    Still, there is more to be done. We cannot begin to address the 
current threats or anticipate future vulnerabilities if we have not 
invested in the kind of education and training necessary to develop the 
next generation of cyber professionals. Federal, State, and local 
governments and the private sector are each vulnerable to cyber 
attacks. While the threats from and sophistication of hackers continues 
to grow, initiatives to address this mutual vulnerability must be 
comprehensive and coordinated. This country's history has repeatedly 
shown that a shared commitment to a common goal is necessary to achieve 
progress--from bringing electricity to the Nation to walking on the 
moon. Today, the same kind of commitment and collaboration is necessary 
to address the cyber threat.
    Like every previous movement that resulted in progress, this first 
step must be education. That is why I am pleased that yesterday, this 
committee marked up Rep. Clarke's bill, H.R. 3107, the Homeland 
Security Cybersecurity Boots-on-the-Ground Act. This bill will help 
foster the development of a National security workforce capable of 
meeting current and future cybersecurity challenges, and it will 
outline how DHS can improve its recruitment and retention of 
cybersecurity professionals.
    Mr. Chairman, I urge this committee to continue to put forward the 
kind of legislation that will help this Nation resolve our known 
vulnerabilities. More than any other committee, we must be on the 
forefront of proposing innovations and pushing forward common-sense 
solutions.

    Mrs. Brooks. We are pleased to have a very distinguished 
panel before us today on this important topic. So with that, I 
will begin the introductions of our panelists.
    Ms. Bobbie Stempfley is the acting assistant secretary of 
the Office of Cybersecurity and Communications, where she plays 
a leading role in developing the strategic direction for CS&C 
and its five divisions. Ms. Stempfley previously served as the 
deputy assistant secretary for CS&C and as director of the 
National Cybersecurity Division, a legacy CS&C division. Prior 
to her work at CS&S, Ms. Stempfley served as the chief 
information officer for the Defense Information Systems Agency.
    Next on our panel is Mr. Charley English, who was appointed 
director of the Georgia Emergency Management Agency/Homeland 
Security in February of 2006. He has served in the agency since 
1996. He began his career in public service as a local police 
officer in 1980.
    Other current responsibilities include serving as the 
president of the national Emergency Management Association, 
chair of the Governor's Commission on 9-1-1 Modernization, and 
State point of contact for the Nation-wide Public Safety 
Broadband Network. He earned a master's degree in homeland 
defense and security from the Naval Postgraduate School in 
2004.
    I now will yield to the gentleman from Mississippi, Ranking 
Member of our subcommittee, or I am sorry, vice chair of our 
subcommittee, Mr. Palazzo, to introduce our next witness.
    Mr. Palazzo. Thank you, Madam Chairwoman.
    It is my pleasure to introduce Dr. Craig Orgeron. Dr. 
Orgeron is the chief information officer and executive director 
of the State of Mississippi's Department of Information 
Technology Services. He also has the honor of serving as the 
president of the National Association of State Chief 
Information Officers.
    Dr. Orgeron has over 24 years of information technology 
experience in both the private sector and the Federal and State 
level of the public sector. He began his career as a 
communications computer systems officer in the United States 
Air Force, serving from 1988 to 1992.
    Dr. Orgeron holds a bachelor's degree in management 
information systems, a master's degree and a doctorate in 
public policy and administration from Mississippi State 
University. Dr. Orgeron is a certified public manager and a 
graduate of the John C. Stennis State Executive Development 
Institute as well as the Institute of International Digital 
Government Research and the Harvard University John F. Kennedy 
School of Government executive education series ``Leadership 
for a Networked World.''
    Thank you, Dr. Orgeron, for being here today, and I look 
forward to hearing your testimony.
    I yield back.
    Mrs. Brooks. Thank you.
    Next up is Mr. Mike Sena, who is the director of the 
Northern California Regional Intelligence Center and serves as 
president of the National Fusion Center Association. He has 
served in law enforcement for nearly 20 years, including the 
California Bureau of Investigation Intelligence, the California 
Bureau of Narcotics Enforcement, and the California Department 
of Alcoholic Beverage Control. Mr. Sena received his bachelor 
of arts degree in criminal justice from California State 
University, San Bernardino.
    I now recognize the gentleman from New Jersey, Ranking 
Member Payne, to introduce our next witness.
    Mr. Payne. Thank you, Madam Chairwoman.
    Paul Molitor serves as the assistant vice president of 
smart grid and special projects for the National Electrical 
Manufacturers Association. For 450 member companies of NEMA, he 
is responsible for monitoring the National smart grid effort 
and interfacing with electrical utilities, manufacturers, 
Federal agencies, and the U.S. Congress.
    Paul was the first plenary secretary of the NIST Smart Grid 
Interoperability Panel, is active in the SGIP cybersecurity and 
internet protocol working groups and the International 
Electronical Commission Strategy Group 3 on the smart grid.
    Welcome, sir.
    Say that fast three times.
    Mrs. Brooks. The witnesses' full written statements--I want 
to thank you all for your written statements--they will appear 
in the record. Just as a reminder with the lighting system, you 
each will have 5 minutes and when you get to 1 minute you will 
see the yellow light and then the red light when your time is 
up.
    So I will now recognize Ms. Stempfley for her 5 minutes.

  STATEMENT OF ROBERTA STEMPFLEY, ACTING ASSISTANT SECRETARY, 
OFFICE OF CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTION 
 AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Stempfley. Thank you very much, Chairwoman Brooks, 
Chairman Meehan, Ranking Members Payne and Clarke, and 
distinguished Members of the committee. It certainly is a 
privilege to appear before you today to discuss the Department 
of Homeland Security's coordination with State, local, Tribal, 
and territorial emergency managers on cybersecurity issues.
    As the Chairwoman pointed out, it is National Cybersecurity 
Awareness Month. In fact, it is the 10th anniversary of the 
beginning of National Cybersecurity Awareness Month. This week 
is an important week for us because we also transition in 
November to National Critical Infrastructure Security and 
Resilience Month, further demonstrating the alliance--the 
integration and necessary responsibility for looking at cyber 
and physical issues in a cohesive and coherent manner.
    This month of October is the month where we get to further 
engage in public and private-sector stakeholder conversations 
about how to create safe, secure, and resilient cyber 
environment. Everyone has a role to play in cybersecurity and I 
am pleased to discuss the Department's efforts to engage State 
and local emergency managers as they build cybersecurity 
resilience into the networks and systems which they depend on 
in a daily basis.
    America's cybersecurity is inextricably linked to our 
National economic viability. IT systems are interdependent, 
interconnected, and critical to our daily lives, from 
communications, travel, powering our homes, running our 
economy, and obtaining Government services.
    DHS serves as the lead civilian Department responsible for 
coordinating National protection, prevention, mitigation, and 
recovery from cyber incidents, and we work regularly with 
business owners and operators to take steps to strengthen 
facilities and communities including the Nation's physical and 
cyber infrastructure. We are also committed to ensuring cyber 
space is supported by a secure and resilient infrastructure, 
enabling open communications, innovation, and prosperity while 
protecting privacy, confidentiality, and civil rights and civil 
liberties by design.
    Protecting this infrastructure against growing and evolving 
cyber threats requires a layered approach. The Government's 
role in this effort is to share information and encourage 
enhanced security and resilience while identifying and 
addressing gaps not filled by the marketplace.
    Providing effective cybersecurity services requires 
fostering relationships with those who own and operate 
communications infrastructure, members in the emergency 
responder community, and Federal, State, local, Tribal, and 
territorial partners. Indeed, as many of the communication 
technologies currently used by public safety and emergency 
services organizations are moving to internet-based--protocol-
based environments there is an increasing awareness of the 
cyber limitations and vulnerabilities that our emergency 
service providers will face in conduct of their mission. It is 
important, therefore, for the Department to engage not just 
with chief information officers or chief information security 
officers at the State and local level, but also the emergency 
management and other officials for whom a cyber environment is 
equally important to accomplishing their mission.
    The Department has initiated several activities focusing on 
ensuring State, local, Tribal, and territorial emergency 
managers are able to build cybersecurity resilience into those 
information and technology networks and systems upon which they 
depend.
    Several of these efforts include production and delivery of 
a cyber infrastructure risk assessment for both the Nation-wide 
Public Safety Broadband Network and the emergency services 
sector; local pilot projects with emergency managers and 
critical infrastructure partners to better understand 
interconnections between those cyber and physical 
infrastructures and potential risks presented to the Nation; 
updating the National Emergency Communications Plan in 
coordination with the public safety community, which will 
discuss how cybersecurity has become a key consideration for 
public safety officials in these new IP-enabled technologies as 
that is more readily integrated into their operations; and the 
deployment of regionally-based advisors to promote 
cybersecurity awareness, program and policy coordination, 
information sharing, and risk analysis to their partners.
    These cybersecurity advisors directly engage with State and 
local emergency centers; and partnerships with non-Federal 
public-sector stakeholders to protect critical network--for 
example, the Multi-State Information-Sharing and Analysis 
Center, which opened its Cybersecurity Operations Center in 
November 2010 and has enhanced the Department's situational 
awareness at the State and local level and allows the 
Department to provide cyber risk, vulnerability, and mitigation 
data quickly to State and local governments.
    Specifically, since 2009 the National Cybersecurity and 
Communications Integration Center has responded to nearly half 
a million incident reports and has released more than 26,000 
actionable cybersecurity alerts to public and private-sector 
partners. Of that, 7,270 were released in fiscal year 2013 
alone. That is more than 20 a day.
    DHS's servicing capabilities are designed to support 
emergency managers at all levels of engagement across 
education, planning, cyber incident response, and recovery 
activities. They are integral parts of reducing risk and 
building capabilities of our partners. As necessary, these 
relationships have to be leveraged in operational response 
efforts in order to meet those immediate and critical needs.
    I thank you for the opportunity to testify with you today 
and I look forward to answering your questions.
    [The prepared statement of Ms. Stempfley follows:]
                Prepared Statement of Roberta Stempfley
                            October 30, 2013
    Chairwoman Brooks and Chairman Meehan, Ranking Members Payne and 
Clarke, and distinguished Members of the committee, it is a pleasure to 
appear before you today to discuss the Department of Homeland 
Security's (DHS) coordination with State, local, Tribal, and 
territorial (SLTT) emergency managers on cybersecurity issues. This 
October marks the 10th anniversary of National Cyber Security Awareness 
Month, which is an opportunity to further engage public and private-
sector stakeholders to create a safe, secure, and resilient cyber 
environment. Everyone has a role to play in cybersecurity and I am 
pleased to discuss the Department's efforts to engage SLTT emergency 
managers as they build cybersecurity resilience into those networks and 
systems upon which they depend on a daily basis.
    America's cybersecurity is inextricably linked to our Nation's 
economic vitality--IT systems are interdependent, interconnected, and 
critical to our daily lives--from communication, travel, and powering 
our homes, to running our economy, and obtaining Government services. 
DHS is the lead Federal civilian department responsible for 
coordinating the National protection, prevention, mitigation, and 
recovery from cyber incidents and works regularly with business owners 
and operators to take steps to strengthen their facilities and 
communities, which include the Nation's physical and cyber 
infrastructure. We are also committed to ensuring cyberspace is 
supported by a secure and resilient infrastructure that enables open 
communication, innovation, and prosperity while protecting privacy, 
confidentiality, and civil rights and civil liberties by design.
            cybersecurity support to sltt emergency managers
    Protecting this infrastructure against growing and evolving cyber 
threats requires a layered approach. The Government's role in this 
effort is to share information and encourage enhanced security and 
resilience, while identifying and addressing gaps not filled by the 
marketplace. Providing effective cybersecurity services requires 
fostering relationships with those who own and operate the 
communications infrastructure, members of the emergency responder 
community, and Federal, State, local, Tribal, and territorial partners. 
Indeed, as many of the communications technologies currently used by 
public safety and emergency services organizations move to an Internet 
Protocol (IP)-based environment, there is an increase in the cyber 
vulnerabilities of our emergency services providers in the conduct of 
their mission. It is important, therefore, for the Department to engage 
not just Chief Information Officers (CIO) or Chief Information Security 
Officers (CISO) at the SLTT level, but also the emergency managers and 
other officials for whom a secure cyber environment is equally as 
important to accomplishing their mission.
    The Department has initiated several activities focused on ensuring 
SLTT emergency managers are able to build cybersecurity resilience into 
those information and technology networks and systems upon which they 
depend. Cyber dependencies and interdependencies require interactions 
between several different DHS organizations and SLTT partners in order 
to address this complex need. DHS has been forward-thinking as the 
reliance upon cyber systems has grown and our engagements have been on-
going.
                            previous efforts
  <bullet> Regionally-Based Cybersecurity Advisors.--The Cybersecurity 
        Advisors (CSA) program was created and implemented by CS&C in 
        2010. The regionally-deployed personnel promote cybersecurity 
        awareness, program and policy coordination, information 
        sharing, and risk analysis to their partners, including 
        emergency managers. Over the last year, CSAs have had direct 
        engagement with 13 State or local emergency centers. In 
        addition, the Department has conducted Cyber Resilience Reviews 
        and assessments and provided support to numerous National 
        Security Special Events, including planning for events such as 
        the Super Bowl, and the G8 with the City of Chicago's Office of 
        Emergency Management & Communications.
  <bullet> Emergency Services Sector Cyber Risk Assessment.--
        Encompassing a wide range of emergency response functions 
        carried out by five disciplines,\1\ in 2012 the Emergency 
        Services Sector completed a Cyber Risk Assessment, which 
        provides a risk profile to enhance the security and resilience 
        of the Emergency Services Sector disciplines. It is an effort 
        to establish a baseline of cyber risks across the sector, to 
        ensure Federal resources are applied where they offer the most 
        benefit for mitigating risk, and to encourage a similar risk-
        based allocation of resources within State and local entities 
        and the private sector. Emergency managers from local, State, 
        and Federal government actively participated in the development 
        process to ensure the assessment provided practical guidance 
        for the public safety community. The Department continues to 
        meet with officials from stakeholder associations such as the 
        National Emergency Management Association to discuss next 
        steps, including developing a workforce training program for 
        emergency managers in order to increase cybersecurity 
        capabilities within the emergency management community.
---------------------------------------------------------------------------
    \1\ Law Enforcement; Fire and Emergency Services; Emergency 
Management; Emergency Medical Services; and Public Works.
---------------------------------------------------------------------------
  <bullet> Local Pilot Projects with Emergency Managers and Critical 
        Infrastructure Partners.--DHS is conducting three pilots to 
        better understand the interconnections between cyber and 
        physical infrastructure and the potential risks to the Nation. 
        The first pilot, initiated in 2012, worked closely with 
        Charlotte, NC emergency planners and neighboring communities to 
        examine how a potential cyber attack could disrupt 
        communications or other infrastructure operations. The work 
        provided additional ways for planners to mitigate potential 
        cyber impacts and, as a result of the pilot, commercial 
        facilities adopted additional security practices to shore up 
        potential weaknesses.
    The second pilot is underway with the State of New Jersey examining 
        the interrelationship between IT, communications, and physical 
        security. The pilot involves five water and wastewater 
        facilities and has received praise from the State Office of 
        Homeland Security and our water sector partners. As a result of 
        initial findings, water facilities have taken immediate action 
        to mitigate previously unknown vulnerabilities.
    The third pilot is a joint cyber-physical assessment of a Federal 
        facility in Washington, DC to develop a common approach for 
        identifying cybersecurity vulnerabilities affecting security 
        systems of Federally-protected facilities, including 
        electrical, HVAC, water, telecommunications, and security 
        control systems.
    The lessons from these pilots have been incorporated into our 
        integrated physical and cyber Regional Resiliency Assessment 
        Program (RRAP). This is helping strengthen the partnership we 
        already have; build new relationships between SLTT CIOs, first 
        responders, and critical infrastructure owners and operators; 
        and lay the foundation increased collaboration to increase 
        cybersecurity resilience.
  <bullet> Nation-wide Public Safety Broadband Network (NPSBN) Cyber 
        Infrastructure Risk Assessment.--The development and deployment 
        of an IP-based network for public safety will represent a leap 
        forward in communications capabilities for first responders, 
        law enforcement, and other users of the NPSBN. However, the 
        move to such a network presents a challenge for the emergency 
        management community to identify threats to and vulnerabilities 
        of cyber infrastructure in the NPSBN that could affect the 
        network's reliability and security. DHS is working with the 
        First Responder Network Authority (FirstNet) and the public 
        safety community to identify cyber risks and develop potential 
        responses to those risks. In 2013, OEC developed the NPSBN 
        Cyber Infrastructure Risk Assessment to provide FirstNet with a 
        how-to guide to address the top cyber risks that the network 
        may face, and is now working with FirstNet to ensure a more 
        resilient network design that will integrate security and 
        resilience into the overall physical and cyber aspects of the 
        NPSBN.
  <bullet> Cyber Threat Information Sharing.--In June 2013, DHS 
        established ``sharelines'' in compliance with Executive Order 
        (EO) 13636 and Presidential Policy Directive (PPD)-21 to help 
        increase the volume, timeliness, and quality of cyber threat 
        information shared with U.S. private-sector entities, to 
        include SLTT owners and operators, so that these entities may 
        better protect and defend themselves against cyber threats. 
        Sharelines ``facilitate the creation and dissemination of 
        unclassified cyber threat reports to targeted private-sector 
        entities owned or operating within the United States, as well 
        as Federal, State, local, Tribal, and territorial partners'' in 
        a timely manner.
                            on-going efforts
    DHS continues to build upon the relationships we have established 
throughout the Emergency Services Sector through strategic and 
operational efforts to provide solutions to our SLTT partners. On-going 
efforts within DHS consist of:
  <bullet> Update to the National Emergency Communications Plan.--DHS 
        is updating the National Emergency Communications Plan (NECP) 
        in coordination with the public safety community to enhance 
        planning, preparation, and security of broadband technologies 
        used during response operations. The Plan will discuss how 
        cybersecurity has become a key consideration for public safety 
        officials as new IP-enabled technology is increasingly 
        integrated into operations. The NECP will endorse a multi-
        faceted approach to ensure the confidentiality, integrity, and 
        availability of sensitive data. For example, comprehensive 
        cyber training and education on the proper use and security of 
        devices and applications, phishing, malware, other potential 
        threats, and how to stay on guard against attacks will be 
        recommended.
  <bullet> 9-1-1 Centers: Next Generation 9-1-1 and Telephonic Denial 
        of Service.--Updated 9-1-1 infrastructure utilizes public 
        voice, data, and video capabilities, which introduce new 
        vulnerabilities into 9-1-1 systems. Separately, 9-1-1 centers 
        have been targeted by telephonic denial of service (TDOS) 
        attacks that overwhelm Public Safety Answering Points' 
        administrative lines. These attacks inundate a 9-1-1 call 
        center with a high volume of calls, overwhelming the system's 
        ability to process calls and tying up the system from receiving 
        legitimate calls. DHS, through the NCCIC, has worked on the 
        development and dissemination of techniques for mitigating and 
        managing these TDOS attacks in order to allow emergency 
        management agencies to continue to provide these critical 
        services to the public.
  <bullet> Protective Security Advisors (PSAs).--Within the Office of 
        Infrastructure Protection, PSAs serve as the nexus of our 
        infrastructure security and coordination efforts at the 
        Federal, State, local, Tribal, and territorial levels and serve 
        as DHS's on-site critical infrastructure and vulnerability 
        assessment specialists. PSAs have also been working with CS&C 
        to better coordinate assessments and as a result approximately 
        half of cybersecurity site assessments administered by CS&C 
        were conducted in tandem with PSAs--an example of how we are 
        working to better and more effectively integrate our physical 
        and cybersecurity efforts across NPPD and the Department.
  <bullet> Multi-State Information Sharing and Analysis Center (MS-
        ISAC).--DHS builds partnerships with non-Federal public-sector 
        stakeholders to protect critical network systems. For example, 
        the Multi-State Information Sharing and Analysis Center (MS-
        ISAC) opened its Cyber Security Operations Center in November 
        2010, which has enhanced the National Cybersecurity & 
        Communications Integration Center (NCCIC) situational awareness 
        at the State and local government level and allows the Federal 
        Government to quickly and efficiently provide critical cyber 
        risk, vulnerability, and mitigation data to State and local 
        governments. Since 2009, the NCCIC has responded to nearly a 
        half a million incident reports and released more than 26,000 
        actionable cybersecurity alerts to our public and private-
        sector partners.
    Membership in the MS-ISAC consists of State and local CISOs and 
        other leadership from all 50 State governments, the District of 
        Columbia, 373 local governments, three territories, five 
        Tribes, and 24 educational institutions. It provides valuable 
        information and lessons learned on cyber threats, 
        exploitations, vulnerabilities, consequences, incidents, and 
        direct assistance with responding to and recovering from cyber 
        attacks and compromises. The MS-ISAC runs a 24-hour watch and 
        warning security operations center that provides real-time 
        network monitoring, dissemination of early cyber threat 
        warnings, vulnerability identification and mitigation, along 
        with education and outreach aimed to reduce risk to the 
        Nation's SLTT government cyber domain. This year the MS-ISAC 
        developed a plan to increase engagement with emergency managers 
        and fusion centers.
                          operational efforts
    Assuring the security and reliability of critical information 
networks is vital across all critical infrastructure sectors, including 
the Emergency Services Sector, which is charged with saving lives, 
protecting property and the environment, assisting communities impacted 
by disasters, and aiding recovery from emergencies. DHS is uniquely 
positioned to improve the cybersecurity posture of our stakeholders.
              national protection and programs directorate
    The Offices of the National Protection Programs Directorate 
interact daily with State and local officials and emergency managers on 
communications and cybersecurity issues to strengthen infrastructure, 
educate citizens, and respond to and recover from on-line threats and 
attacks.
  <bullet> Cybersecurity and Communications.--CS&C maintains an overall 
        focus on reducing risk to the communications and information 
        technology infrastructures and the sectors that depend upon 
        them, as well as providing threat and vulnerability information 
        and enabling timely response and recovery of these 
        infrastructures under all circumstances. We execute our mission 
        by supporting 247 information sharing, analysis, and incident 
        response through the National Cybersecurity Communications 
        Integration Center (NCCIC); facilitating interoperable 
        emergency communications through our Office of Emergency 
        Communications (OEC); advancing technology solutions for 
        private and public-sector partners; providing tools and 
        capabilities to ensure the security of Federal civilian 
        Executive branch networks; and engaging in strategic level 
        coordination for the Department with stakeholders on 
        cybersecurity and communications issues. Additionally OEC has 
        strong ties to emergency managers through its outreach to 
        State-Wide Interoperability Coordinators (SWIC) who State 
        officials who are the primary points of contact for 
        communications interoperability issues. These produce State-
        Wide Interoperability Plans which establish governance, 
        processes, and procedures to support first-responder 
        communication. These strong relationships also help SLTT 
        leverage other resources such as fusion centers.
  <bullet> Office of Infrastructure Protection.--The Office of 
        Infrastructure Protection within NPPD leads and coordinates 
        National programs and policies on critical infrastructure, 
        including through implementation of the National Infrastructure 
        Protection Plan (NIPP). The NIPP establishes the framework for 
        integrating the Nation's various critical infrastructure 
        protection and resilience initiatives into a coordinated 
        effort, and provides the structure through which DHS, in 
        partnership with Government and industry, implements programs 
        and activities to protect critical infrastructure, promote 
        National preparedness, and enhance incident response. As the 
        NIPP is updated based on the requirements of Presidential 
        Policy Directive 21, Critical Infrastructure Security and 
        Resilience, NPPD will work with critical infrastructure 
        stakeholders to focus the revision on enhanced integration of 
        cyber and physical risk management, requirements for increased 
        resilience, and recognition for the need for enhanced 
        information-sharing and situational awareness. As we work to 
        update the NIPP we will support the Emergency Services Sector 
        to ensure that we inform first responders in their preparation 
        for cyber incidents.
                  coordinated cyber/physical response
    While the National Cybersecurity Communications Integration Center 
(NCCIC) processes incident reports, issues actionable cybersecurity 
alerts, and deploys on-site incident response fly-away teams to 
critical infrastructure organizations to assist with analysis and 
recovery efforts of a cyber incident, the National Infrastructure 
Coordinating Center (NICC) provides situational awareness of threats to 
physical critical infrastructure, incident response support, and 
business reconstitution assistance. In addition to this coordination, 
as incidents or threats occur, PSAs living in communities across the 
country provide the Department with a 24/7 capability to assist in 
developing a common operational picture for critical infrastructure. 
NPPD efforts to integrate physical and cybersecurity have provided 
benefits during incidents including:
  <bullet> Hurricane Sandy.--NPPD operational efforts were able to 
        facilitate much-needed fuel deliveries to critical 
        telecommunication sites in lower Manhattan in order to fuel 
        generators and keep the facilities operational in recent events 
        like Hurricane Sandy. After PSAs were notified of the fuel 
        supply shortage, NPPD provided analysis on the wide-spread 
        impact if the telecommunications facility lost power, while the 
        NCCIC worked with its public and private-sector partners to 
        identify a fuel supply and coordinate its delivery to the 
        critical site.
  <bullet> Boston Marathon Bombing.--OEC worked closely with public 
        safety agencies in the Metro Boston Homeland Security Region 
        and with the Commonwealth of Massachusetts on several key 
        emergency communications initiatives prior to the 2013 marathon 
        including observing public safety communications during 
        previous marathons and events and offering suggestions to help 
        strengthen the region's capabilities and improve coordination. 
        Three years later, DHS saw many of the recommendations from 
        this assessment in action in response to the bombings, 
        including the region's use of a detailed communications plan 
        (ICS Form 205) for the event that assigned radio channels to 
        various agencies and functions.
                               conclusion
    DHS provides a variety of services and capabilities designed to 
support emergency managers at all levels of engagement, across 
education, planning, cyber-incident response, and recovery activities. 
The services and capabilities are all integral parts of reducing risk 
and building capacity of our SLTT partners. As necessary, those 
relationships are leveraged in operational response efforts in order to 
meet immediate, critical needs. As technologies continue to advance and 
the dependencies and interdependencies between the sectors and systems 
continue to advance along with them, DHS will continue to work with 
emergency managers in a holistic fashion to plan, prepare, mitigate, 
and build resilience into those information and technology networks and 
systems upon which they depend on a daily basis. Thank you for this 
opportunity to testify, and I look forward to answering any questions 
you may have.

    Mrs. Brooks. Thank you, Ms. Stempfley.
    The Chairwoman now recognizes Mr. English for 5 minutes.

   STATEMENT OF CHARLEY ENGLISH, DIRECTOR, GEORGIA EMERGENCY 
 MANAGEMENT AGENCY, TESTIFYING ON BEHALF OF NATIONAL EMERGENCY 
                     MANAGEMENT ASSOCIATION

    Mr. English. Thank you, Chairman Brooks, Chairman Meehan, 
and Ranking Members Payne and Clarke, for your foresight in 
having this hearing on bridging the gap between emergency 
management and the cybersecurity profession.
    You know, in my profession we all have come to believe that 
the cyber threat is a very real threat but what we disagree on 
sometimes is what the extent of the consequences of that 
particular threat could be, whether or not it is just a matter 
of espionage or hackers trying to steal intellectual property 
or nation-states trying to uncover some type of technology that 
we have, or whether it is more of a theft of credit card and 
bank accounts and things of that nature, or whether or not, as 
Mr. Payne mentioned, the 9-1-1 system might be compromised in 
the middle of an event.
    So we still have a differing opinion on that but the one 
thing that we don't have a difference of opinion on, and that 
is we can never again underestimate the creativity of those who 
want to harm us. Because if there is that will they will find a 
way, whether it is the lone hacker behind the computer screen, 
whether it is a group of terrorists that want to compromise one 
of our water treatment plants or dams, or if it is a nation-
state trying to threaten us, we know that it would be a big 
mistake to underestimate that creativity and to underestimate 
the organizational skills of our enemies.
    Of course in emergency management we are all about the 
business of warnings and managing the consequences of an event. 
As I was thinking about our friends in the cybersecurity 
business I thought, you know, it would be great if we could 
develop a relationship that exists between the CIOs in the 
State and emergency managers and across the country that is 
similar to that of the meteorologists. You know, that 
relationship is on autopilot. They are monitoring the weather. 
The conversation exists on a daily basis.
    I thought about, well, you know, we have forged a new 
relationship in this country in the past 12 or 14 years with 
the law enforcement and the intel community and the emergency 
management profession. Early on that was a tough relationship 
to forge because of the security clearances and the lack of 
reciprocity and the whole information sharing and we were 
putting together a clash of cultures, if you will, because the 
emergency manager wants every agency and every person available 
to help alleviate the pain and suffering after an event and to 
help keep people out of harm's way. Naturally there are secrets 
that need to be kept, and so sometimes there was a little clash 
of cultures.
    But we have made tremendous progress in the past 12 or 13 
years in that regard and I think the same is true with the 
cybersecurity professionals and the emergency management 
community. This is a relationship that will mature and it is 
not a matter of that no one really wanted to--or didn't want to 
work together. I think everybody wanted to work together; we 
just weren't sure how we were supposed to work together.
    So I think the challenge moving forward is not necessarily 
to create a new agency or start a new grant program, but maybe 
it is on us to teach one another about our professions and 
foster that relationship for the betterment of our country.
    With that, I will yield the rest of my time. Thank you.
    [The prepared statement of Mr. English follows:]
                 Prepared Statement of Charley English
                            October 30, 2013
                              introduction
    Chairman Brooks, Chairman Meehan, Ranking Members Payne and Clarke, 
and distinguished members of this panel--thank you for holding this 
hearing today on one of the most critical issues currently facing our 
Nation. Cybersecurity and the resultant vulnerabilities and 
consequences could easily match the impact of any significant natural 
disaster, so we must analyze these threats carefully and plan to manage 
them accordingly.
    The establishment of this committee came about more than a decade 
ago in the wake of an attack which came from an under-appreciated 
threat. This morning, we stand at the precipice of another such 
attack--one from a potentially nameless, faceless, and equally under-
appreciated adversary. The threat of a cyber attack not only surrounds 
us, but also poses the additional threat of compromising the response 
and recovery efforts to the consequences of such an attack.
    Last summer, the Chairman of the House Intelligence Committee said 
he expects what he called ``a catastrophic cyber attack in the next 12 
to 24 months.''
    Earlier this year, former Secretary Napolitano said an incident on 
the scale of September 11 could happen ``imminently.''
    The Defense Science Board went even further saying ``coming cyber 
attacks could present an existential threat to the country.''
    As emergency managers, we operate in a world of consequence 
management. Accordingly, we must understand threats, protect 
vulnerabilities, and know how to manage consequences. As we examine the 
cyber threats facing this Nation, we cannot fall into a September 10, 
2001, mindset. Our actions must be pro-active and consider all 
potential outcomes. We must never say, ``it cannot happen here'' nor 
shall we fear being labeled an ``alarmist'' by merely acknowledging the 
potential devastating consequences of this already validated threat.
                               the threat
    Plenty of experts remain ready and willing to provide thoughts and 
hypotheses regarding the current cybersecurity threat. The 
vulnerabilities and resulting consequences we face in these threats 
represent the ``bottom-line'' for the emergency management community. 
Vulnerabilities are points of attack and weaknesses to be exploited. 
The emergency management community must address the consequences of 
vulnerabilities being exploited, not just the existence of 
vulnerabilities themselves. In his report to Congress of March 12, 
2013, Director of National Intelligence James Clapper outlined how ``we 
are in a major transformation because our critical infrastructures, 
economy, personal lives, and even basic understanding of--and 
interaction with--the world are becoming more intertwined with digital 
technologies and the internet.''
    Such analyses are especially concerning as we continue witnessing a 
metamorphosis of the cyber threat. Once a means by which to conduct 
espionage and steal information, the realm of cybersecurity must now 
include an analysis on the security and viability of our critical 
infrastructure. At the RSA Cybersecurity Conference on March 1, 2012, 
former FBI Director Robert Mueller stated ``to date, terrorists have 
not used the internet to launch a full-scale cyber attack. But we 
cannot underestimate their intent. In one hacker recruiting video, a 
terrorist proclaims that cyber warfare will be the warfare of the 
future.'' Only through good fortune have organized terrorist groups not 
yet taken a greater interest in cyber attacks. But such a day is 
certainly coming.
    Earlier this year, Anonymous petitioned the White House to 
recognize hacking attacks as a legitimate form of protest. Their 
solicitation argued hacking is no different than marching in an Occupy 
Wall Street protect. We must consider how such an approach can be 
combatted through our current systems and processes. Even though some 
experts believe Anonymous represents no true threat, others believe 
such an organization could bring down part of the U.S. electric power 
grid. Most recently, the homeland security community has been concerned 
with and has devoted significant resources to combatting Homegrown 
Violent Extremists (HVE). It is reasonable to conclude that these 
individuals, acting alone or in small groups, certainly have the 
motivation and expertise to conduct a cyber attack.
    Unfortunately, cyber threats represent risks far more diverse than 
most any other we face. While nation-states like Iran present a 
significant cyber threat, the greatest cyber threat from a nation 
likely comes from China where hacking stands as an official policy. 
Just recently, the Chief of Staff of the People's Liberation Army put 
the cyber threat into perspective when he suggested such an attack 
could be as serious as a nuclear bomb. Even though in his report to 
Congress Director Clapper said ``advanced cyber actors--such as Russia 
and China--are unlikely to launch such a devastating attack against the 
United States outside of a military conflict or crisis that they 
believe threatens their vital interest,'' the threat alone should be 
enough to garner the attention of the homeland security and emergency 
management community.
               addressing vulnerabilities & consequences
    Emergency managers stand increasingly concerned regarding the 
inter-connectedness of the threat and everyday life in America. 
Citizens can evacuate in anticipation of a hurricane. Strong building 
codes and safe rooms can protect lives in anticipation of earthquakes 
or tornadoes. But as we consider the breadth and depth of our reliance 
on the cyber infrastructure, the emergency response efforts regarding 
consequence management could easily overwhelm local, State, and Federal 
assets due to the interdependencies of critical infrastructure and key 
resource protection as well as the ease of vulnerability exploitation 
from a cyber attack. Consider this short list of potential hazards and 
vulnerabilities:
  <bullet> Computer-controlled dams protecting a low-lying community,
  <bullet> National power grids and nuclear power plants,
  <bullet> Emergency Alert Systems (EAS) and 9-1-1 systems,
  <bullet> Traffic systems utilized to evacuate a population,
  <bullet> Banking systems ranging from Wall Street to basic on-line 
        transfers and ATM withdrawals,
  <bullet> The National airline and air traffic control network,
  <bullet> Complex and simple communications systems from Emergency 
        Operations Centers to the basic smartphone, and
  <bullet> Water supply networks and waste management systems.
    Even many of today's commonly-used Global Positioning System (GPS), 
which relies heavily on a cyber structure, represents a potential 
target vulnerable to attack. Taken by themselves, each of these threats 
could have devastating effects. But emergency managers must consider a 
potential event impacting any number of combinations of these systems.
    The connectivity of systems today makes the consequences of a cyber 
attack more significant at all levels of government and throughout the 
private sector. Admittedly, emergency managers often defer 
cybersecurity issues to information technology (IT) officials; yet 
State IT professionals and other leaders will rely on emergency 
managers to respond to the consequences of an attack. The emergency 
management and IT communities must establish relationships and engage 
in coordinated planning and information sharing long before an event 
occurs.
    States such as Michigan continue taking a keen interest in how to 
manage the cybersecurity threat. Through robust coordination and 
planning at the State level, Michigan approaches cybersecurity with the 
same concepts as those employed when preparing for and responding to 
natural or terrorist threats.
    The Michigan Cyber Initiative brings together many State agencies 
including the Michigan National Guard, State Police, and Department of 
Technology, Management, and Budget in a coordinated effort to enhance 
detection of cyber attacks and integrate response systems. The Michigan 
Cyber Initiative integrates the Michigan Cyber Command Center, Michigan 
Cyber Defense Response Team, and Michigan Intelligence Operations 
Center to enhance prevention, early detection and rapid response, and 
control, management, and restoration. The Michigan Online Cyber Toolkit 
raises awareness and preparedness for all the components of the cyber 
ecosystem. The toolkit provides best practices and easy steps for 
safeguarding a vulnerable environment. It also offers the chance for 
users to quiz themselves, download posters and calendars, and obtain 
tip sheets on how to solve on-line problems. The toolkit is broken down 
by sectors including homes, businesses, Government, and schools.
    Michigan is clearly working hand-in-hand with various components in 
ensuring the addressing of cybersecurity across all disciplines. Even 
as these relationships continue developing in other States, however, we 
must examine how the consequences of a cyber attack will be addressed. 
Furthermore, we must complete an honest assessment of necessary 
authorities and whether they represent adequate resources to respond to 
such an attack.
                          current authorities
    As NEMA received briefings on the Quadrennial Homeland Security 
Review (QHSR ) of the Department of Homeland Security (DHS), we 
inquired as to whether the Department would examine physical impacts of 
cybersecurity. They informed us that while the QHSR would include some 
examination of the consequences of a cyber attack, the Department's 
analysis of past cyber attacks reveal very few physical impacts 
constituting a significant threat to safety and life. We want to ensure 
that all potential consequences of a cyber attack are thoroughly 
considered. We feel like anything less is short-sighted and 
underestimates the ability and creativity of the enemy whether the 
enemy is foreign or domestic. Our country has on several occasions 
witnessed the creativity of those who are intent on harming us. There 
have been shoes, printer cartridges, underwear, and pressure cookers 
used as bombs and, of course, airplanes used as missiles.
    But even States struggle in addressing this threat. In a survey 
completed in February of this year, NEMA learned:
  <bullet> 79.1 percent of States interpret the consequences of a cyber 
        attack under statutes as ``All Hazards'' versus 20.9 percent 
        which list it as a specific hazard.
  <bullet> 62.8 percent of States do not maintain a law enforcement-
        specific component to any of the State statutes relating to 
        cyber-response.
  <bullet> No clear best practice exists in assigning responsibility of 
        coordination of resources to prepare for, respond to, or 
        recover from a cyber attack with only 41.9 percent of States 
        citing such a directive. Of the 41.9 percent responsibility 
        ranges from the emergency management to IT, homeland security, 
        and the fusion center.
    With States remaining somewhat unclear on the appropriate course of 
action, the current lack of a cohesive National strategy at the Federal 
level is not surprising. We hope that the response strategy matures the 
Federal Government will not over-bureaucratize the process and bury 
State and local governments in a sea of reports, guidance documents, 
and processes.
    We think it is prudent to continue the insistence of metrics and 
return on investment calculations on the millions of dollars in 
initiatives funded at DHS. Some organizations, however, such as the 
Office of Cybersecurity and Communication (CS&C) within DHS continue 
admirable work in their outreach to State and local officials. The 
effort must be comprehensive and coordinated in order to ensure all the 
nuances of the threat receive appropriate attention. Federal efforts 
must be structured in concert with States and locals rather than 
adopting a top-down approach.
    But underlying statutory authorities are equally unclear. During 
the NEMA Annual Emergency Management Policy & Leadership Forum in 
Seattle, Washington last year, a panel of experts addressed the 
statutory issue. According to the panelists including a former Adjutant 
General, a DHS Deputy Assistant Secretary, and several State Homeland 
Security Advisors, the Civil Defense Act of 1950 (81-950) represents 
the only law potentially applicable to a potential cyber attack. Since 
the original intent of this Act provided for the response to a nuclear 
attack from the Soviet Union, the time to explore the efficacy of our 
current statutory authorities is now. Current statutory authorities are 
lacking regarding cyber attacks and are currently under revision; 
however, the recent remark by President Obama that a cyber attack can 
now be classified as an ``act of war'' significantly changes the 
``environment.'' This recent change should be taken into consideration 
when speaking of statutory authorities and can be used to further 
illustrate the fluid and uncertain nature of the issue.
    Most emergency managers will turn to the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Pub. L. 92-288). Unless 
the consequences of a cyber attack truly have catastrophic and physical 
consequences, however, the Stafford Act will be limited. Unfortunately, 
too many of the legislative fixes currently under consideration in 
Congress only address the prevention and preparedness side of 
cybersecurity. While the pre-event aspects of cybersecurity maintain a 
high level of importance, so too will the post-event considerations.
                             moving forward
    The purpose of this hearing is to ensure consequence management 
resulting from a cyber attack is recognized as a priority with emphasis 
equal to preparedness measures. As Congress considers legislative 
options, the needs of the State and locals ultimately responsible for 
the consequences of a cyber attack must be first and foremost. In May 
of last year, NEMA joined with the American Public Works Association, 
Council of State Governments, International City/County Management 
Association, National Association of Counties, National Association of 
State Chief Information Officers, National Association of 
Telecommunications Officers and Advisors, National Conference of State 
Legislatures, the National League of Cities, and the International 
Association of Emergency Managers to ask Congress for your 
consideration of key principles and values when considering 
cybersecurity legislation. The outlined principles and values include:
    1. State and local governments must be viewed as critical 
        stakeholders in National cybersecurity efforts.--Both execute 
        programs overseen and funded by Federal agencies, and 
        frequently are custodians of Federal data. They also operate 
        and manage critical infrastructure including data centers and 
        networks which are necessary for basic homeland security and 
        emergency management functions. Therefore, the Federal 
        Government must work with State and local government to share 
        threat information and to provide technical support to protect 
        computer networks and other related critical infrastructure.
    2. The Federal Government must avoid unfunded mandates on State and 
        local partners.--Public budgets are still strained at all 
        levels of government, and while State and local stakeholders 
        wish to contribute to the overall cybersecurity effort, the 
        ability to independently fund initiatives at this time is 
        unlikely. Likewise, Federal program requirements and directives 
        have traditionally hindered State and local governments from 
        potentially achieving economies of scale.
    3. Federal, State, and local governments should collaborate to 
        invest in cybersecurity awareness, education, and training for 
        public-sector employees, contractors, and private citizens.
    4. The civil liberties and privacy of all citizens must be 
        maintained while also establishing the safety and stability of 
        the internet and electronic communications.--This is especially 
        critical as governments continue to expand on-line and 
        electronic services. Safeguarding public-sector data that 
        includes personal information of citizens will require 
        cooperation and collaboration on data standards and 
        cybersecurity methodology at all levels of government.
    5. Many Federal initiatives fund internet and information security 
        programs.--However, without cross-cutting communication and 
        coordinated assets, the efforts will not realize maximum 
        efficiency and impact. If there are privacy and security 
        requirements that are pre-conditions of Federal programs and 
        funding they must be uniformly interpreted and implemented 
        across all agencies and levels.
    Earlier this year, NEMA attempted an effort to address 
cybersecurity consequences simply from the emergency management 
standpoint. A workgroup comprised of many NEMA members has worked since 
March in developing a doctrine for emergency management directors to 
consider. Unfortunately, even this effort proved more difficult than 
originally anticipated, and instead of continuing alone, NEMA has since 
joined forces with the National Governors Association (NGA) in their 
cybersecurity efforts.
    NGA recently released a ``Call to Action for Governors for 
Cybersecurity.'' The document outlines guiding principles, immediate 
actions to protect States, provides multiple examples from various 
States, and discusses a path forward. The guiding principles include 
supporting Governors, remaining actionable, reducing complexity, 
protecting privacy, employing technologically-neutral solutions, 
promoting flexible federalism, generating metrics, and promoting the 
use of incentives. NEMA looks forward to continuing our work with NGA 
as this complex issue gains increased attention.
    The combined capacity of Federal, State, and local governments to 
adequately safeguard the Nation's critical infrastructure systems 
remains essential to ensuring effective operations across the full 
spectrum of the threats we face. Furthermore, in order for communities 
to effectively manage emergency situations, cyber systems must be 
resilient to acts of terrorism, attacks, and natural disasters.
                               conclusion
    Cybersecurity represents the most complex threat and advanced 
vulnerabilities we as a Nation face. We must ensure consequence 
management resulting from a cyber attack is recognized as a priority 
with emphasis equal to preparedness measures. The challenge for all of 
us will be to examine it through a new prism, for we will fail if we 
respond the same way as always. This is not a traditional threat and 
reaches across sectors of our society which may have never before 
worked together. Cyber threats can only be addressed through 
collaboration, planning, and a deep understanding of the potential 
consequences. For if we fail either through prevention or response, the 
impacts truly could be disastrous.
    Thank you.

    Mrs. Brooks. Thank you, Mr. English.
    The Chairwoman now recognizes Dr. Orgeron for 5 minutes.

    STATEMENT OF CRAIG ORGERON, CIO AND EXECUTIVE DIRECTOR, 
    DEPARTMENT OF INFORMATION TECHNOLOGY SERVICES, STATE OF 
 MISSISSIPPI, TESTIFYING ON BEHALF OF NATIONAL ASSOCIATION OF 
                STATE CHIEF INFORMATION OFFICERS

    Mr. Orgeron. Thank you Chairs Brooks and Meehan, Ranking 
Members Payne and Clarke, and Members of the committee, for 
inviting me to speak today. I am truly honored by the 
invitation.
    As the executive director of the Mississippi Department of 
ITS, Information Technology Services, as well as president of 
the National Association of State Chief Information Officers, 
better known as NASCIO, I can report that each year States are 
facing greater numbers of evolving and sophisticated cyber 
threats. The State of Mississippi's IT systems, like systems 
from all States, face cyber attacks ranging from a few thousand 
attempts to as many as 10 million a day--some domestic, many 
international. To win this on-going battle, State IT experts 
have to be right every time while hackers need to be only right 
once.
    As these attacks continue to grow more sophisticated, both 
public and private-sector entities will need to develop better 
tools and increase collaboration to both deter attacks and plan 
a coordinated response to contain the damage from successful 
attacks. This ultimately requires a multi-sector approach with 
all levels of Government and private industry working together.
    State CIOs are, indeed, at the table in securing State 
systems. Each year NASCIO surveys its membership. Our 2013 
survey, which I have attached to my written testimony, shows 
how State CIOs are taking important steps toward building a 
more secure State IT environment. However, there are still 
known gaps.
    According to our survey data, the State CIO role in 
disaster recovery appears to be increasing yearly. State CIOs 
generally coordinate with other State officials in restoring 
and maintaining infrastructure and communication services to 
help their State respond to and recover from natural and man-
made disasters. When asked about their concerns, State CIOs put 
increasingly sophisticated threats to their systems followed 
closely by a lack of funding and inadequate availability of 
security professionals at the top of their list.
    As the Federal Government and private sector ramp up their 
defenses against sophisticated hackers, State governments are 
becoming prime targets of foreign state-sponsored entities and 
international crime syndicates. These hackers can remain in 
State systems monitoring data and waiting to unleash 
significant harm. In worst-case scenarios, a sophisticated hack 
on public safety systems or critical infrastructure could 
coincide with a physical attack or a natural disaster to impede 
the ability of authorities to respond to one or both events.
    It is well-known that when compared with the private sector 
and the Federal Government, States do not have comparable 
resources and tools to provide similar levels of protection to 
their systems despite the fact that they often maintain the 
same sensitive information and key critical infrastructure. 
This is only partly a financial issue; it is also a policy and 
a skilled personnel issue. On the latter two fronts, there is a 
great deal the Federal Government can do to help State 
governments improve preparedness and respond to cyber attacks.
    I have included many of NASCIO's policy recommendations in 
my testimony but here are five areas: First, flexibility at the 
State level. Federal resources in support to States must 
respect and bolster the State organizations. Public-sector 
cybersecurity is in its infancy. Best practices must be shared 
but diverse approaches, particularly when it comes to 
governance, information sharing, and methodology, should be 
nurtured.
    Second, increasing the workforce: Expanding Federal 
scholarships to study cybersecurity in exchange for working 
several years in the Federal Government or for State or local 
governments has a two-fold benefit of both better protecting 
our citizens and expanding available talent pools of 
cybersecurity experts.
    Third, modernizing Federal regulations: Congress should 
consider working with NASCIO and the States to update the 
Federal Information Security Management Act, or FISMA, with 
cybersecurity rules that better conform to universal, outcome-
based standards that would provide both Federal agencies and 
States with better security as well as greater efficiencies.
    Updating homeland security funding: Efforts to utilize 
existing Federal programs to better State governments in 
protecting the Nation against cyber attacks should also be 
explored. More than 10 years out from September 11, 2001, 
homeland security grants should be reformed to reflect the 
current threats faced by our States and localities.
    Last, applying what we know: NASCIO believes the National 
Cybersecurity Review, or NCSR, is an excellent opportunity to 
review our National preparedness and provide resources and 
technical assistance to fill the gaps in our defenses. Holding 
hearings such as this one and finding ways to share information 
and resources will be crucial moving forward.
    We ask that Congress continue to work with the States in 
identifying ways to protect our Nation's digital assets.
    Thank you for the opportunity to testify and your time 
today.
    [The prepared statement of Mr. Orgeron follows:]
                  Prepared Statement of Craig Orgeron
                            October 30, 2013
    Thank you Chairs Brooks and Meehan, Ranking Members Payne and 
Clarke, and Members of the committee, for inviting me to speak to you 
today. I am honored by the invitation. As we wrap up Cybersecurity 
Awareness Month it is timely that we are having this hearing on one of 
our Nation's most significant vulnerabilities.
    As executive director of the Mississippi Department of Information 
Technology Services (ITS), as well as president of the National 
Association of State Chief Information Officers, better known as 
NASCIO, I can report that each year States are facing greater numbers 
of evolving and sophisticated cyber attacks. In addition to States 
serving as a repository of sensitive data about our citizens and 
homeland, States increasingly utilize the on-line environment to 
deliver vital services, maintain critical infrastructure such as public 
utilities, and ensure our first responders receive the data they need 
in crisis situations. State government IT systems are a vital component 
of the Nation's critical infrastructure.
    Today, with this testimony, I want to provide the committee 
information on the readiness of our State governments to defend against 
and respond to major cyber attacks, as well as opportunities to 
collaborate to minimize the risk to our Nation. I hope to give you a 
sense of the threat landscape and how States and the Federal 
Government, along with the private sector, can work together to better 
secure our homeland.
    State governments are at risk from a host of new and aggressive 
security threats that require a formal strategy, adequate resources, 
and constant vigilance. Cybersecurity continues to be one of the major 
``hot button'' issues for State CIOs and one that receives increasing 
attention from Governors and other elected officials.
    State CIOs are taking the lead in securing State systems. According 
to NASCIO's 2013 survey of State CIOs conducted by in collaboration 
with TechAmerica and Grant Thornton LLP, significant improvements have 
been made in the last few years. Over three-quarters of States have 
adopted a cybersecurity framework, implemented continuous vulnerability 
monitoring capabilities, and developed security awareness training for 
employees and third-party contractors. These are key steps toward 
building a more secure State cyber environment. Unfortunately, less 
than half of States are documenting the effectiveness of the 
cybersecurity program they have in place, and even fewer have developed 
a cybersecurity disruption response plan.
    In the same survey, CIOs were asked about the major barriers they 
faced in addressing cybersecurity. The increasing sophistication of 
threats, followed closely by a lack of funding and inadequate 
availability of security professionals, topped the list. Additionally, 
the survey data reveals that only 8 percent of States have implemented 
identity and access management of State data systems across the 
enterprise, although 42 percent of respondents noted an in-process 
implementation.
    The State CIO role in disaster recovery appears to be increasing 
each year. According to the NASCIO 2013 survey almost two-thirds of 
States pursue a federated strategy to disaster recovery, with 
responsibilities split between the CIO and State departments and 
agencies. The survey also queried State CIOs regarding their role in 
helping their State respond to and recover from a natural or man-made 
disaster. The survey results show almost all CIOs see their role as one 
of coordinating with other State officials and restoring and 
maintaining infrastructure and communications services. I have attached 
the full results of this survey to my testimony today, along with the 
2012 Deloitte-NASCIO Cybersecurity Study entitled ``State governments 
at Risk,'' for your further review.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    The State of Mississippi's IT systems, like systems from all 
States, face cyber attacks every day, ranging from a few thousand 
attempts to as many as 10 million per day--some domestic, many 
international. To win this on-going battle, State IT experts have to be 
right every time, while hackers need to only be right once. As these 
attacks continue to grow more sophisticated, both public and private-
sector entities will need to develop better tools and increase 
collaboration to both deter attacks and plan a coordinated response to 
contain the damage from successful attacks. This ultimately requires a 
multi-sector approach, with all levels of government and private 
industry working together. Securing systems in cyberspace, and 
responding to successful hacking attempts, has little in common with 
traditional emergency management after a disaster. Advanced cyber 
threats are much more akin to an aggressive, new strain of virus: The 
threat is diffuse, and almost impossible to prevent before it comes 
into being. In addition, just like a new viral strain, it takes time to 
properly identify and contain the virus, educate the populous about how 
to avoid contracting it, and treat those infected.
    As the Federal Government and private sector ramp up their defenses 
against sophisticated hackers, State governments are becoming a prime 
target of foreign, state-sponsored entities, and international crime 
syndicates. Sophisticated hackers may hide in IT systems for years--
creating what is referred to as an ``advanced persistent threat.'' 
These hackers can remain in State systems monitoring data and waiting 
to unleash significant harm to our Nation's financial systems, 
transportation systems, supply chain, and key utilities such as the 
electrical grid, and pipelines, to name a few. In worst-case scenarios, 
a sophisticated hack on public safety communication systems or critical 
infrastructure could coincide with a physical attack or natural 
disaster to impede the ability of authorities to respond to one or both 
events.
    Elected leaders at all levels have come to understand that 
cybersecurity is a significant issue that requires their attention. The 
National Governors Association (NGA) is working with the National 
Emergency Management Association (NEMA), NASCIO, and members of the 
private sector, to build upon this greater understanding. Based on this 
collaboration, NGA released ``A Call to Action for Governors for 
Cybersecurity,'' which provides strategic recommendations Governors can 
immediately adopt to improve their State's cybersecurity posture. By 
gaining support from the Governor's office, a State can tackle key 
issues of governance and create an authority structure that builds 
comprehensive cybersecurity across the State enterprise. It is well-
known that when compared with the private sector and the Federal 
Government, States do not have comparable resources and tools to 
provide similar levels of protection to their systems, despite the fact 
that they often maintain the same sensitive information and key 
critical infrastructure.
    This is only partially a financial issue--it is also a policy and 
skilled personnel issue. On the latter two fronts, there is a great 
deal the Federal Government can do to help State governments improve 
preparedness and response to cyber attacks.
    On policy, perhaps the single key to ensuring a substantial attack 
does not blindside us is the Federal Government facilitating greater 
information sharing between Federal agencies, the private sector, and 
State and local partners. NASCIO believes the implementation of 
Executive Order 13636 and Presidential Policy Directive 21 will be a 
first step to achieving these goals.
    As each State's cybersecurity level of maturity and governance is 
different, NASCIO would be concerned about any effort by the Federal 
Government to designate a single State entity as the responsible point 
for sharing and disseminating information between State and Federal 
entities. Such decisions should ultimately be left to each State's 
Governor to fit their model of cyber governance. Just as each State has 
different geography and vulnerabilities to extreme weather or man-made 
disasters, State Information Technology systems and the governance of 
those IT systems are very different. Federal resources and support to 
States must respect and bolster the State organizations.
    States rely on multiple external resources for threat information, 
such as the Multi-State Information Sharing and Analysis Center (MS-
ISAC), United States Computer Emergency Readiness Team (US-CERT), and 
FBI's InfraGuard. States then act on this information through various 
channels: Some States have built a sophisticated cyber capacity at 
their State fusion center, others have bolstered the authority of their 
Office of Information Technology, and some coordinate with a cyber 
division of their State National Guard. The Federal Government should 
support all these approaches. Public sector cybersecurity is in its 
infancy; best practices must be shared, but diverse approaches--
particularly when it comes to governance and methodology--should be 
nurtured.
    Due to the diverse landscape at the State level, the Federal 
Government must be as inclusive as possible in disseminating threat 
information, and work outside the public safety and intelligence 
sector's traditional one-to-many comfort zone. Cybersecurity works best 
when more people have an understanding of the threats. Therefore, 
NASCIO and its members applaud the on-going effort to provide greater 
declassification of cyber threat information. We hope this will be 
followed by collaborative effort to standardize information exchange 
models for sharing threat data.
    Classified threats will always exist, though, and therefore, 
greater access to classified information is needed at the top echelons 
of State government. As of now, the U.S. Department of Homeland 
Security (DHS) will only provide State governments with two Top Secret 
clearances. Typically, these go to the Governor and their homeland 
security advisor or director of public safety. This means in many 
States, chief information officers or their chief information security 
officers are not cleared to the appropriate level to receive vital 
information from the intelligence community on the most advanced 
international threats against our networks. This should be remedied.
    Additionally, while opportunities for limited Federal assistance 
for cyber threats have been included in the National Preparedness Grant 
Program (NPGP), the formulaic structure of the program means States do 
not have enough funding to do much more than maintain legacy homeland 
security investments and administer grants to local governments. For 
NPGP to meet the current threats faced by our States and localities, 
changes will need to be made by Congress and the administration.
    Besides fixing funding models to meet the current threat, there are 
other policy efforts that can be undertaken to maximize the impact of 
existing cybersecurity resources. NASCIO believes the National Cyber 
Security Review, or NCSR, is an excellent opportunity to review our 
National preparedness and provide resources and technical assistance to 
fill gaps in our defenses.
    The NCSR is a voluntary self-assessment survey designed to evaluate 
cybersecurity management within State, local, Tribal, and territorial 
governments. At the request of Congress, DHS has partnered with MS-
ISAC, NASCIO, and the National Association of Counties (NACo) to 
develop and conduct the NCSR. The survey is now in the field and we 
expect final results to be provided in the first quarter of next year. 
Much like the Threat and Hazard Identification and Risk Assessment 
(THIRA) provides a guide for investment in traditional homeland 
security gaps, the NCSR could be followed up with the promise of 
Federal technical assistance to State and local participants who lag 
behind in vital areas. This will have the dual benefit of safeguarding 
citizen data and encouraging greater participation in National-level 
vulnerability assessments.
    NASCIO also supports efforts to include State governments as a 
participant in programs that build the public sector cybersecurity 
workforce. One of the greatest difficulties States face is attracting 
and retaining talent in this information security sector. States cannot 
compete with the salaries provided by the private sector, or the allure 
of positions in the U.S. Federal intelligence services. Federal 
scholarships to study cybersecurity in exchange for working several 
years in the Federal Government, or for State or local governments, has 
the two-fold benefit of better protecting our citizens and expanding 
the available talent pool of cybersecurity experts. Scholarships should 
be expanded to ensure those who take advantage of them can work at any 
level of government protecting IT systems.
    As many successful cyber attacks could be prevented by good cyber 
hygiene and security practices, Federal collaboration with State and 
local governments to create a culture of awareness and preparedness 
would also be a significant step forward. Just like ``see something, 
say something,'' clicking one's seat belt before driving, or even 
covering your mouth when you sneeze, public awareness and habit is one 
simple way to significantly reduce the threat.
    The Federal Government can also take steps to reduce burdens on 
State and local governments by harmonizing cybersecurity standards and 
requirements across Federal programs so State governments can provide 
more efficient and effective security of programs at a lower cost to 
taxpayers. Under the Federal Information Security Management Act, 
better known as FISMA, States are required to check certain boxes 
regarding security when taking Federal grant dollars. However, Federal 
agencies interpret these rules differently, and require different 
security standards. This often means that States must spend money on 
redundant systems to comply with a patchwork of Federal rules. It also 
means a lack of compatibility between various systems that States 
manage, which could otherwise be consolidated and more secure. Congress 
should work with NASCIO and the States to replace FISMA with 
cybersecurity rules that better conform to universal, outcome-based 
standards that would provide both Federal agencies and States with 
better security as well as greater efficiency.
    Cybersecurity is a complex issue, and we have a long road ahead of 
us to making our Nation's systems more secure. There is no single 
solution here--or in tech speak, there isn't a ``killer app.'' With the 
diffuse threat and diverse actors, cybersecurity requires a many-to-
many approach. Most public safety response efforts are command-and-
control, line-of-command efforts. Such efforts will not work when it 
comes to cybersecurity and response. With cyber attacks and the 
resultant impact, there is rarely a front line and the ``path of the 
storm'' is usually not obvious.
    Holding hearings such as this one and finding ways to share 
information and resources will be crucial moving forward. We ask that 
Congress continue to work with the States in identifying ways to 
protect our Nation's digital assets, including rapidly maturing threat 
information-sharing entities and developing a common framework that can 
serve as a roadmap and provide funding justification for State 
cybersecurity. Thank you for the opportunity to testify and your time 
today.

    Mrs. Brooks. Thank you, Dr. Orgeron.
    The Chairwoman now recognizes Mr. Sena for 5 minutes.

STATEMENT OF MIKE SENA, DIRECTOR, NORTHERN CALIFORNIA REGIONAL 
 INTELLIGENCE CENTER, TESTIFYING ON BEHALF OF NATIONAL FUSION 
                       CENTER ASSOCIATION

    Mr. Sena. Thank you, Chairman Brooks and Chairman Meehan 
and Members of the subcommittees. On behalf of the National 
Fusion Center Association I would like to thank you for the 
opportunity to share our perspective on this increasingly 
important issue.
    Back in July the Majority staff of this committee released 
a report on the National Network of Fusion Centers after 
visiting more than 30 of them. The report noted that nearly 200 
JTTF investigations have been created as a result of the 
information provided by fusion centers and nearly 300 terrorist 
watch list encounters reported through fusion centers enhanced 
existing terrorism cases.
    Those successes were enabled because the National Network 
has developed into a mechanism for regular exchange of criminal 
intelligence and terrorism threat information across 
jurisdictions. This mechanism is ready made for information 
sharing on cyber threats as well, but we have a long way to go.
    We need to recognize a couple of realities. First, a 
streamlined system of reporting, analyzing, and sharing threats 
and incidents requires leadership at the State and local level 
and the clear acceptance of what roles different partners can 
and should play. While the systems of interaction will vary 
from State to State, we need to structure relationships so that 
our personnel know where information should be flowing from and 
disseminated to.
    Second, our human resource base at the State and local 
levels has not adapted quickly enough to address the increased 
cyber threats. State and local law enforcement, homeland 
security, and emergency management functions, including fusion 
centers, must have personnel who are adequately trained to 
respond quickly and share information rapidly so that 
additional crimes can be prevented.
    The NFCA has been working over the past year with the 
International Association of Chiefs of Police, the program 
manager for the information-sharing environment, the Department 
of Homeland Security Office of Intelligence and Analysis, 
private-sector partners, and other associations to develop a 
pilot program. The pilot will be funded by the PM-ISE through 
DHS to the Center for Internet Securities, MS-ISAC.
    The pilot will address needs identified by a wide range of 
stakeholders including the need for increased time lines, 
volume, and quality of information the Federal Government 
shares with State, local, and private-sector partners; the need 
for standardization of information-sharing processes among 
various levels of government; and the development of cyber 
response best practices; leveraging current counterterrorism 
tools and processes for cyber incident handling and 
intelligence sharing; and promoting private-sector cooperation 
and information sharing.
    We expect the pilot to get underway soon and we look 
forward to updating the committee on our progress.
    I want to raise four issues that we think this committee 
should be aware of and help us think through.
    First, enhanced cooperation by Federal partners through 
more information sharing and Unclassified levels would help 
connect dots and lead to faster action. Our Federal partners 
tend to operate on the high side, but since threat information 
is coming into fusion centers from State, local, and private-
sector customers who expect timely responses, operating in a 
classified environment can slow down information flow.
    When the Classified document is created, an Unclassified 
version must also exist for dissemination. We need to get 
classification issue right so that we can be responsive to our 
communities while safeguarding critical infrastructure and key 
resources and information assets from exploitation.
    Second, building training and maintaining a strong cyber 
analyst cadre within fusion centers and law enforcement should 
be a priority. We have great partners like the United States 
Secret Service, whose Hoover, Alabama facility provides cyber 
training for fusion centers and other analysts. That program 
should be a priority for new investment in the immediate future 
so that the training can reach a greatly expanded audience.
    Third, the Terrorism Liaison Officer program is a 
successful partnership between fusion center and State and 
local law enforcement, fire service, first responder, public 
health, and private-sector communities within their areas of 
responsibility. This system maximizes situational awareness and 
provides a clear mechanism for ground-level suspicious and 
criminal activity to quickly funnel leads to investigative 
agencies.
    The success of the TLO program in the physical domain 
should be extended to the cyber domain in the form of a cyber 
TLO program. Trained TLOs know what to do in the world of 
physical threats; the same should happen with cyber threats.
    City, county, and State governments, as well as CIKR owners 
and operators should be part of the cyber liaison program. This 
mechanism would ensure that investigative leads filter up to 
the appropriate agencies while regular reporting on the latest 
cyber threats can be pushed down through the network.
    Finally, every fusion center should have the ability to 
triage threat reports and develop products to help partners 
mitigate threats. Ideally, we need a constantly-updated 
automatic system that provides partners with the threat 
information--both machine- and human-readable--in real time, 
action to identify the attack, identify the associated 
indicators of compromise, and disseminate those indicators of 
compromise to partners in a timely manner. That is essential.
    Thank you again for this opportunity to share our thoughts. 
I encourage you to continue to reach out to your fusion center 
in your State or region and find out about their challenges and 
best practices.
    Thank you.
    [The prepared statement of Mr. Sena follows:]
                    Prepared Statement of Mike Sena
                            October 30, 2013
    Chairman Brooks, Chairman Meehan, Members of the subcommittees, my 
name is Mike Sena and I am the director of the Northern California 
Regional Intelligence Center (NCRIC), which is the fusion center for 
the San Francisco Bay and Silicon Valley region. I currently serve as 
president of the National Fusion Center Association (NFCA). On behalf 
of the NFCA and our executive board, thank you for the opportunity to 
share our perspective on the analysis and sharing of information on 
threats from the cyber domain that we are seeing at a rapidly 
increasing pace.
    The National Network of Fusion Centers (National Network) includes 
78 designated State and major urban area fusion centers. Every center 
is owned and operated by a State or local government entity. The 
majority of operational funding for fusion centers comes from State or 
local sources, while Federal grants--primarily through the Homeland 
Security Grant Program at FEMA--are a major source of additional 
support. Our centers are focal points in the State, local, Tribal, and 
territorial (SLTT) environment for the receipt, analysis, gathering, 
and dissemination of threat-related information between the Federal 
Government, SLTT, and private-sector partners.
    As the report on fusion centers that was released in July of this 
year by the Majority staff of the full House Homeland Security 
Committee noted, nearly 200 FBI Joint Terrorism Task Force 
investigations have been created as a result of information provided to 
the FBI through fusion centers in recent years, and nearly 300 
Terrorist Watchlist encounters reported through fusion centers enhanced 
existing FBI terrorism cases. Most fusion centers are ``all-crimes'' 
centers, meaning that they do not focus on just terrorism-related 
threats. Most centers are supporting law enforcement and homeland 
security agencies in their States and regions through analysis and 
sharing of criminal intelligence to address organized criminal threats 
and to support intelligence-led policing.
    Because the National Network of Fusion Centers has developed into a 
mechanism for regular exchange of criminal intelligence and threat 
information across jurisdictions, we are increasingly involved in 
addressing cyber threats. My center--the NCRIC--is actively involved in 
cyber threat analysis and information sharing with our Federal 
partners, other fusion centers, State and local governments in our 
region, and private-sector partners. As with any other successful law 
enforcement or intelligence effort, good relationships are at the heart 
of the matter. We must develop strong and trusting relationships with 
our customer agencies as well as with the private sector to ensure 
timely information flow. As an example of partnership development, the 
NCRIC is working with a major utilities service provider--that faces 
significant persistent cyber attacks--to assign personnel inside the 
fusion center. Once in place, this partnership will result in the 
development of capabilities to improve internal security for the 
company, but also new threat analysis and prevention capabilities for 
other critical infrastructure partners across the sector. The NCRIC 
hosts a working group including private-sector CIKR owners that meets 
regularly to discuss threats and share information.
    But my center is not the norm across the National Network. Today, 
less than half of the fusion centers have a dedicated cyber program. We 
expect that number to grow as the threats grow, but we must have 
additional resources to support the specialized training and personnel 
to further that mission. We cannot take away from our established 
missions to tackle new ones. We also must coordinate closely with other 
entities that play roles in cyber threat awareness, analysis, and 
information sharing--including the organizations my fellow panelists 
here today represent.
    The reality is that we are dealing with a growing category of 
criminal activity featuring different impacts as compared to 
traditional crime. Because the impacts are ``quieter'' and--to date--
most often bloodless, it is more difficult to make a clear case for 
investments in systematic improvements in law enforcement and criminal 
intelligence capacity to deal with these threats.
    But as we all know, the threats and their consequences are very 
real. And the threats are growing--from small, targeted operations that 
impact a family's finances to large operations that threaten an 
electric grid. Large critical infrastructure owners know who to call 
when something happens--they are likely to have existing partnerships 
with Federal law enforcement and investigative bodies. But who does a 
family call when they notice they have been violated? What about a 
small business or, even more concerning, a smaller vendor that may be 
part of an important supply chain? State and local law enforcement 
across the country are reporting increased calls related to cyber 
crime. Questions related to jurisdiction and investigative capacity are 
difficult to answer in many of these cases. But the analysis and 
sharing of threat information is essential to prevent more 
victimization.
    As the NFCA has worked with our partners in State and local law 
enforcement on this issue over the past year, it has become clear that 
we have significant needs for capability and capacity enhancements. As 
I wrote in a blog post for the Program Manager for the Information 
Sharing Environment (PM-ISE) last week, the NFCA is working with the 
International Association of Chiefs of Police (IACP), the PM-ISE, 
private-sector partners, and other professional associations to assess 
needs across the country. I want to specifically acknowledge the office 
of the Program Manager for the Information Sharing Environment, DHS 
Intelligence & Analysis, and FEMA for their recognition of the 
importance of this effort, and for moving the ball downfield. These are 
outstanding partners in our efforts and we rely on them daily.
    In August 2012, the NCRIC hosted a roundtable for cybersecurity 
stakeholders that included representatives from the financial and IT 
sectors, as well as Federal, State, and local officials. These 
participants identified two types of information sharing: (1) Fusion 
centers engaged in sharing tactical information on company or sector-
specific situational awareness; and (2) fusion centers sharing 
strategic information on threats, risks, and trends through strategic 
forums that involve both the public and private sectors. IACP partnered 
with the Department of Homeland Security to facilitate a December 2012 
roundtable to further clarify requirements for cybersecurity 
information sharing.
    Building on the momentum of the August and December events, the 
NCRIC and the IACP held the Cybersecurity Evaluation Environment Pilot 
Kick-off Event in February 2013. The first day of this 2-day event 
focused on soliciting cybersecurity information-sharing requirements 
from industry partners and developing potential Federal, State, and 
local government processes for cybersecurity information sharing with 
the private sector. Participants also discussed Government requirements 
for cybersecurity information sharing. On the second day, the 
Government participants worked to design a ``cybersecurity pilot'' that 
would advance fusion center cybersecurity information-sharing 
capabilities.
    The pilot will be funded by DHS through the Multi-State Information 
Sharing and Analysis Center (MS-ISAC) and executed in coordination with 
all appropriate stakeholders. It will focus on addressing needs 
identified by stakeholders including:
  <bullet> the need for increasing the timeliness, volume, and the 
        quality of the information the Federal Government shares with 
        State/local/Tribal government and private-sector partners;
  <bullet> the need for standardization of information-sharing 
        processes between the Federal and State/local/Tribal 
        governments and the development of cyber response best 
        practices;
  <bullet> leveraging current counterterrorism-developed tools and 
        processes for cyber incident handling and intelligence sharing;
  <bullet> enhancing the protection of State/local/Tribal networks;
  <bullet> supporting cyber crime investigations; and
  <bullet> promoting private-sector cooperation and information 
        sharing.
    We expect the pilot to get underway soon and we look forward to 
keeping the committee apprised of our actions.
    We believe it is important to recognize a couple of realities. 
First, a streamlined system for reporting, analyzing, and sharing 
threats and incidents requires leadership at the State level in each of 
our States and a clear acceptance of what roles fusion centers can and 
should play. Roles, responsibilities, and capabilities should be 
clearly understood--including by private-sector partners--and we have 
to acknowledge that we are not where we need to be. That is why efforts 
like the pilot project we are about to engage in with the leadership of 
PM-ISE and IACP are so important. While the systems of interaction may 
vary from State to State, we need structured relationships so that our 
personnel know where information should be flowing from and 
disseminated to.
    Second, our human resource base in investigative and intelligence 
settings at the State and local levels has not adapted quickly enough 
to address the increased cyber threat. Again, citizens report crimes to 
law enforcement no matter the type. Federal agencies cannot possibly 
investigate all of those crimes, even as they have a need to be aware 
of them in case they relate to other incidents in other locations. 
State and local law enforcement, homeland security, and emergency 
management functions--including fusion centers--must be resourced to 
respond to those crimes quickly and share information rapidly so that 
additional crimes can be prevented.
    As the July, 2013 committee staff report on fusion centers noted, 
``Ultimately, it is the FBI's responsibility to conduct 
counterterrorism investigations. However, no single government entity 
has the mission and capacity to coordinate, gather, and look 
comprehensively across the massive volume of State and locally-owned 
crime data and SARs and connect those `dots', particularly those 
related to local crime and, potentially, the nexus between those 
criminal activities and terrorist activity. This is the principal value 
proposition for the National Network.'' This reality extends to the 
cyber threat domain.
    Next week the National Fusion Center Association will host a major 
event across the river in Alexandria, Virginia. The NFCA Annual 
Training Event will bring together fusion center directors and analysts 
from nearly all 78 centers, as well as Federal partners including DHS, 
partner associations from State and local law enforcement and emergency 
response, fire service representatives, and industry to receive 
training and share best practices. Among the training sessions are two 
separate sessions on cyber threat analysis and information sharing. 
Representatives from the Kanas City Terrorism Early Warning Group, the 
Orange County (CA) Intelligence Assessment Center, the Louisiana State 
Analytical and Fusion Exchange (LA-SAFE), the San Diego Law Enforcement 
Coordination Center, and my center--the NCRIC--will present to other 
fusion centers on effective practices and partnerships they are 
implementing in their centers. This indicates the level of interest 
across the National Network in advancing our capabilities to address 
cyber threats.
    The State of Louisiana's fusion center--LA-SAFE--has taken an 
active role in cyber threat analysis and information sharing. State, 
local, and private entities reach out to LA-SAFE when a cyber event 
occurs in their AOR. The fusion center's lead cyber analyst 
disseminates block-list information to those partners to quickly help 
strengthen their protections. LA-SAFE conducts analysis of cyber 
threats and develops intelligence reports for dissemination to relevant 
partners. To date, the LA-SAFE Cyber Unit has developed more than 40 
reports that have been shared with Federal, State, and local partners. 
Feedback to LA-SAFE--including from our Federal partners--clearly 
indicates that the information coming out of the fusion center is of 
high value.
    In one example from earlier this year, the Louisiana State 
legislature was receiving numerous phone calls from a foreign 
individual asking for the payment of a supposed debt. The numerous 
malicious calls clogged the phone lines, preventing legitimate calls 
from going in or out. The ``telephone denial-of-service attack'' 
disrupted the legislature's communications. LA-SAFE determined that 
this TDOS attack was similar to others that had occurred across the 
United States and produced and disseminated an advisory to its 
partners. Immediately afterwards LA-SAFE received numerous phone calls 
and emails from public safety answering points (PSAPs) across the 
country that had suffered similar attacks. LA-SAFE was contacted by the 
deputy manager of the National Coordinating Center for Communications 
(NCC). The NCC had received the LA-SAFE advisory from the NCCIC and 
expressed serious concern. The NCC then initiated a conference call 
with LA-SAFE, the NCRIC, NCC, NCCIC, Association of Public-Safety 
Communications Officials (APCO), National Emergency Number Association 
(NENA), FBI, and other industry representatives to coordinate a 
response.
    As a result of the coordination, multiple advisories were 
distributed from participating organizations to their customer bases. 
It has since been determined that over 200 of these attacks have been 
identified Nation-wide. These attacks have targeted various businesses 
and public entities, including the financial sector and other public 
emergency operations interests, such as air ambulance, ambulance, and 
hospital communications.
    This example of cyber threat analysis and information sharing is 
occurring on a more frequent basis across the National Network of 
Fusion Centers. Some fusion centers are collecting and analyzing 
instances of cyber attacks in their AOR, and developing products that 
are sent to other fusion centers, which enables a much larger set of 
stakeholders to prevent damaging attacks.
    LA-SAFE's recent experiences demonstrate both the opportunity and 
the need for additional focus and capacity within the network. Like 
other fusion centers that provide cyber threat analysis and sharing 
services, LA-SAFE needs more cyber analyst positions. The increasing 
threat level has already translated into increased demand for 
investigative and analytical services from fusion centers, and there is 
no sign of any slowing-down in that demand. A significant challenge for 
LA-SAFE and other centers is that cyber analysts are typically more 
expensive than traditional analysts. While physical terror threats and 
criminal activity are the primary focus of most fusion centers, the 
growing category of cyber crime means that cyber threat analysis 
resources must be strengthened at all levels of government.
    In addition, LA-SAFE and other centers believe that the system for 
interacting with Federal partners on cyber threats needs to be 
improved. Enhanced cooperation by Federal partners through more 
information sharing at the Unclassified or Sensitive-But-Unclassified 
levels would help connect dots and lead to faster information sharing 
to prevent attacks. Our Federal partners tend to operate on the ``high 
side,'' but since threat information is coming to fusion centers from 
State, local, and private-sector customers who expect timely responses, 
operating in a classified environment can slow down information flow. 
Speed is important in all investigations and prevention activities--
especially in the cyber domain. We must work with our partners to 
identify the right path forward on classification so that we can be 
appropriately responsive to our communities while safeguarding CIKR and 
information assets from inappropriate exploitation.
    Building, training, and maintaining a strong cyber analyst cadre 
within fusion centers and law-enforcement entities should be a 
priority. We have great partners like the United States Secret Service 
whose Hoover, Alabama training facility provides beginning and 
intermediate training for fusion center and other analysts. That 
program should be prioritized for new investment in the immediate 
future so that its training can reach a greatly expanded audience. The 
Multi-State Information Sharing and Analysis Center (MS-ISAC) provides 
training to State and local law enforcement to enhance cyber awareness 
and analytical capabilities. We need more of this type of training to 
ensure our analysts have the skills required to act quickly so that 
accurate, timely information can be shared broadly.
    The Terrorism Liaison Officer (TLO) program is a successful 
partnership between fusion centers and the State and local law 
enforcement, first responder, public health, and private-sector 
communities within their AORs. TLO programs train thousands of 
individuals on indicators of possible terrorist activity and reinforce 
a system of reporting of suspicious activity through the fusion centers 
and the Nation-wide Suspicious Activity Reporting (SAR) Initiative. 
This system maximizes situational awareness and provides a clear 
mechanism for ground-level suspicious activity to quickly funnel up to 
lead investigative agencies.
    The success of the TLO program in the physical terrorism domain 
should be extended to the cyber domain in the form of a ``cyber TLO'' 
program. Trained TLOs know what to do in the world of physical threats. 
The same should happen with cyber threats. City governments, county 
governments, State governments, and CIKR owners and operators should be 
part of this network. Again, maximizing situational and threat 
awareness through a systematized reporting mechanism will ensure that 
investigative leads filter up to lead investigative agencies, while 
regular reporting on the latest cyber threats by fusion centers and 
other partners can be pushed down through that network.
    Every fusion center should have the ability to triage threat 
reports and develop products to help State, local, and private-sector 
entities to mitigate the threats. Ideally, we need a constantly updated 
automated system that provides partners information--machine and human-
readable--in real time as events are happening. Investigation into the 
source of cyber attacks will occur after the fact, but action to 
identify the attack, identify the associated indicators of compromise, 
and disseminate those indicators of compromise to partners in a timely 
manner is essential.
    It will take time and money for that vision to be realized--and we 
have too little of both in the near term. In the mean time, the 
partners at this table and around the country must work together 
through the pilot project and other settings to develop policies, 
protocols, and requirements that will result in the kind of information 
sharing and threat analysis our citizens expect. In addition, a concept 
called analytical centers of excellence is being built out across the 
National Network. If a particular fusion center does not have dedicated 
cyber capabilities, then that center's personnel should know exactly 
where to go for support. Relationships should be developed and 
formalized so that centers with cyber capacity can be tapped when 
needed by other members of the National Network. This same concept is 
being applied to traditional criminal intelligence information by 
fusion centers today.
    On behalf of the National Fusion Center Association, thank you 
again for the opportunity to testify today. The members of the NFCA 
executive board and I are happy to provide you with on-going input and 
answer any questions you have. I also encourage you to reach out to the 
fusion center in your State or region and find out about their 
particular challenges and best practices related to cyber and other 
threats. We look forward to working with you on this issue.

    Mrs. Brooks. Thank you, Mr. Sena.
    The Chairwoman now recognizes Mr. Molitor for 5 minutes.

 STATEMENT OF PAUL MOLITOR, ASSISTANT VICE PRESIDENT, NATIONAL 
              ELECTRICAL MANUFACTURERS ASSOCIATION

    Mr. Molitor. Thank you, Madam Chairwoman, Mr. Chairman, and 
the Ranking Members and all of the committee Members and staff 
who have joined us today. We would like to acknowledge the 
subcommittee for holding this important hearing on a very 
timely topic, which is cybersecurity and emergency management.
    NEMA sees safe and reliable electric power as an enabler 
for first responders and supporting life-sustaining services 
like communications, food, fuel, and water in the event of a 
cyber attack. As we discuss the impacts of the cyber attack, 
direct parallels can be drawn to grid outages caused by natural 
disasters. Nothing shapes the discussion more than the lessons 
learned through the 2003 Northeastern blackout, the recent 
tsunami in Japan, the recent earthquake in Haiti, and the two 
events which affected the Congressional districts of many of 
the Members here today, Hurricanes Sandy and Katrina.
    Large-scale outages are extremely disruptive to the health 
and well being of the affected population regardless of the 
cause. The question becomes: What are the most effective steps 
we can take to prepare for and mitigate this impact?
    In much the same way as new information in communications 
technologies are reshaping how we work, learn, and stay in 
touch with one another, these same technologies are being 
applied to the electric grid, giving utilities new ways to 
manage the flow of power. Many people refer to this as the 
smart grid. This allows us to minimize the footprint of an 
outage, maintain power to critical facilities, identify those 
affected, shunt around downed power lines to increase public 
safety, and enable faster restoration of services.
    Many of these technologies are detailed in a storm 
reconstruction guide that we produced in the wake of Hurricane 
Sandy a year ago, and we had a seminar on Capitol Hill earlier 
this year where we went through this in a fair amount of 
detail.
    When the U.S. Department of Energy established their seven 
characteristics for smart grid in 2008 it included: Optimize 
asset utilization and operate efficiently; anticipate and 
respond to system disturbances--essentially, be self-healing; 
and also, operate resiliently against attack and natural 
disaster. The key to this kind of performance is rooted in 
consensus-based industry standards.
    Standards define the interaction between entities to create 
both interoperability and cybersecurity. They allow electrical 
manufacturers to build security into the grid, which is 
preferable to installing free and open devices that are secured 
after installation. We want security built into the objects and 
not bolted on afterwards. Moreover, the standards-based 
monitoring features of the smart grid will facilitate 
communications between grid operators, emergency crews, and 
first responders.
    The bill introduced by a Member of this committee, the 
SMART Grid Study Act, by Congressman Payne, would go a long way 
to evaluating the breadth and effectiveness of the solutions 
that have been deployed to date. Since 2009 we have invested 
billions of dollars in the smart grid, and if you want to 
improve something you need the measurement. We have been 
building; it is time to measure.
    Additional considerations for the cyber future of the grid 
are contained in Executive Order 13636 and the National 
planning scenarios developed by the various sector-specific 
agencies of the Federal Government in conjunction with the 
Department of Homeland Security. Scenario 15 is entitled 
``Cyber Attack'' and it provides a doomsday scenario for a 
pervasive attack on major elements of the Nation's 
communications infrastructure, weighing this scenario against 
the cybersecurity framework being developed by NIST under 
Executive Order 13636, the implementation of which is being 
supervised by DHS. This will give our industry an appropriate 
platform to ensure that we are as prepared as possible for an 
attack.
    Finally, as a 20-year veteran of the U.S. Army and a former 
company commander and battalion operations officer I can say 
that it is one thing to have a plan but another thing to 
execute it. We should regularly conduct large-scale virtual 
exercises, like the National-level exercises in 2012, to test 
our response capabilities under the cyber attack scenario or 
the natural disaster planning scenario or a combination of the 
two. The greatest fear of our industry is that someone would 
launch a cyber attack in conjunction with a natural disaster, 
which would increase its impact.
    The military performs these kind of exercises with great 
frequency and great success. It would be a good idea for us to 
figure out how we can structure regional, more detailed 
exercises under DHS for the civilian agencies and companies 
associated with the critical infrastructure, like the upcoming 
NERC event you mentioned earlier.
    I want to thank the subcommittees for allowing us to 
testify today and I look forward to your questions and 
comments.
    [The prepared statement of Mr. Molitor follows:]
                   Prepared Statement of Paul Molitor
                            October 30, 2013
    Chairmen Brooks and Meehan and Ranking Members Payne and Clarke, I 
thank you and the Members of the subcommittees for inviting me to 
testify today on cybersecurity and emergency management.
    I am Paul Molitor, assistant vice president at the National 
Electrical Manufacturers Association (NEMA). NEMA is the association of 
electrical equipment and medical imaging manufacturers, founded in 1926 
and headquartered in Arlington, Virginia. Its 400-plus member companies 
manufacture a diverse set of products including power transmission and 
distribution equipment, lighting systems, factory automation and 
control systems, and medical diagnostic imaging systems. The U.S. 
electroindustry accounts for more than 7,000 manufacturing facilities, 
nearly 400,000 workers, and over $100 billion in total U.S. shipments.
    On behalf of the 400-plus member companies of NEMA, I am 
responsible for all internal and external communications relating to 
NEMA's Smart Grid strategic initiative including interfacing with 
electrical utilities, manufacturers, State and Federal agencies, and 
the U.S. Congress. Prior to coming to NEMA, I had an established career 
in the communications industry building data networks in Top Secret 
environments and large, commercial public networks for the internet 
divisions of both BellSouth in the southeastern U.S. and globally for 
WorldCom. More recently, I spent time working with artificial 
intelligence systems in several Federal programs dealing with systems 
of systems, intelligence analysis, and National defense. Having this 
background has been a good fit for Smart Grid as we seek to bring 
additional communications and intelligence to the electric grid.
    I was the first plenary secretary of the NIST Smart Grid 
Interoperability Panel (SGIP), founded the SGIP's International Task 
Force, participated in the cybersecurity committee, and served as the 
founding director for SGIP's industry-operated successor SGIP 2.0, Inc. 
I've also served as secretary of the U.S. Technical Advisory Groups for 
the International Electrotechnical Commission (IEC TAGs) for the Smart 
Grid strategy group (SG3) and the Smart Grid user interface committee 
(PC 118). I was named to the Canadian Task Force on Smart Grid 
Technologies and Standards (TF-SGTS) and serve on the Carnegie Mellon 
University Software Engineering Institute's Smart Grid Maturity Model 
(SGMM) stakeholder panel.
    NEMA believes this hearing is incredibly important. Our Nation 
faces unprecedented cybersecurity threats that endanger not only our 
way of life, but our very health and safety as well.
    One year ago Superstorm Sandy struck the eastern seaboard and had a 
devastating impact on so many lives and the economies of a wide swath 
of States. Sandy brought out the best in our first responders, 
emergency managers, Government officials, and everyday Americans.
    The electric grid is essential to public health and welfare. So 
when Sandy knocked out power for millions of Americans, first 
responders, utility operators, and emergency managers sprung into 
action. Restoring power is part and parcel of emergency management.
    Of course, it is not difficult to imagine a scenario in which the 
electric grid is shut down not by a natural disaster but instead, 
through a cyber attack.
    Whatever the cause, resilient and reliable power is critical for 
first responders, communications, health care, transportation, 
financial systems, water and wastewater treatment, emergency food and 
shelter, and other vital services.
    Much of our electric grid was built in the 20th Century but is 
facing 21st Century threats. New technologies are being manufactured 
and implemented today to transform the grid. When smart technologies 
are in place, power outages are avoided or minimized and lives, homes, 
and businesses are better protected.
                         the smart grid's role
    In much the same way as new information and communications 
technologies are reshaping how we work, learn, and stay in touch with 
one another, these same technologies are being applied to the 
electrical grid, giving utilities new ways to manage the flow of power.
    A Smart Grid is an electrical transmission and distribution system 
that uses technologies like digital computing and communications to 
improve the performance of a grid, while enabling the features and 
applications that directly benefit the consumer.
    A Smart Grid is not an all-or-nothing proposition; there are 
gradations of ``smartness.'' As the electrical grid is modernized with 
advanced technologies, it becomes smarter. Given the diversity in 
electrical systems and the wide range of available Smart Grid 
technologies, there is no one method to measure the smartness of an 
electrical system. What matters is performance.
    The basic operation of Smart Grid technologies is designed to give 
the utility company and the consumer (residential, commercial, and 
industrial) more control over the electricity supply.
    On the consumer side, this means more information about--and thus 
greater control over--the charges that appear on individuals' electric 
bills.
    For utility companies and other grid operators, this means 
acquiring better situational awareness to know what is happening on the 
grid and to better manage it.
    By applying information and communications technologies and basic 
computing power to the electrical grid, utilities can not only minimize 
the footprint of an outage, but also identify those affected, shunt 
around downed power lines to increase public safety, and enable faster 
restoration of services.
    For example, when disturbances are detected in the power flow, 
modern circuit breakers can automatically open or close to help isolate 
a fault. Much like a motorist using his GPS to find an alternate route 
around an accident, this equipment can automatically route power around 
the problem area allowing electricity to continue to flow to the 
customer.
    Circuit breakers and other electrical devices in the field have the 
ability to communicate their status to help utilities identify 
potential problem areas, including outages or conditions that might 
result in an outage. Coupling this kind of automated activity with 
feedback from advanced electric meters would help restore service to 
the greatest number of customers even before the first truck rolls out 
of the utility service shop.
The Cyber Threat and the Electric Power Industry's Response
    Like any infrastructure that is connected to a network, the 
electric grid faces cybersecurity threats which are increasing as each 
day goes by.
    Protecting the Nation's electric grid and ensuring a reliable, 
affordable supply of power are the electric power industry's top 
priorities. Cybersecurity incidents have the potential to disrupt the 
flow of power to customers or reduce the reliability of the electric 
system. Key to the success of this effort is the ability to protect the 
grid's digital overlay against interruption, exploitation, compromise, 
or outright attack of cyber assets, whether through physical or cyber 
means, or a combination of the two.
    The electric power industry takes cybersecurity threats very 
seriously. While new digital automation and technological advancements 
can introduce new vulnerabilities, these technologies also provide 
better situational awareness and help detect threats before an attack. 
As such, protecting the grid requires a collaborative effort among 
electric utility companies, the Federal Government, and the suppliers 
of critical electric grid systems and components--both hardware and 
software. Utilities are required to deliver affordable, reliable, and 
secure electricity, while manufacturers have an obligation to ensure 
that the same qualities are present in their equipment.
    An infrastructure as massive as the electric grid which has been 
referred to as the world's largest machine cannot be simply taken out 
and replaced with the ultimate in cybersecurity. In other words, we 
cannot ``gold plate'' the entire electric grid, implementing the 
highest levels of security at every point along the distribution 
network. But a few techniques that have proven to be effective in 
sensitive operating environments in the Nation's Information Technology 
(IT) infrastructure will help ensure greater resiliency.
    The first is segmentation. In order to control the cost of 
deployment, regulators need to consider the overall security 
architecture in their rulemaking decisions. As with the electric grid 
itself, the ability to isolate security issues and insulate core grid 
functionality from their effects is equally important as the strength 
of the security measure.
    A second is layering. As with segmentation, the aspect of security 
layering needs to be considered during rulemaking. Individual security 
measures should not be considered in a vacuum, but rather in the 
context of how they contribute to the overall security architecture of 
the system. It would be important to define rules and guidelines for 
the levels of layered security required as a function of the 
criticality of a device, its functions, the impact on the surrounding 
segments of the grid, etc.
    A third is decentralization. When we think about the computing 
environment of the 1960's, 70's, and 80's, it was dominated by 
mainframe systems and centralized control of information and 
processing. With the advent of the personal computer, this migrated to 
a much more decentralized model in the 1990's and beyond making access 
to computing resources much easier and more reliable for everyone. The 
same hold true with electricity as distributed generation, energy 
storage, microgrids, and net-zero energy designs and technologies 
become more available.
    When an outage strikes, the effects often stretch far beyond the 
initial impact zone. Regional outages inhibit the ability to protect 
those in danger and provide basic needs such as food, sanitation, and 
shelter. We could recover more quickly if islands within each area 
could maintain power and serve as centers for critical services and 
recovery.
    A microgrid can isolate itself via a utility branch circuit and 
coordinate generators in the area, rather than having each building 
operating independently of grid and using backup generators. Using only 
the generators necessary to support the loads at any given time ensures 
optimum use of all the fuel in the microgrid area.
Importance of Codes for Grid Resiliency
    Of course, electric infrastructure isn't only transmission lines, 
substations, and transformers. It doesn't stop at the electric meter 
outside the building. Indeed, you could argue the grid extends to any 
end-use device you have plugged into an electrical outlet. Buildings 
consume some 70% of all energy produced and are the place where so much 
of modern life exists.
    Emergency managers should recognize the importance of adopting the 
latest electrical code. The National Electrical Code (NEC) ensures that 
new construction and major renovations are built with the latest 
technology; which will make a facility as safe as possible for either 
those who become trapped in it during the emergency as well as the 
first responders who may have to breach the building envelope in order 
to stage a rescue operation. A robust emergency plan involves ensuring 
that updated codes are in place today to improve the outcome should 
disaster strike.
    A corollary here is the energy efficiency of a building; energy 
codes establish baseline levels of efficiency. In the event of cyber 
attack, the best-prepared buildings will have a degree of back-up 
generation or may be part of a microgrid which is connected to some 
back-up generation. It stands to reason that a given amount of 
generation during the wider grid outage will be able to power more 
critical electrical loads or a given number of electrical loads for a 
longer period of time, as those loads' levels of energy efficiency are 
improved. In other words, energy efficiency allows us to do more with 
less during a grid outage.
    NEMA is encouraging States and localities to stay current on code 
adoption.
Recent Congressional Activity
    Some recent Congressional activity is worth noting.
    Speaking of energy efficiency, Sen. Gillibrand has legislation 
which amends the Stafford Act to allow a recipient of assistance 
relating to a major disaster or emergency to use the assistance to 
replace or repair a damaged product or structure with an energy-
efficient product or energy-efficient structure. When disaster strikes 
we should take the opportunity to prepare for future disasters by 
rebuilding the smart way, and energy efficiency is part of this, as 
described earlier.
    Emergency managers and State and local officials are on the front 
lines for weeks after a major disaster. Often they are supported by the 
Federal Government in terms of resources, coordination, and manpower, 
but also in terms of funding to rebuild.
    In the wake of Superstorm Sandy, NEMA encouraged Congress to allow 
Federal rebuilding funds to be used not only to replace damaged 
electrical equipment but to replace it with advanced technologies that 
allow the grid to become more resilient going forward.
    The Senate version (H.R. 1, 112th Congress) of the Sandy 
Supplemental appropriations bill included the following language.

``SEC. 1105. Recipients of Federal funds dedicated to reconstruction 
efforts under this Act shall, to the greatest extent practicable, 
ensure that such reconstruction efforts maximize the utilization of 
technologies designed to mitigate future power outages, continue 
delivery of vital services and maintain the flow of power to facilities 
critical to public health, safety and welfare.''

    Unfortunately the bill that passed the House and was signed into 
law did not include such language. This approach should be considered 
in the any future disaster bill as a way to boost the resiliency of the 
electric system and ultimately lessen the impact of cybersecurity and 
other grid-impacting events.
    Finally, on a much broader level, NEMA believes that Congressman 
Donald Payne's SMART Grid Study Act (H.R. 2962), which authorizes a 
study of the costs and benefits of developing a Smart Grid, would go a 
long way in proving the case--to those who remain unconvinced--that the 
Smart Grid is an investment worth making to make the electric grid 
stronger, safer, and more resilient. Investment in the Smart Grid is 
happening today across the country and around the world. Yet policy 
barriers remain to its full implementation.
    A comprehensive study such as this, to be conducted by the National 
Research Council with input from the Department of Homeland Security 
and other relevant agencies, includes an in-depth review of the 
vulnerabilities of the electric grid to cyber attack.
                the importance of industry-led standards
    In addition to the obvious human toll a breach in cybersecurity 
could bring, from a manufacturers perspective it could involve 
countless hours of research and development staff time, contractors, 
and consultants, which would be a considerable financial burden on the 
utilities and manufacturers alike. The implementation of those patches 
would involve potential changes to the manufacturing process, 
deployment of patches to the installed base, product recalls, rebates 
and many other expensive options, not to mention the potential for 
lawsuits, both valid and frivolous, based on the potential outages 
described above.
    An additional interest of the manufacturers is standardizing on 
common approaches to cybersecurity across utility areas of control as 
well as State boundaries. It is critical to invest the time and 
resources upfront to select the optimal architecture, minimize risks, 
and attain a reasonable balance between costs and security. 
Additionally, there exists a need for States to work together in order 
to provide utilities with a uniform security implementation approach. 
If public utility commissions do not lead with a common approach, then 
it will be very difficult for utility companies, manufacturers, the 
National Institute of Standards and Technology (NIST), and Standards 
Development Organizations (SDOs) to coordinate their security standards 
development efforts increasing the level of difficulty for 
manufacturers to provide interoperable solutions. The corresponding 
drop in interoperability could also lead to a lower quality of service 
to electricity customers.
    The key to achieving the kinds of success described in this 
testimony is to rely on proven, industry-based standards. NEMA, along 
with a number of our NGO peers retains accreditation through the 
American National Standards Institute as a standards developing 
organization (SDO). Products made from consensus-based industry 
standards are the first step in achieving interoperability.
Smart Grid Interoperability Panel: Private-sector-led Voluntary 
        Standards Processes for Cybersecurity
    Because we live in an increasingly-connected world, 
interoperability has become a bedrock concept. The NIST effort through 
their Smart Grid Interoperability Panel (SGIP) focused on industry 
standards and their role in delivering the features and functionality 
for Smart Grid. Consensus-based standards ensure that devices achieve a 
minimum level of performance, whether that is in terms of safety or 
electricity delivery, with consistency and reliability. They also 
provide a uniform management information base (MIB) that allows 
operators to seamless trade management data to achieve successful 
operations in the segmented, layered, and distributed environment 
described above. Industry-based security standards further ensure that 
security measures can be properly vetted by the global security 
community. The practice of ``security by obscurity'', where security 
measures were individually developed and implemented without review, is 
not nearly as reliable as a publicly-tested and fully-vetted security 
scheme. Identifying cybersecurity standards through a body like NIST 
allows manufacturers to make sure that cybersecurity is built into the 
productions and solutions they offer rather than being bolted-on by the 
grid operator at installation.
NIST Cybersecurity Framework
    The recently-released Executive Order for cybersecurity in the 
critical infrastructure (EO 13636) provides a template for the 
relationship between industry and Government. EO 13636, along with its 
predecessor legislation the National Technology Transfer and 
Advancement Act (NTTAA, Pub. L. 104-113) and its implementation through 
OMB Circular A-119 describe the role of Federal agencies for securely 
implementing information technologies in the Federal Government. 
Essentially these laws stipulate that the Government shall use industry 
standards to the greatest extent possible, vetted through NIST, and 
installed under the practices identified by the sector-specific Federal 
agency. The NIST framework developed under the guidance of EO 13636 
adheres to this convention establishing an effective public-private 
partnership for the implementation of cybersecurity measures in 
critical infrastructure.
Incentives for Voluntary Participation in NIST Framework and/or 
        Information Sharing
    As we've seen in the information technology industry, information 
sharing about persistent electronic threats is a key component of 
security performance. When an electronic attack is in process, 
companies like Internet Security Systems and Dell SecureWorks detect 
and analyze those threats and provide that threat information to their 
customer base. The only way they can be successful in this is if their 
customers openly and willingly provide threat and attack information to 
them.
    In order for threat analysis of critical infrastructure to be 
successful, electric utilities and others involved in the electricity 
supply chain need to be similarly forthcoming. This may mean that some 
form of inducement may be necessary in order to secure maximum 
participation. These don't necessarily need to come in the form of tax 
policy or direct financial incentives from the Federal Government, but 
something as simple as liability limitations for manufacturers and grid 
operators who have access to threat information that share it willingly 
with DHS or the appropriate sector-specific agency.
Privacy
    NEMA member companies are dedicated to the protection of 
electricity subscriber privacy and personally identifiable information 
(PII). This is another area where consensus-based industry standards 
will play a role. Effective legislation or regulation regarding 
subscriber privacy needs to be based on common terminology and privacy 
concepts. This has previously been applied to other areas such as 
patient information in the administration simplification section of the 
Health Insurance Portability and Accountability Act (HIPAA, Pub. L. 
104-191). Adaptations of these principles should apply to the 
electrical subscribers.
                      responding to a cyber event
    A front-line resource from the manufacturers of electrical 
equipment during any emergency is the NEMA Field Representative 
Program. NEMA field reps are building code and electricity subject 
matter experts. As experience masters in electrical systems, they have 
the kind of jack-of-all-trades knowledge necessary to deal with 
emergency situations. The NEMA field reps serve as a gateway to all 
400-plus members of the association and can provide company- and 
product-specific advice as well as contacts within member companies who 
can help respond. The member company technical resources can then work 
with their utility company customers to safely restore power and 
ultimately repair the damage.
National Planning Scenarios Must Focus on Interoperability
    DHS's work on the National Planning Scenarios gives them an 
appropriate entry point into the cybersecurity policy discussion. 
Scenario 15 of the National Planning Scenarios is titled ``Cyber 
Attack'' and includes the following General Description:

``This scenario illustrates that an organized attack by the Universal 
Adversary (UA) can disrupt a wide variety of internet-related services 
and undermine the Nation's confidence in the internet, leading to 
economic harm for the United States. In this scenario, the UA conducts 
cyber attacks against critical infrastructures reliant upon the 
internet by using a sophisticated C2 network built over a long period 
of time.''

    This, coupled with their role as defined in EO 13636 makes DHS the 
ideal place to host the analysis and evaluation of emergency 
preparedness testing for all elements of the critical infrastructure 
based on the current global threat profile.
    NEMA has worked with DHS in this capacity in the past including a 
contract for the Digital Imaging for Communications in Security (DICOS) 
protocol associated with TSA electronic screening systems for airport 
operations. Two important features of DICOS are that it contains the 
appropriate protections for information privacy (being based on a 
corresponding medical imaging protocol named DICOM), and that an 
integrated threat model was part of the design consideration.
    Essentially all of the tools and roles for DHS exist in other 
contexts, so the challenge will be to bring them together for the 
participation in cybersecurity event management. A future consideration 
should be a large-scale virtual exercise to test our response 
capabilities under the cyber-attack or natural disaster planning 
scenarios, or a combination of the two. The military performs this kind 
of exercise frequently with great success. It would be a good idea for 
us to figure out how we can structure a counterpart under DHS for the 
civilian agencies and companies associated with the critical 
infrastructure. Performed in real time, DHS can inject cyber events 
into the scenario exercise that would stress the communications and 
management capabilities of infrastructure service providers as well as 
Federal, State, and local agencies. The participants would then be 
compelled to respond to make sure they had the appropriate protections 
and contingency plans in place.
    In closing, let me restate NEMA's commitment to improving the 
resiliency of the electric grid. We are willing partners with 
Government and industry in the effort to protect Americans from the 
threat of cyber attack and to help our country respond when disasters 
strike.

    Mrs. Brooks. Thank you, Mr. Molitor.
    I now will recognize myself for 5 minutes of questions. 
Like to start out with Ms. Stempfley.
    The After-Action Report for the National Level Exercise 
2012 was released this summer. Can you please give us an update 
on the Office of Cybersecurity and Communications' efforts to 
work with other Federal agencies--specifically FEMA--as well as 
the State, local, and private-sector stakeholders to address 
the issues that were identified after this cyber exercise?
    Ms. Stempfley. Thank you, ma'am. Yes. Absolutely.
    The National-Level Exercise was the first exercise where we 
had a cyber and physical scenario performed at this level. It 
was the attempt to bring together all of our stakeholders and 
look at how clear we had put roles, responsibilities, and 
execution and resources towards the specific problem. We were 
pleased to learn a number of lessons from that exercise, to 
include how to partner and the role the private sector must 
play in this very important mission area.
    We have been undergoing a series of after-action 
activities, which range from the development of specific, more-
focused exercises and action plans so that when a particular 
event might occur either in a sector or at a location we have 
playbooks available for that. These are being developed as a 
community, so not just DHS with FEMA but DHS with our 
stakeholder partners in the private sector, as well, with State 
and locals and other activities.
    As a matter of fact, we worked with the energy sector to 
execute what we called the Poison Apple exercise not too long 
ago, which was one of these exercises testing a playbook of a 
particular scenario in the electric sector.
    Mrs. Brooks. Specifically, I am glad you bring up the 
electric sector, because as I mentioned, I just met with 
representatives from our energy sector just this last month and 
an issue that they brought up, which actually came up in a 
mark-up of bills yesterday, involved security clearances and 
the difficulty and the backlog in the issuance of security 
clearances for the private sector.
    Can you please discuss that issue a bit and whether or not 
you are aware of the clearance backlog on the issuance process 
and are there anything that we can do to help you address--
because it was my understanding from--and I had a number of 
private-sector companies that expressed that frustration, and 
it seems to me that if we are truly going to have this 
partnership, particularly with respect to a response, can you 
address this issue of security clearances?
    Ms. Stempfley. So one of the things that we all know and my 
colleague pointed out is we are not going to clear ourselves 
into solving these problems. So we are actively working on 
share lines and reducing information to FOUO and Unclassified 
activities. That is not to say that there are not times when 
clearances are required nor are we walking away or any of that 
from the security clearance issue.
    My colleague, the assistant secretary for infrastructure 
protection, is very focused on this. Respectfully, I would like 
to take the question for the record and have her help----
    Mrs. Brooks. Who would that be?
    Ms. Stempfley. Caitlin Durkovich.
    Mrs. Brooks. Okay. Thank you. We would be very interested 
because it appears to be an issue that is causing a lot of 
concern in the private sector and we certainly respect the 
importance of security clearances but we must find a way to 
communicate and work together.
    Ms. Stempfley. Yes, ma'am.
    Mrs. Brooks. Thank you.
    Like to ask Mr. Sena: When you talked about the fusion 
centers--and I have visited my fusion center and also would 
encourage others on the committees to visit their fusion 
center--yours is one of the small number of fusion centers in 
the National Network proactively incorporating cybersecurity 
into its mission, and I applaud you for that. What Federal, 
State, and local partnerships have you developed to help the 
NCRIC contribute to this important mission?
    Mr. Sena. Thank you, Madam Chairwoman.
    As far as the development of our fusion center capability--
sorry. Thank you.
    As far as our--still getting a little feedback here, but--
the development of our center, we have been able to work 
closely with actually centers across the country to develop a 
cyber information network for exchanging information and then 
developing partners from the private sector to collaborate and 
actually provide them with timely information as well as 
working with our Federal partners from the FBI, from our 
partners in the Secret Services who are working the criminal 
angles of cyber threats, to be able to develop a network.
    We are actually in the process right now of bringing in 
private-sector personnel to support that effort so that they 
are in an environment where we can share that information with 
them and develop products that they need. We have been working 
on that over the past year-and-a-half to develop a program and 
we are working right now to that National pilot to involve 
other centers and really develop centers of analytical 
excellence in the field of cybersecurity.
    Mrs. Brooks. Well, we look forward to you sharing that work 
with other fusion centers around the country.
    I see that my time is expired and I am now going to 
recognize the gentleman from New Jersey, Mr. Payne, for any 
questions he might have.
    Thank you.
    Mr. Payne. Thank you, Chairwoman Brooks.
    First I would like to thank Ms. Stempfley for discussing 
the New Jersey pilot project with critical infrastructure and 
emergency managers. I am very interested in learning, you know, 
about the pilot and hope that you can come back and discuss 
that with me at a later date.
    Let's see. This question is for you, as well. Each witness 
here has discussed the urgent threat a cyber attack poses and 
that it is critical that the Government and the private sector 
take immediate action to beef up its cybersecurity efforts.
    Earlier this month the Government was shut down for 16 days 
and I am interested in learning how that affected our cyber 
activities. Can you discuss how the Government shut-down 
affected cybersecurity efforts and which programs were 
furloughed and what projects were delayed as a result of that?
    Ms. Stempfley. Certainly the Government shut-down was a 
traumatic event for the staff in the Office of Cybersecurity 
and Communications. Important functions that were considered 
exempt associated with immediate loss of life or property were 
sustained during that period, including functions in the 
National Cybersecurity and Communications Integration Center, 
so our important information-sharing activities on threats that 
were on-going in that moment continued during this time frame.
    Unfortunately, we had to suspend efforts in some other 
important activities, including workforce development, 
including outreach and awareness, and including engagement with 
many of our partnership and stakeholder engagement efforts. So 
all of our sector-coordinating council activities and planning 
activities were suspended during this time period.
    Mr. Payne. Okay. So those are the programs that were 
furloughed?
    Ms. Stempfley. Yes, sir.
    Mr. Payne. Okay. So how did it affect us in terms of our 
ability to thwart off these attacks?
    Ms. Stempfley. We focused during the furlough period on 
those efforts that were instantaneous or immediate--those 
monitoring of Government networks against threats and 
protection and defense measures about activities that were 
currently on-going. No progress was made during that period on 
programmatic activities and so future efforts nor planning 
activities occurred. So during this period we were required to 
focus exclusively on the near-term and real-time efforts of the 
Department.
    Mr. Payne. So we could only focus on what was right before 
us at that time.
    Ms. Stempfley. Yes, sir. The requirement was we had to 
consider as exempt activities only things were about the 
immediate loss of life or property.
    Mr. Payne. Would you consider us being more vulnerable at 
that time?
    Ms. Stempfley. It certainly was a time where there were not 
as many eyes on the Federal networks and it was a period where 
the vulnerability and the threat environment are something we 
are concerned about.
    Mr. Payne. At our full capability do you feel there are 
enough eyes on it when we are at full deployment?
    Ms. Stempfley. I don't believe you will hear anyone from 
the Office of Cybersecurity and Communications acknowledge that 
the resources in this particular mission area are commiserate 
with the threat that we undergo, and so there certainly is more 
work to be done in that area. We have important programs, 
including continuous diagnostics and mitigation and the 
Einstein programs, which are a part of helping put automation 
into the Federal networks, and the Enhanced Cybersecurity 
Service, which is about helping to share information for 
protection with critical infrastructure.
    Mr. Payne. Okay. Thank you.
    Mr. Molitor, as you know, I have been a strong proponent of 
smart grid technology. Can you talk about how smart grid 
technology will improve resiliency in the event of a cyber 
incident?
    Mr. Molitor. Yes, sir. Thank you.
    The nature of a smart grid--and it comes from those 
performance objectives that were laid out by D.E., the whole 
idea that the grid should be able to react to disturbances and 
be somewhat self-healing. So the idea that if a cyber attack 
happens when the more intelligent grid than what we have today 
will be able to do is to be able to shunt around the areas that 
are affected. It doesn't matter whether that is an effect that 
is caused by a natural disaster, a man-made disaster, or a 
cyber attack.
    So ideally what we want to do is contain the damage, and 
Madam Chairwoman this morning cited the television program this 
weekend, and that is an example of a cascading event, and what 
we really want to do is avoid that and that is what the 
technologies through the smart grid will enable.
    Mr. Payne. Right. So in layman's terms, I, you know, was 
interested, you know, when you say you have a blackout at your 
home, you contact the utility, utility has to contact workers 
to go out to your home and start from that point and work their 
way back.
    Mr. Molitor. Right.
    Mr. Payne. What the smart grid technology would allow is 
almost for that affected area to contact the utility to say, 
``There is a problem in this area,'' which alleviates that 
working back and finding the issue and then figuring out what 
was wrong and then correcting it and getting it--so the smart 
grid technology would allow us to be proactive in protecting 
the grid and almost alerting us prior to the issue being 
created.
    Mr. Molitor. Yes. Absolutely. The analogy that we have used 
in the past is like the dashboard on your car. You know, you 
have got the regular speedometer, tachometer, all of the things 
that tell you how the grid is functioning at the time.
    But what we are really adding with the smart grid are the 
idiot lights--the things that come on when your oil pressure 
gets dangerously low and those kind of things. So yes, those 
are the automated notifications that can come off the grid and 
it can actually tell the emergency response crews in the 
utility companies where to go in order to fix and restore power 
to the greatest number of people.
    There is a great example from Vermont Electric Cooperative, 
who was hit by Hurricane Irene in 2011 and then again by 
Hurricane Sandy in 2012. They had rebuilt smart in the interim 
period, and so they had a much easier time restoring service 
and they had much fewer consumers who were affected as a result 
of Hurricane Sandy than they were during Hurricane Irene. So we 
know that it works just exactly the way you described.
    Mr. Payne. All right. Thank you.
    Mrs. Chairman, I yield back.
    Mr. Meehan [presiding]. I thank the gentleman from New 
Jersey and I want to thank each of the panelists for being 
here.
    I am pleased to share the podium today with my colleagues 
from both sides of the aisle but particularly Mrs. Brooks. She 
and I served together as United States attorneys prior to our 
service in Congress, and as a result of that had the 
opportunity to work with a number of the fusion centers and 
others in the beginning of the process of creating what we 
hoped would be a robust capacity to respond to threats of 
terrorism both on the National as well as the local level.
    One of the things that is eye-opening has been the 
tremendous success that has been realized in this country by 
virtue of, since September 11, we have been relatively free of 
the same kind of scope of a threat actually carrying itself 
out. But we have seen so many of the natures of the threats 
change, and I think this area of cyber is the one that probably 
creates, in my mind, the greatest concern. So there is a lot of 
effort that is going on and I am interested in hearing a little 
bit about your perspectives.
    Let me start with you, Mr. Molitor, first. Just, you know, 
we have spent a great deal of time working here on cyber 
legislation, the purpose of which is to ease the ability for 
the private sector to communicate in a meaningful, two-way 
communication through the National--what we call the NCIC, the 
Cyber Information Center, with real-time information, and also 
the ability for you to be able to work it through in a way in 
which there are protections for sharing information and 
otherwise.
    Have you had a chance to look at some of the proposed 
legislation and do you have any sense as to whether it would be 
beneficial to member companies like your companies within your 
organization and others similar across the country?
    Mr. Molitor. Yes, absolutely. We are at the tip of the 
spear--the electrical manufacturers--in terms of cyber attacks. 
So when the attack comes in they are going after our members' 
gear as it sits in the electric grid. We need to be able to 
capture that information and then forward it, so that the folks 
at the fusion centers and the other panelists at this table can 
respond and react to it.
    So it would be extremely helpful, just in terms of clearing 
the communications. During my opening testimony I mentioned 
something about how industry-based standards are the best way 
to do that. So we have to be able to communicate across 
multiple entities, between the electric utilities, between the 
Government agencies.
    So yes, absolutely. It would be most helpful so that we 
know how to communicate with each other so we can standardize 
the messages and respond to the threat.
    Mr. Meehan. Well, we are already dealing with it in real 
time, and I appreciate that. I think one of the realities is 
there is almost a triage, as you often do when you are dealing 
with an issue, and because of the threats that took place 
against the banking system and the, you know, in New York and 
other kinds of sort of major threats, the concern has been how 
we alleviate the potential for the drastic attack. But there is 
a lot of things that are going on that are impacting, as I 
think was well-articulated, State and local authorities who 
have a great deal of information, have a great deal of assets, 
are equally being probed, and otherwise.
    So how are things working today with regard to the sharing 
of information? You have expressed some frustrations and some 
hopes, and I would like you to spend a little bit more time 
saying, well, suppose something happens right now.
    Mr. English, Mr. Orgeron, and Mr. Sena, you are already, in 
various capacities, your fusion centers are working with some 
of the State and local organizations. Let us say you have an 
enterprise from another country--a criminal enterprise that is 
probing your data systems. How are you communicating today and 
what is it that allows you to work effectively together, or 
not?
    Mr. Orgeron. Mr. Chairman, from a CIO perspective, I think 
that we are communicating with our fusion center. But one of 
the things that we have advocated is governance structures that 
are more clearly defined in terms of paths of communication.
    The cyber component is, for all intents and purposes, is 
sort of the newer thing that we are adding into these threats, 
building into the processes that exist. So if there is an 
emergency management plan there should be a cyber annex to it 
in terms of key actors and what the roles those actors have----
    Mr. Meehan. Are you telling me now that that is what your 
concern is, that that is not clearly identified right now?
    Mr. Orgeron. I don't think that the governance is clearly 
identified across the States from a CIO perspective. That is 
certainly something, when we worked with NEMA and the National 
Governors Association in the cybersecurity call to action, that 
we certainly advocate. Governance was the top of the list in 
terms of paying close attention to authority and 
responsibility.
    To your point about that, you know, what is happening at 
the State level, how those flows of communications are 
happening is something that we still think needs effort.
    Mr. Meehan. What is your idea of a way to make it work?
    Mr. Orgeron. I think you have to have a framework, and I 
think the framework has to be something that can be easily 
communicated in----
    Mr. Meehan. What would it spell out?
    Mr. Orgeron. Well, as an example, one of the things from a 
technology perspective is the NIST framework.
    Mr. Meehan. Yes.
    Mr. Orgeron. You know, a more common framework with which 
you can have a very effective conversation----
    Mr. Meehan. Have you been following the meetings that have 
been taking place in California and other places and you are 
satisfied that they are working towards that direction?
    Mr. Orgeron. It certainly seems so from the CIO 
perspective.
    Mr. Meehan. Good. Good.
    Mr. Sena.
    Mr. Sena. Yes, sir.
    Mr. Chairman, we do have an issue. You know, it took us a 
long time to get suspicious activity reporting worked out with 
a unified message, and there is currently a unified message 
task team working on the issue of cyber. But at the National 
level we have six different cyber centers and people are all 
saying, ``Well, who do you call?''
    Right now the message that is being developed, ``Call any 
of them.''
    Mr. Meehan. Is this among your fusion centers--six of them 
are cyber centers, as well?
    Mr. Sena. This is Nationally, at the Federal level--those 
different cyber centers that--and trying to work on who do you 
call?
    Mr. Meehan. Who do you include as the National cyber 
centers? Because one of the parts of the legislation--and Ms. 
Stempfley's working very, very hard on this with DHS--is to 
create the NCIC as that central point, which everybody knows 
they go to one place.
    Mr. Sena. Well, we have the NCIC and then there are 
investigative--National cyber investigative joint task force 
that is out there along with some of the other organizations 
that we have that have investigative responsibilities and 
agency responsibilities within their organizations.
    Mr. Meehan. Who would you consider to be among them?
    Mr. Sena. Within DHS, within FBI, within Secret Service----
    Mr. Meehan. You are not trying to say there is any kind of 
jurisdictional issues going on among the Federal agencies----
    Mr. Sena. Not at all. They are working very diligently 
together but it still causes confusion.
    At the local level when you ask folks--when you go to an 
organization the companies that we have brought in said, ``Who 
do you call?'' and they go, ``We have a rolodex of 100 
people.''
    Mr. Meehan. Well, that is just counter to any kind of 
effective capacity to do things, isn't it?
    Mr. Sena. Absolutely, sir. That is what we have been 
striving to do is to say, all right, let's create a unified 
message on where this information should go--and not just the 
telephone calls, but also the machine-readable information. 
This information moves quickly. The threat moves quickly. We 
have to respond to that as quickly.
    Mr. Meehan. In fact, and I am--my time is up--but that is 
actually, in real time we do not have the ability, if we are 
responding to a threat which is happening in the cyber world, 
to rely on telephone calls to do it. It needs to be, in many 
ways, as they say in the old days, machine-to-machine to be 
able to mitigate these things, and oftentimes just identifying 
the nature of the threat, where it is emanating from and how we 
alleviate it in and of itself requires that kind of tremendous 
engagement.
    Mr. Sena. Absolutely, sir.
    Mr. Meehan. Well, I am grateful. That is a very, very good 
point. We are appreciative of your testimony today because this 
is exactly the kinds of things that we need to be able to look 
at to create that connection that works effectively, and that 
is something that we will work towards.
    I am going to, appropriately, if you know anything about--
Mrs. Brooks is going to take over the chairmanship of this 
hearing again. I am going to get back in my rightful place to 
her right.
    So at this point in time I will return the chairmanship of 
the hearing to Mrs. Brooks and I thank you for your testimony.
    Mrs. Brooks [presiding]. Thank you, Chairman Meehan, for 
sitting for me while I quickly went to another hearing. This 
happens to us occasionally here as Members of Congress. We are 
called to other hearings that are also important and I actually 
may be called back because they were not ready for me. So we 
may be doing this musical chairs once again.
    I now will, I believe, recognize the gentleman from 
Mississippi, Mr. Palazzo, for 5 minutes of questions. Thank 
you.
    Mr. Palazzo. Thank you, Madam Chairwoman.
    Again, I want to thank the chairs for holding this joint 
hearing. I believe that cyber attacks could be as devastating 
as 9/11 and more widespread.
    Just look at what happened a few weeks ago in Louisiana 
when the EBT card system went down for just a few hours. 
Widespread panic and confusion ensued. Just imagine what a 
cyber attack on our power grids or utilities would do to the 
stability of this Nation.
    It is vital to America's interests to address our 
cybersecurity risks sooner rather than later. I think we must 
utilize all of our resources in preparing and responding to a 
cyber attack. It is not a matter of ``if''; it is a matter of 
``when'' that will happen.
    I believe a good resource we could use is our Nation's 
National Guard. I am a proud original cosponsor of H.R. 1640, 
the Cyber Warrior Act. This bill establishes a cyber and 
computer network incident response team within the National 
Guard of every State and the District of Columbia, allowing the 
National Guard to assist in responding to cyber attacks.
    It would also allow the Governor of the State to activate 
the incident response team to help train State and local law 
enforcement and other responders in cybersecurity and help them 
develop best practices. I am going to ask all the questions to 
weigh in on what they think of that bill and the utilization of 
the National Guard.
    But before I do that I would like to ask Dr. Orgeron, could 
you speak to what Mississippi has done to prepare for a cyber 
attack?
    Mr. Orgeron. Thank you, Congressman. Be happy to.
    One of the things that we advocate at NASCIO and that we 
have done in Mississippi is risk assessment. So with the help 
of the Department of Homeland Security, in August of this year 
we had a tabletop exercise in our State. That tabletop brought 
in multiple agencies, our fusion center, and others to kind-of 
run through a scenario--multiple scenarios over about 2\1/2\ 
days.
    It is in our document--in our call to action document that 
NASCIO worked with with NEMA and NGA. One of the things that is 
advocated is looking at what that risk portfolio looks like.
    I will tell you that the outcome of that table-top really 
proved out some of the things that we have talked about here 
today--the fuzziness in some instances of understanding who 
needs to communicate with who, where those lines of authority 
and responsibility start and stop. We were very appreciative to 
the Department of Homeland Security for coming down to our 
great State and working with us and facilitating that process. 
We found it of great value.
    It is one of the things that made its way into the call to 
action of States doing those kinds of exercises, so I certainly 
would advocate for that. I think the great State of Mississippi 
has benefited from it.
    Mr. Meehan. Will the gentleman yield for 1 second on this?
    Mr. Orgeron--
    Mr. Palazzo. Can you give me extra time towards--fantastic. 
I yield to the Chairwoman.
    Mr. Meehan. I just cleared that with the Chair.
    Did you do an After-Action Report after you----
    Mr. Orgeron. I believe my chief security officer did, yes, 
sir.
    Mr. Meehan. Would you make that available to us, please?
    Mr. Orgeron. Of course.
    Mr. Meehan. I would like that. Thank you.
    Mr. Palazzo. Dr. Orgeron, did the State CIOs typically have 
access to Top Secret security clearances to help protect their 
State from cyber attacks?
    Mr. Orgeron. No, sir, typically not. It is my understanding 
that there are, I believe, two designated in each State--of 
course the Governor, many times it is the director of homeland 
security or potentially public safety. NASCIO certainly 
advocates that, given the rise of the impact of cyber that the 
State CIO be considered if more clearances were going to be 
allocated.
    Mr. Palazzo. So you say States get two clearances?
    Mr. Orgeron. That is my understanding, Congressman.
    Mr. Palazzo. Ms. Stempfley, would you like to add to that, 
and why they only receive two security clearances?
    Ms. Stempfley. Sir, I am not familiar with the limitation 
in that situation. I know we have actively worked to get 
clearances at the Secret level for State CIOs so that we can 
share the threat information, and generally that includes 
fulsome content for protection measures. So we have been 
actively working with NASCIO and others to get State CIOs 
cleared at that Secret level.
    Mr. Palazzo. Well, I have been to the TS/SCI process and I 
know it is lengthy, but you don't want to cut corners because 
you do want to make sure we have the proper people accessing 
that information. So, of course, if we could lift any undue 
restrictions that would be nice so the States can be well 
prepared to access these threats.
    If I may sneak in a question, you know, begin the 
utilization of the National Guard, the Cyber Warrior Act, if--I 
would just like if you all would want to share your thoughts? I 
will start with Mr. Molitor on the end, a fellow soldier.
    Mr. Molitor. Yes, absolutely. I spent some time in the 
Wisconsin National Guard so I appreciate that. That is an ideal 
place. When I heard it earlier during the testimony I thought 
that is an ideal place to house that kind of capability because 
that State Governor can call on the National Guard for the 
response locally. That is where you bring together the civilian 
assets, the intelligence assets, and also the military assets 
to address natural disasters.
    I was actually called out one time after a tornado in 
Wisconsin for recovery efforts, so it is the same kind of thing 
in my previous testimony, where the parallels between natural 
disasters and cyber attacks are--it is the same impact on the 
citizenry, and that would be a great place, I think, to house 
that kind of capability on each State.
    Mr. Palazzo. I definitely agree with you.
    I guess we will keep going down anybody that wants to 
volunteer until the Chairwoman takes away my time.
    Mrs. Brooks. Important topic, so----
    Mr. Sena. From the fusion center perspective, and also 
being a high-intensity drug trafficking area director in my 
center, we have had great support from the National Guard. They 
have been very good. That is the one thing that we are 
lacking--those folks that can go out there and help support, 
either through assessments or actually in reacting and 
responding to the threat issues.
    Every day we are bleeding a million cuts from the cyber 
attacks. They are doing telephone denial of services combined 
with cyber attack on institutions and really cutting us to the 
core. They move much quicker than we can.
    But having the Guard, having additional resources to deal 
with those threats is tremendous, so I appreciate that. Thank 
you, sir.
    Mr. Orgeron. Same sentiment, Congressman. I know Chairwoman 
Brooks mentioned in the beginning, Maryland. Maryland is one of 
the States highlighted in document that has a relationship with 
our National Guard.
    My own personal experience post-Hurricane Katrina was the 
formation of a wireless commission in our State, of which the 
National Guard had a seat at the table. We have built 144 
towers across the State to communicate in the event of another 
disaster. That partnership has been wonderful for the States. I 
would certainly expect that this one would be equally as good.
    Mr. English. Congressman, we certainly support that in 
Georgia and our troops are readying for that mission as we 
speak. I would say, though, that we need to give consideration 
to it being a symbol, similar to the civil support teams and 
the homeland security response forces that are now known as a 
full-time effort on a daily basis that we can work with all the 
time versus a weekend-type assignment.
    Mr. Palazzo. That is a good point.
    Ms. Stempfley. We have heard this morning about the need 
for competent, skilled resources in the cyber environment. I 
know in the National Initiative for Cybersecurity Education we 
have really been focused on understanding the State and local 
needs in cybersecurity, as well. I understand the Defense 
Department and DHS and others are studying how to best apply 
these particular resources and these patriots to this problem.
    Mr. Palazzo. I want to thank our witnesses.
    Madam Chairwoman, I yield back.
    Mrs. Brooks. Thank you. A very important point with respect 
to the National Guard and the critical role they could play and 
that they do play in many States.
    I am going to start on our second round of questioning, and 
if I--and this is to Mr. English. As I mentioned in my opening 
statement, you know, I did watch that movie that aired--not 
certain if others did--the ``American Blackout,'' this past 
weekend, and it really did portray the physical consequences of 
a cyber attack on the electrical grid. One of the issues that 
was highlighted in that movie and that I actually had a 
discussion with folks in my district last week was the impact 
on hospitals.
    As a leader in emergency management, I recently visited 
with representatives from a hospital, and as I was getting a 
tour of this hospital, and particularly in the emergency 
department, we began talking about if there were to be an 
incident of a cyber attack and its effect on a hospital system. 
While the physicians talked about the fact that, you know, they 
have operated, you know, until most recently without electronic 
medical records and could certainly perform their duties, what 
they would have the most difficulty with were their diagnostic 
equipment--the imaging technology and all of the ability to get 
all of the diagnostics that they now are so accustomed to 
receiving in real time, very, very fast turnaround, whether it 
is test results or lab results.
    So I am curious from the emergency manager's perspective 
and the cybersecurity professionals, how do you coordinate with 
hospital systems and has there been a focus on that beyond 
making sure they have back-up generators and the fuel? What 
kind of coordination are we really doing with our hospitals? 
Because I have to tell you, this emergency department, while it 
has been discussed, I think they acknowledged and recognized 
that most have not really prepared for that possibility.
    Any discussion on that, Mr. English?
    Mr. English. Yes, ma'am.
    Whereas we can always do a lot more work--that is for 
sure--the NEMA, the association I represent, and the State 
public health directors have been, for the past 18 months, 
involved in a relationship where we meet at least twice a year 
with the leadership and discuss issues. Most recently, one of 
the issues that we are talking about are--is mission-ready 
packaging for hospitals so that in a disaster they have already 
quantified the type of assets that they need through our mutual 
aid compact that can go from one State to the next, or from a 
impacted area to a--or a non-impacted area to an impacted area.
    So I feel like the relationship is good. I am thankful that 
throughout the past 10 years that States have been able to get 
more capability with the grant programs that have been 
available, and certainly a lot of those have gone toward 
hospitals and readiness and communication.
    Now, the issue of the imaging and that type of thing, I am 
not familiar with that. But I do know that the dialogue exists.
    Mrs. Brooks. Well, and I--the hospitals certainly said they 
have done a tremendous amount of exercising on triaging and 
mass casualty events and so forth, but I think the possibility 
of truly a power--a significant and/or long-term power outage, 
I am just curious whether or not anyone else has discussed with 
their hospital systems this very potential possibility.
    Anyone else have any discussions with their hospitals or 
with their public health officials about that possibility?
    Mr. Molitor.
    Mr. Molitor. Well, I haven't had those specific discussions 
but there was an article in a magazine about 2 years ago 
focusing on a hospital in Japan in the wake of the tsunami 
there, and they had a micro-grid in place, and so this goes to 
Mr. Payne's point about the smart grid. A micro-grid is a self-
sustaining--it includes electricity generation and also 
management for the load so that you can fuel critical loads 
like imaging diagnostics during an outage.
    So this whole idea of a micro-grid, a self-contained, 
powered administration unit within the hospital is a very real 
prospect. It exists today and there are hospitals, even in the 
wake of Hurricane Sandy, that were able to continuously operate 
in the middle of the rest of the area where the power was down 
because they had those kind of micro-grids, that smart grid 
technology in place.
    Mrs. Brooks. Do you have any idea roughly how many 
hospitals in our country might actually employ micro-grids?
    Mr. Molitor. I do not, but we have a medical imaging 
division within my NEMA--you have got two NEMAs up here; get a 
little confusing.
    Mrs. Brooks. Sure.
    Mr. Molitor. But we have a medical imaging division and I 
can certainly check with them to see if they have any data and 
report back.
    Mrs. Brooks. Okay. Thank you very much.
    At this time I will ask Ranking Member Mr. Payne if he 
might have any further questions.
    Mr. Payne. Thank you.
    Let's see. Mr. English and Mr. Orgeron--I am sorry.
    Mr. Orgeron. Orgeron.
    Mr. Payne. Orgeron. I apologize.
    Mr. Orgeron. That is okay.
    Mr. Payne. In 2013, the National Preparedness Report, 
States reported to FEMA that the lack of funding to develop 
robust cybersecurity capabilities significantly contributed to 
the lack of confidence in State cybersecurity capabilities. Can 
you talk about the role of Homeland Security--the homeland 
security grant money in developing State cybersecurity programs 
and how reduced funding levels have affected the States' 
efforts to develop those cybersecurity capabilities?
    Mr. English. The lack of funding I don't think--or the 
cutback in funding hasn't impacted that situation, in my 
opinion. I think Mr. Orgeron mentioned earlier that maybe if 
the grant guidance was a little broader and could entertain a 
more robust effort in the cybersecurity realm would be what we 
would like to see. Not necessarily more money, but maybe 
flexibility within the money that we get to be able to build 
out the cybersecurity assets.
    Currently in my State we do use grant money to provide 
cybersecurity analysts to our fusion center, but that is really 
a drop in the bucket on the financial side.
    Mr. Orgeron. Mr. Payne, we would agree. I mean, I think our 
basic position is that the formulaic nature with the way the 
grants work, it may not be as appropriate in terms of the cyber 
threat, and we think some alterations there, much to Mr. 
English's point, would benefit programmatically as a whole 
cyber initiatives in States.
    I should mention, too--it may be a good point to mention, 
too, that, I mean, the States are struggling with workforce 
issues as well. Not exactly related, but, you know, it is very 
difficult to recruit credentialed and excellent people.
    There is, I have been told, in essence nearly zero 
unemployment in this sector. So, you know, we have a very 
difficult time in recruitment, as well, which can impact 
mission.
    Mr. Payne. Okay. For you gentlemen, as well, with respect 
to the activities aimed at helping States prepare for, prevent, 
respond to, and mitigate the effect of cyber attack, what is 
the Federal Government doing well and what needs to be 
improved?
    Mr. English. I have got to sing the MS-ISAC praises. I 
think they are doing very well, and without great detail, had 
up-close and personal experience with their deployment to our 
State, along with our chief CIO--our CIO and the FBI and DHS 
and others. So I am more aware that that really worked well.
    Mr. Orgeron. I agree. We have a great relationship with MS-
ISAC.
    Two other quick points: I mentioned our table-top cyber 
exercise that the Department--we got funding for, I think is a 
great, great tool at the State level to bring parties together 
to kind-of walk through, you know, exercises of various sorts. 
I think it is exceedingly beneficial to us.
    Mr. Payne. The other end, what needs to be improved?
    Speak now.
    [Laughter.]
    Mr. English. I really don't have a lot of heartburn with 
what is going on in the coordination effort. I think we always 
want to make sure that States and local governments are 
included in the plans before they are made so that we can have 
input and that we are at the table. As I mentioned earlier, 
creating those reasons to collaborate I think go a long way.
    Mr. Payne. So you say we are doing everything right?
    Mr. English. Out of ignorance, I would say yes.
    Mr. Payne. Okay.
    Mr. Orgeron. Well, you know, being the IT guy at the table, 
I think we want to be at the table when those conversations 
happen. I think it does vary from State to State on how those 
dialogues occur, but I think whether it is talking about the 
clearance issue or formulaic changes in grant programs, I think 
CIOs, or maybe even the chief security officers if not the CIO, 
certainly we would want them to be at the table during some of 
those dialogues, given the threats that we face.
    Mr. Payne. Thank you.
    Thank you, Mrs. Chairman. I yield back.
    Mr. Meehan [presiding]. Thank you. I appreciate the 
gentleman from New Jersey exploring those areas.
    Let me ask about the relationship that exists with the 
private sector, because one of the realities is 85 to 90 
percent of the resources are really tied up in the private 
sector. We have heard numerous concerns about resources that 
are available, both with trained personnel and otherwise. Yet 
oftentimes--Mr. Molitor may be able to speak to--there are a 
lot of members of industries and others who have already made 
significant investment in individuals with skills who are there 
to--if we can share information appropriately--it also includes 
expertise.
    What is your experience in terms of--Mr. Molitor, you can 
jump into this question but I am interested in those who are 
representing State or fusion centers--what is your experience 
in terms of working with the private sector and how you are 
taking advantage of any of their assets or information sharing 
in your local regions?
    Mr. Sena. From my perspective I am probably the most 
blessed because my fusion center is in Silicon Valley area, so 
we have got some of the best technology companies in the world 
there. So we have got lots of resources and oftentimes they 
know better and more ways about dealing with a threat than we 
do in the Government or could ever think of.
    So trying to, you know, bring them on-board to make them 
partners with what we are doing in the fusion center, so that 
way when they ask us a question we can provide them with an 
answer. If they have the answer we can share that answer with 
others.
    They have, you know, bonded together over the last few 
decades in building Silicon Valley and the resources there, but 
the networks go well beyond there; they go across our country 
and across the world where they have, you know, resources. So 
trying to work closely with them, trying to give them those 
resources.
    The question always comes up about the clearances, and even 
within the fusion center ourselves, it takes us a long time to 
get our own people clearances, so but also trying to get them 
up to speed and actually physically bringing them in so we can 
give them briefings and actually help them solve these problems 
together. That is my goal.
    Mr. Meehan. So are there parts of your fusion center which 
include a regular seat from private industry as a member?
    Mr. Sena. We have. In fact, one of our first folks that we 
brought in was from the health care industry. So right now we 
are working with some of our power partners and utility 
partners to bring them into the center to get them the 
backgrounds, to get them the resources they need.
    Oftentimes some of these people already had worked in 
Government for one of the other, you know, organizations that 
dealt with cyber and now they are working for the private 
sector. So we are trying to use those resources they have to 
help us in our center.
    Mr. Meehan. Mr. Orgeron, are you working at all with the 
individuals in the private sector in your capacity?
    Mr. Orgeron. We do, Mr. Chairman. You know, States rely on 
telecom providers, big system integrators daily to get the work 
done in the States, so that reliance is absolutely there. I 
would expect not only in my State but in many of the States the 
need for dialogue and inclusion is imperative.
    Mr. Meehan. Have you worked with CERT teams at all?
    Mr. Orgeron. We have.
    Mr. Meehan. Have they been helpful?
    Mr. Orgeron. They have.
    Mr. Meehan. Ms. Stempfley, Secretary, you have been a 
stalwart supporter of efforts to do some of these things, but 
one of the council recommendations from your own advisory 
council was taking advantage of some of the skilled alumni in 
DHS, among other things, and there was an idea of trying to do 
outreach to make some of them available. Has there been any 
progress made in the idea of looking for those who have been in 
service at DHS and are no longer there but are still able to 
lend a hand at times of crises?
    Ms. Stempfley. I regret, sir, I am not familiar with the 
recommendation that you speak of. But one of the things we work 
very closely with is keeping in touch with both former DHS 
colleagues and those individuals in the private sector who are 
a part of the owners and operator community of critical 
infrastructure, particularly those in the IT, communications, 
energy, electric, and other sectors.
    I know you have been to our National Cybersecurity and 
Communications Integration Center, where we are very focused on 
integrating our private-sector partners into our operations 
activities and we work very closely with our private-sector 
partners in not just protection and planning efforts but in the 
response efforts, as well.
    Mr. Meehan. Yes. This was a recommendation that was called 
the Cyber Reserve Program that was run through DHS, and it may 
or may not be implemented. I know what happens. There are a lot 
of good ideas that sound--they get laid on your plate in the 
midst of all of these, and I just wondered if you had any 
insight on that program.
    Ms. Stempfley. Thank you for making that connection in my 
brain. We actually post that set of recommendations. The then-
deputy secretary established a task force to look at all of the 
recommendations from that Homeland Security Advisory Council--
set of recommendations on workforce activities. We have moved 
forward on many of them. The cyber reserve efforts and the 
potential utilization of current and former DHS colleagues in 
execution of this mission is one that planning activity has 
been underway.
    Mr. Meehan. All right. Well I thank you for that 
clarification.
    My time is expired and I will turn to the gentleman from 
Nevada, Mr. Horsford.
    Mr. Horsford. Thank you very much, Mr. Chairman, to you, to 
Chairwoman Brooks, to the Ranking Member Mr. Payne and Ranking 
Member Clarke, for holding this important and crucial hearing.
    I want to commend my colleague, Mr. Payne, for his 
legislation on the study for the smart grid. I know in my State 
and in regions throughout the country we have heard time and 
time again about the need to protect critical infrastructure, 
including, you know, our electric grid and water systems and 
other things that play into the grid. So I look forward to 
working with you on that legislation and commend you and your 
leadership for bringing it forward.
    After hearing the opening remarks I wanted to delve into a 
couple of questions that aren't on my prepared questions.
    Mr. Sena, right?
    Mr. Sena. Sena, sir.
    Mr. Horsford. So I have been in my fusion center. I am from 
Las Vegas--40 million visitors a year, 2 million residents in 
Clark County, and sheriff took me on a tour, met with all of 
our emergency management, first responders--local, State, 
Federal, and private-sector participants at that fusion center.
    What is troubling to me is you say all the right things 
operationally for what is needed--the integration, the sharing 
of information--but then we have policy that doesn't support 
that approach. For example, the UASI money. In my State, Las 
Vegas was eliminated from the top-tier funding communities for 
our fusion center and lost several million dollars. My hope is 
we will get that back and I am working with the Department and 
FEMA and other agencies to make the case, but the policy 
doesn't support the practice that you envision.
    So I would like for you to touch on how funding like UASI 
is critical in supporting your needs, particularly with the 
cybersecurity focus, which, as far as I reviewed in the primary 
factors of the UASI money allocation, I didn't hear 
cybersecurity come up enough even though it is the most 
emerging threat to our critical infrastructure. So can you 
speak to that, please?
    Mr. Sena. Absolutely, sir. Congressman, just to let--as you 
know, with the reductions in UASIs and the inconsistencies and 
how the funding goes for those grant projects to support fusion 
centers, fusion centers are owned and operated by State and 
local agencies. I myself work for the San Mateo County 
sheriff's office. But it is up to those regions how they 
develop those programs and some are highly dependent on Federal 
funding.
    We have some fusion centers that totally support their 
operations based on their own State budgets, local budgets. But 
when we are trying to develop programs that have a National 
importance, that have--meet those National priorities, those 
National missions, we have to develop the funding stream to 
support those programs.
    Basing it on--and UASIs have been great across the country, 
but if you have no money they have got no way to give anything 
to the fusion center, and therefore the fusion center cannot 
support their programs. That is where we are at right now.
    The other issue we have is the grant time line cycle of 2 
years now, which basically means that once you get through with 
all the management issues of trying to move funding you have 
about 8 months to spend your money. Well, most people's 
salaries go for 12 months. That creates a little bit of a 
problem.
    But we have those huge issues between how the money gets to 
the fusion centers and how it gets devoted to those programs. 
Right now there is no consistency across the country in how 
that money is delved through. Not just in the case of the Las 
Vegas fusion center, but other fusion centers across the 
country that lost their UASI funding--to the point of some, 30 
percent. How do you run an operation when you have lost 30 
percent of your money or 100 percent?
    Mr. Horsford. Right.
    Mr. Sena. It is difficult.
    Mr. Horsford. Well, it is difficult when you have these 
emerging threats, which are ever changing. Everything you all 
talked about today is, you know, the people we are trying to 
prevent from attacking us are more creative, more resourceful, 
are working around the clock, and yet we are not putting in the 
resources to combat that.
    I think the UASI funding, Mr. Chairman, is one area that 
needs to still be reviewed and, you know, I am committed to 
doing my part in bringing forward solutions for how it needs to 
be reviewed. But I think the cybersecurity factor in how 
communities rank should be reevaluated. So I will put that on 
the table.
    Mr. Chairman, can I have just 1 more minute?
    Mr. Meehan. Yes. The Chairman will recognize the gentleman 
for a follow-up question.
    Mr. Horsford. I just want to ask about this interrelation 
between State and Federal entities. Given the inherently 
interconnected nature of the cyber landscape, why is it that 
harmonizing standards for the Federal Government is beneficial 
but requiring the same of State governments which may interface 
with Federal systems is not? I wanted Mr. Orgeron to answer 
that question.
    Mr. Orgeron. Sure. We talked about NIST earlier, and I 
think from a framework perspective we certainly think that 
having a common framework would be most beneficial, whether it 
is at the State level or the Federal level. Certainly a 
framework that would help the two entities communicate, you 
know, I think we believe would be a good thing.
    Mr. Horsford. Thank you.
    Mr. Meehan. I thank the gentleman.
    The Ranking Member has a follow-up question and so I 
recognize the Ranking Member for----
    Mr. Payne. Thank you, Mr. Chairman.
    This was a question that Congresswoman Clarke had: 
Cybersecurity technologies have made a major advancement over 
the last decade, just as the IT industry has. But the 
electrical grid has been built over the course of 100 years.
    So, Mr. Molitor, in terms of cybersecurity, how do we deal 
with the legacy equipment that was installed before anyone was 
thinking about cyber threats and what was to come and is here 
now?
    Mr. Molitor. Yes. That is a great question. Fortunately, a 
lot of the legacy gear doesn't have the kind of communications 
capabilities that makes it hackable to begin with. But if you 
have got a dead zone in the middle where you don't have 
cybersecurity capabilities built in you have to build your 
cyber perimeter around it. So the objective is--and especially 
through these smart grid technologies--is that you have the 
communications ability and the sensing ability on the adjacent 
devices so that you can identify when that device in the middle 
starts to underperform. So that would be the best indication 
that you have.
    The challenge that we have is that a lot of these assets 
that were installed in the electric grid have a 20-, 30-, or 
40-year life span before they can be replaced by the utility 
companies. So, you know, part of the cure to this is being able 
to fix the accounting rules and the other financial rules so 
that they can depreciate those assets, get them out of the 
grid, and replace them with the ones that can respond properly 
to a cyber attack.
    Mr. Payne. So in your opinion--and I will close with this 
and I will ask each of the witnesses--you know, the legislation 
I have introduced, the SMART Grid Study Act, do you think that 
is the direction we should go so we can understand what we need 
to do to ensure the critical infrastructure is cyber safe?
    Mr. Molitor. Absolutely. I am a firm believer that if you 
want to improve something you need to measure it. You provide 
the mechanism to obtain that measurement.
    Mr. Payne. Mr. Sena? Same question.
    Mr. Sena. We definitely--I mean, for years we have been 
building a great castle with physical--sorry, sir--building a 
great castle with physical security issues, but we have got 
this moat around us that has a stream that goes right into our 
critical infrastructure and we are so vulnerable, but the 
resources are not going there. We do have to have that 
capability.
    We do have to have better electronic resources to deal with 
threat in real time but we also need analysts and people that 
can accept the information and know what we are looking for. 
Right now that is our big problem, from the high-end technical 
side to the people who are operating the computers within the 
locations, whether it is Government, whether it is critical 
infrastructure, you know, spear fishing, opening up the wrong 
e-mail can open up your network to huge issues.
    When it is considered to be the electrical grid or any of 
our other critical infrastructure, that can be our fall down. 
My goal is to prevent that as best we can, so thank you.
    Mr. Payne. Mr. Orgeron.
    Mr. Orgeron. I agree. I mean, State government, especially 
from a technology perspective, whether it is consolidated data 
centers or networks, are highly reliable on the grid, so 
absolutely.
    Mr. Payne. Mr. English.
    Mr. English. Absolutely. We have to have the power to make 
things work, and thank you for doing that.
    Mr. Payne. Okay.
    Ms. Stempfley.
    Ms. Stempfley. So we certainly have talked about the 
linkages between the cyber and physical environment, and one of 
the things that we are focused on at DHS is helping as 
infrastructures are upgraded--as our aging infrastructure is 
upgraded and takes advantage of the technology that exists 
today, helping them understand how to be more resilient in this 
cyber environment. So I think that is an important focus area.
    Mr. Payne. Well, I thank all of you witnesses.
    Just for the record, this study would not cost any more 
money. The money is already in place and we have offsets that 
would take care of the cost of the study.
    I yield back.
    Mr. Meehan. I thank the gentleman.
    I am just about prepared to gavel the hearing down but I 
have one question that I want to ask for those who are involved 
in the State side, because I know that there has been some 
discussion about the need we have for people who are capable of 
working with you in both understanding and then addressing 
these kinds of concerns, and then simultaneously we have got, 
year after year, students that are graduating from colleges and 
universities, junior colleges all throughout our country and 
they are looking for a job.
    It stuns me that we have educational institutions on the 
one side that are already--not looking for grant programs; they 
are already taking tuition. Some of these kids are going into 
debt to do this, and then they come out and they are saying, 
``Where do I get my first job?''
    Then here you are running organizations which are saying, 
``Boy, we need people in here.'' What are you doing even with 
your own State university systems to implement some kind of 
connection between the training that could take place and the 
availability of a workforce?
    Mr. Sena. Sir, I have to mention--and thanks in great part 
to our partners in the Department of Homeland Security, MS-
ISAC, and our other State organizations--we actually had a 
pilot, you know, internship program this summer--brought some 
of the most brilliant people into my center. Great employees, 
great interns. Did some tremendous work for us.
    So we brought them in but, of course, we have no funding to 
pay for interns. We have no money to pay for, you know, those 
analysts. You know, eventually we are getting some money from 
our UASI to bring on some analytical staff, but, you know, we 
brought in eight interns who did great work and those interns 
across the country were also deployed--recruited by DHS, 
recruited through, you know, cyber exercises that they would do 
on the weekends to see who could, you know, do the best 
infiltration of systems.
    So we had the best minds out there but we have no money to 
hire these people and that is--you know, that is the tragedy of 
it. You know, great interns and, you know, free labor force for 
us, but we need them long-term and there is just no sustainment 
for that right now.
    Mr. Meehan. Do they get directed to private-sector 
opportunities?
    Mr. Sena. We do. We give them, you know, pass their 
information along to the private sector. But as was said 
previously, you find very few open jobs in that sector. But 
right now it would be great if we had that ability even to pay 
the interns for the time they spend with us, but also to bring 
them into Government work. They are just--you know, from the 
State perspective, you know, money has always been tight, and 
especially nowadays it has been tight, so trying to have 
funding to bring in those brilliant minds is difficult.
    Mrs. Brooks. Would the Chairman yield one moment?
    Mr. Meehan. Sure. Absolutely.
    Mrs. Brooks. I am curious, before others might respond, 
whether or not you are educating your governors, your mayors, 
your councils who appropriate the funds for your departments to 
understand what the cyber threat might be? Because obviously, 
you know, there is always a push for more police officers on 
the street, more fire fighters, but yet there needs to be--and 
when we may be calling them analysts is part of the problem in 
that they appear to be support staff when, in fact, they are a 
cyber force and can be like a street officer. How are you 
educating the executives and those, you know, with the 
appropriations authority to, you know, make sure that they 
understand what the needs are, just out of curiosity?
    Mr. Sena. I can tell you that after we made a presentation 
to our UASI on what the threat was, it immediately voted to 
give us $400,000 right off the bat. So they see the threat. But 
that is only if they have the funding available to allocate, 
and in this case they had the funding.
    That funding may not be there next year, but that is the 
problem we have. There has to be a funding source and currently 
most States don't have the funding source other than 
potentially through those Federal grants. Those, the allocation 
varies between those centers, like in Las Vegas, that they just 
don't have any money for it.
    Mr. Orgeron. We certainly do advocate with the Governor, 
elected officials, the legislature, the importance of a topic 
like this and potentially the disconnect between really doing 
great Government and needing great people to do great 
Government that have the right skills, and this is a marked gap 
to the point.
    To the other question, all the things Mr. Sena said--
working with universities on co-op programs to get students in, 
internship programs. It is really at the local level--at the 
local-State level--I think more, you know, just that you can 
get them interested. I mean, States are doing phenomenal things 
across all kinds of projects, especially in our State with a 
new data center.
    It tends to be keeping them is the thing. They are great 
kids, and so we do. We go to the universities regularly, go to 
recruiting fairs regularly, and so--and we will continue both 
of those things.
    Mr. Meehan. Well, I want to say, I think on behalf of all 
of my colleagues here, we appreciate your service. In many ways 
you, as was articulated by one bit of testimony, are out of 
there on the tip of the spear, and the experiences that you 
have, as well, not only in what you are doing each day but by 
virtue of analyzing the nature of the threat and the challenges 
that we have, and then by taking the time to both prepare your 
testimony and be responsive to our questions helps us educate--
helps you educate us to be your partners in working for better, 
more efficient, more effective ways to deal with what we all 
agree, I believe, is one of the great challenges that we face 
here and an emerging and ever-changing nature of the threat, 
different from, in many ways, from those which we have been 
addressing over the course of the recent decade.
    So I thank the witnesses for your valuable testimony and 
the Members for their questions. The Members may have--from the 
subcommittee may have additional questions for the witnesses, 
and if they do we ask that you would take the time to respond 
in writing. We are certainly free for any further follow-up 
information you would like to forward to us for the record. We 
will keep the record open for 10 days for that purpose.
    So without objection, the subcommittees stand adjourned. 
Thank you for your testimony.
    [Whereupon, at 11:52 a.m., the subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairwoman Susan W. Brooks for Roberta Stempfley
    Question 1a. FEMA has a number of incident annexes to the National 
Response Framework, including a Cyber Incident Annex. The current Cyber 
Incident Annex was developed in 2004, nearly 10 years ago, when 
technology and the cyber threat were very different.
    The draft NCIRP states that it was developed in conjunction with 
the update of the Cyber Incident Annex. However, according to FEMA, the 
Annex has not yet been updated and will be not updated until later this 
fiscal year, with an anticipated completion in fiscal year 2015.
    Will CS&C be involved in this update?
    Answer. The Office of Cybersecurity and Communications (CS&C), 
working with a broad set of partners, to include the Federal Emergency 
Management Agency, will continue to advance the dialogue around 
coordinated planning through development of operational playbooks and 
other planning frameworks. We anticipate that CS&C would be deeply 
involved in any updates to the National Response Framework's Cyber 
Incident Annex.
    Question 1b. In a broader sense, how do you work to coordinate 
cyber doctrine within the Department to ensure that the plans and 
procedures in place are up-to-date and applicable to the current 
threats we are facing?
    Answer. CS&C works with the Department of Homeland Security (DHS) 
Headquarters and other DHS components on a continuous and on-going 
basis to coordinate cyber issues. Many of these interactions take place 
at the working level in order to keep pace with the dynamic cyber 
threat environment. There are weekly leadership meetings consisting of 
both internal DHS organizations as well as our interagency partners 
specifically to coordinate on cyber issues.
    In November 2011, DHS completed the Blueprint for a Secure Cyber 
Future: The Cybersecurity Strategy for the Homeland Security Enterprise 
(Blueprint). The Blueprint provides a process to create a safe, secure, 
and resilient cyber environment for the homeland. The Blueprint 
identified capabilities necessary to achieve DHS's cybersecurity goals. 
The development of the Blueprint was truly a cross-organizational, 
integrated process that brought together elements of the following 
components and sub-components of DHS:
  <bullet> DHS/NPPD Office of Strategy and Policy (S&P);
  <bullet> DHS/PLCY Office of Strategy, Policy, Analysis, and Risk 
        (SPAR);
  <bullet> DHS/CFO Office of Program Analysis and Evaluation (PA&E);
  <bullet> DHS/Office of Intelligence and Analysis;
  <bullet> DHS/Office for Civil Rights and Civil Liberties (CRCL);
  <bullet> DHS/Office of Operations Coordination and Planning (OPS);
  <bullet> DHS/NPPD Office of Budget, Finance, and Acquisition;
  <bullet> DHS/NPPD Office of Cybersecurity and Communications (CS&C);
  <bullet> DHS/NPPD Office of Infrastructure Protection (IP);
  <bullet> DHS/Science and Technology Directorate (S&T).
    Accompanying the Blueprint is a Mission Management Plan that 
prioritizes the Blueprint capabilities that DHS will mature over the 
next several years. The Mission Management Plan serves as a baseline 
for coordination and assignment of tasks based upon the capabilities 
and responsibilities across the Department. An example of this would be 
leveraging the skills and resources of the U.S. Secret Service along 
with Immigrations and Customs Enforcement to investigate cyber 
criminals. The results of these efforts are used internally within DHS 
as well as a baseline for discussions with our partners across the 
interagency, State, local, Tribal, and territorial governments and the 
private sector.
    Question 2a. In reviewing the National Cyber Incident Response Plan 
(NCIRP), I am a little unclear of the link and cooperation between the 
NCCIC and FEMA and have a couple questions regarding that link and 
cooperation.
    Does FEMA currently have personnel that are stationed full-time at 
the NCCIC?
    Answer. The Federal Emergency Management Agency (FEMA) does not 
currently have personnel who are stationed full-time at the National 
Cybersecurity and Communications Integration Center (NCCIC).
    The DHS Office of Operations Coordination and Planning has a full-
time employee stationed at the NCCIC and another full-time employee 
stationed at the FEMA National Response Coordination Center (NRCC). The 
National Operations Center (NOC) is also staffed by a full-time desk 
officer from the NCCIC and another full-time desk officer from the FEMA 
NRCC. This exchange of personnel facilitates real-time coordination and 
collaboration in the event of a cyber-related incident. The NOC, NCCIC, 
and NRCC continuously share information and have access to the DHS 
Common Operating Picture (COP) for situational awareness. Additionally, 
the NOC receives and integrates daily reporting from the NCCIC and the 
NRCC. Also, the three operations centers conduct coordination calls at 
least three times daily via the NOC's Operations Centers conference 
calls (NOC Blast Calls).
    Question 2b. If ``YES'': Who is this person--from what office 
within FEMA? If ``NO'': Do you think it would be a good idea to have a 
FEMA representative at the NCCIC?
    Answer. Recognizing the potential significance of a cyber-physical 
event and the value of close FEMA-NCCIC synchronization, staffs from 
the two organizations meet often to discuss planning and exercise 
activities and to maintain watch center-to-watch center communications. 
In response to Emergency Support Function-2 activations, NCCIC 
regularly deploys staff to FEMA operations centers. In the event of a 
significant cyber incident, FEMA would deploy appropriate staff to the 
NCCIC.
    Question 2c. How does the NCCIC communicate with FEMA on the 
potential threats the NCCIC is seeing and their possible consequences 
that may require FEMA to respond?
    Answer. NCCIC and FEMA communicate via watch center-to-watch center 
communications. FEMA receives NCCIC situational reports and awareness 
products, which highlight more significant cyber and communications 
incidents and the NCCIC receives FEMA situation reports on a recurring 
and routine basis.
    The DHS NOC, NCCIC, and NRCC all have access to the DHS Common 
Operating Picture (COP) and Homeland Security Information Network 
(HSIN). The COP and HSIN are the primary systems used for sharing and 
viewing Unclassified information along with other situational awareness 
products. Also, all three operation centers participate in coordination 
calls at least three times daily via the NOC's Operation Centers 
conference calls (NOC Blast Calls).
    Question 3. The draft National Cyber Incident Response Plan (NCIRP) 
states that it ``was developed in close coordination with Federal, 
State, local, territorial, and private-sector partners.'' I am 
interested in hearing more about the Department's outreach process 
during the development of the NCIRP because we have heard from 
stakeholders that there wasn't sufficient outreach and that this is 
more of a ``Federal plan'' than a ``National plan.''
    Answer. The Department of Homeland Security (DHS) developed the 
National Cyber Incident Response Plan (NCIRP) in close coordination 
with public and private-sector stakeholders. During the early stages of 
development, DHS asked for volunteers through the Cross-Sector Cyber 
Security Working Group (CSCSWG), which includes Federal and private-
sector representatives from each of the critical infrastructure sectors 
and convenes under the auspices of the Critical Infrastructure 
Partnership Advisory Council. The Department also sought collaboration 
through intergovernmental partners, the information sharing and 
analysis organization community and among Federal interagency partners. 
DHS drafted the document by sending out discussion papers--generally 
draft sections of the NCIRP starting with scope and purpose--and 
captured notes from subsequent discussions with public and private-
sector participants. In addition to incorporating review comments into 
iterative drafts of the NCIRP, DHS also held table-top exercises and 
the Cyber Storm III National Exercise to further inform versions of the 
draft plan. Among the participants in the table-top exercises were the 
Information Technology Information Sharing and Analysis Center (ISAC), 
the Communications ISAC, the Financial Services ISAC, and the Multi-
State ISAC (MS-ISAC). The MS-ISAC includes among its membership the 
chief information security officers from each of the 50 States as well 
as several U.S. territories and local Government representatives. Cyber 
Storm III included participation from eight Cabinet-level departments, 
13 States, 12 international partners, and 60 private-sector companies 
and coordination bodies. Together, these entities participated in the 
design, execution, and post-exercise analysis of the cyber exercise. 
Participation focused on the information technology, communications, 
energy (electric), chemical, and transportation critical infrastructure 
sectors and incorporated various levels of play from other critical 
infrastructure sectors. In addition, Cyber Storm III included the 
participation of States, localities, and coordination bodies, such as 
ISACs, and international governments to examine and strengthen 
collective cyber preparedness and response capabilities. During the 
exercise, the participant set included 1,725 Cyber Storm III-specific 
system users.
     Questions From Chairwoman Susan W. Brooks for Charley English
    Question 1a. How are State officials responsible for cybersecurity 
and emergency management coordinating to ensure awareness of the cyber 
threats you face?
    Answer. The type and scope of coordination occurring between State 
officials responsible for cybersecurity and emergency management 
officials vary widely by State. In a survey NEMA conducted in February 
2013, we learned no clear best practice exists in assigning 
responsibility of coordination of resources to prepare for, respond to, 
or recovery from a cyber attack. Only 41.9 percent of States cited a 
specific director. Of the 41.9 percent, responsibility ranges from the 
emergency management officials to IT, homeland security, and the fusion 
center. Where those responsibilities diverge, coordination occurs much 
in the same way as it would with any other all-hazards risk.
    Question 1b. What support are you getting from DHS in that regard?
    Answer. Programmatic offices such as the Office of Cybersecurity 
and Communications (CS&C) within DHS continue admirable work in their 
outreach to State and local officials. The larger challenge however is 
that the overall DHS effort, to include agencies such as FEMA, must be 
comprehensive and coordinated in order to ensure all the nuances of the 
threat and impact of consequences receive appropriate attention. In 
recent years, as the issue of cybersecurity grows, agencies have a 
tendency to create niches within the Department instead of adopting a 
comprehensive approach. Without a cohesive strategy from the National 
level addressing the consequences of a cyber attack, we run the risk of 
being unprepared should an event occur.
    Question 1c. What more could they be doing?
    Answer. DHS must recognize the impacts of a cyber attack extend 
beyond public-private relationships or simply securing networks. To 
date, the Department offers little guidance on the potential depth and 
breadth of cyber consequences. A deeper analysis must be accomplished 
on current disaster-related statutes such as the Stafford Act to 
consider whether such attacks would be eligible for Federal assistance. 
If so, guidance must be provided to the States. If not, an on-going 
dialogue must occur so all interested parties understand the current 
limitations of State and local governments in these economically-
constrained times.
    Question 1d. Is there anything Congress can do to help?
    Answer. As Congress considers legislative options, the needs of the 
State and locals ultimately responsible for the consequences of a cyber 
attack must be first and foremost. In May of last year, NEMA joined 
with nine other associations to ask Congress for your consideration of 
key principles and values when considering cybersecurity legislation. 
In addition to consideration of the principles and values, Congress 
must work with DHS ensuring all potential consequences of a cyber 
attack are thoroughly considered in appropriate authorities such as the 
Stafford Act.
    Question 2. A movie titled ``American Blackout'' that aired in 
October portrayed the physical consequences of a cyber attack on the 
electrical grid. One of the major issues highlighted was the impact on 
hospitals.
    I recently visited with representatives from a hospital in my 
district and we discussed cybersecurity. The doctors, particularly 
those from the emergency department, are extremely concerned with their 
ability to function in the event of a cyber attack that impacts their 
power supply. This goes beyond medical records. They are very concerned 
about access to imaging technology that saves lives.
    In the event of a cyber incident that impacts the electric grid, 
how would emergency managers and cybersecurity professionals coordinate 
with each other and the private sector to determine how soon the 
problem could be fixed and in turn properly identify necessary 
resources to assist hospitals beyond the generators and fuel they 
regularly keep on hand?
    Answer. We would typically treat this type of incident just as any 
other. Emergency managers operate in an all-hazard environment and 
would coordinate with the cybersecurity professionals as we would any 
other Emergency Support Function (ESF). The resources would be done the 
same way. There are many disasters that affect our power grid, from ice 
storms to major storm fronts. It takes a Federal-State coordinated 
approach to create and improve a threat-specific annex to State 
Emergency Operation Plans. Emergency management plans are intended to 
address impacts of all hazards, regardless of cause.
    Question 3. States have repeatedly identified cybersecurity as the 
lowest core capability in their State preparedness reports. To your 
knowledge, when developing this assessment, were State chief 
information officers or chief information security officers involved in 
the process?
    Answer. While the exact number is not known, the collaboration and 
inclusion between chief information officers and emergency management 
officials is increasing due to the threat and the increasing awareness 
of the issue. For example, in the State of Ohio, the State Security 
Information Officer was involved in the responses to cybersecurity in 
the State preparedness report. In Arkansas, the Chief Information 
Officers as well as the Chief Information Security Officers are 
involved in the process of identifying core capabilities.
      Questions From Chairwoman Susan W. Brooks for Craig Orgeron
    Question 1a. How are State officials responsible for cybersecurity 
and emergency management coordinating to ensure awareness of the cyber 
threats you face?
    Answer. Coordination on cybersecurity varies drastically from State 
to State. This has to do with different models of State governance and 
centers of authority for cybersecurity response and emergency 
management. This is not only reflective of the different maturities 
regarding readiness to respond to cyber threats in the States, but also 
the diverse topography of State governments. There is increasingly 
coordination between State CIOs with emergency managers and other 
agency officials regarding disaster continuity, recovery, and emergency 
management. As referred to in my testimony, NASCIO's 2013 State CIO 
Survey states:

``Not surprisingly, disaster recovery and business continuity are 
issues that continue to receive increased attention in the State CIO 
community . . . We asked CIOs how they approached these initiatives 
within their State. As Figure 13 shows, almost two-thirds of States 
pursue a federated strategy with responsibilities split between the CIO 
and State departments and agencies.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While our research shows increasing collaboration between State 
emergency managers and State CIOs, it is difficult to describe how a 
State would react to a cyber incident impacting a hospital as described 
in the question. The primary reason: With public-sector cybersecurity 
being such a nascent area, States have divergent governance and 
procedures in place to deal with significant attacks on critical 
infrastructure. Virtually every State has some means to provide 
support, whether through State police, its fusion center, or another 
State agency.
    Further complicating matters, data does not exist to make extensive 
claims to best practices when it comes to governance. While several 
States have held cybersecurity exercises and learned from the 
experiences, the effectiveness of one governance model over another has 
not been thoroughly and publicly tested by real-world events.
    Beyond this uncertainty, there are significant legal questions to 
be considered. For instance, a private hospital may not be able to take 
advantage of certain public resources. It is unclear a private entity 
could receive support from the National Guard without the declaration 
of a state of emergency by a Governor. Other questions come into play, 
as well: Legal liabilities, cyber forensics of a virtual crime scene, 
and more. The area simply has not been defined. The legal implications 
is an area that is ripe for Congress to explore.
    Question 1b. What support are you getting from DHS in that regard?
    Answer. There are several venues and tools from DHS or funded by 
DHS that provide State governments with additional awareness of and 
support in thwarting cyber threats. Perhaps the most prominent of these 
are the National Cybersecurity and Communications Integration Center 
(NCICC), United States Computer Emergency Readiness Team (US-CERT), and 
Multi-State Information Sharing and Analysis Center (MS-ISAC). 
Complementing and supporting State fusion centers and similar technical 
support is also of significant value as long as DHS ensures it is 
supporting the State's cybersecurity governance model. Broader efforts 
such as the National Initiative for Cybersecurity Education (NICE) are 
also vital for States to receive the type of talent they need to secure 
their systems, and should be expanded.
    Question 1c. What more could they be doing?
    Answer. In many States, neither Chief Information Officers nor 
their Chief Information Security Officers are cleared to the Top Secret 
level--only the Secret level. Therefore, they cannot receive vital 
information from the intelligence community on the most advanced 
international threats against our networks without explicit intention 
and additional pre-clearance. While DHS certainly would include a State 
CIO or his CISO in such a conversation, it is not so certain the rest 
of the intelligence community would know to reach out to the State CIO 
and clear them for such a briefing. This should be remedied.
    NASCIO hopes that greater information sharing and better tools to 
disseminate this information will be released as part of the 
implementation of Executive Order 13636 and Presidential Policy 
Directive 21. NASCIO and its members are pleased with the on-going 
effort to provide greater declassification of cyber threat information 
as part of the EO, and look forward to seeing greater results.
    In addition, we believe the National Cyber Security Review could be 
followed up with the promise of Federal technical assistance to State 
and local participants who lag behind in vital areas. This will have 
the dual benefit of safeguarding citizen data and encouraging greater 
participation in National level vulnerability assessments.
    Efforts to provide support for cyber education among public 
employees in the States and broader social awareness of on-line 
threats, similar to public awareness campaigns in the vein of ``see 
something, say something,'' are also valuable.
    Question 1d. Is there anything Congress can do to help?
    Answer. While opportunities for limited Federal assistance for 
cyber threats have been included in the National Preparedness Grant 
Program (NPGP), its shrinking pool of resources coupled with a 
formulaic structure that favors hardening targets against attacks at 
the jurisdictional level means States typically only have enough 
funding to maintain legacy homeland security investments and administer 
grants to local governments. For NPGP to meet the current threats faced 
by our States and localities, changes will need to be made to this 
program by Congress.
    Greater resources for technical programs that support information 
sharing, technical assistance, and cyber threat exercises would be 
valuable, as well. Efforts to increase the public sector cyber 
workforce, ranging from targeted initiatives such as the DHS National 
Initiative for Cybersecurity Education to supporting computer science 
education in schools at every level, are extremely valuable. Such 
programs should be expanded and supported--both for the sake of our 
Nation's homeland security and our economic security. Larger public 
service campaigns to increase knowledge of the risks on-line, in the 
model of ``see something, say something'' or ``click-it or ticket'' 
would help reduce risk to both public and private-sector networks.
    Question 2. As you may know, as a condition of receiving State 
Homeland Security Grant Program funding, the State Administrative 
Agency (SAA), which is usually either the State Homeland Security 
Advisor or Emergency Manager, must complete a Threat and Hazard 
Identification and Risk Assessment, which, as the name suggests, 
details threats and hazards facing each State. Some States, including 
my home State of Indiana, have included cybersecurity in their THIRAs.
    To your knowledge, have your colleagues been included in this 
process to ensure the SAAs have the best picture of the cyber threats 
they face?
    Answer. Unfortunately, NASCIO has no data on how many States 
include cybersecurity in their THIRAs, and whether SAAs have included 
their State CIOs in the THIRA process. NASCIO will to review this 
question with its membership and attempt to provide the committee with 
a well-researched answer in the near future.
        Questions From Chairwoman Susan W. Brooks for Mike Sena
    Question 1a. Your fusion center is one of a small number of fusion 
centers in the National Network proactively incorporating cybersecurity 
into its mission. I applaud you and your fusion center's efforts in 
this challenging environment.
    What Federal, State, and local partnerships have you developed to 
help the NCRIC contribute to this important mission?
    Answer. Response was not received at the time of publication.
    Question 1b. What analytical products and situational awareness 
reports has the NCRIC produced? Do you have a sense as to how have 
these products been perceived by your partners?
    Answer. Response was not received at the time of publication.
    Question 1c. How is the National Fusion Center Association working 
to advance cybersecurity efforts across the National Network?
    Answer. Response was not received at the time of publication.
       Question From Chairwoman Susan W. Brooks for Paul Molitor
    Question. Mr. Molitor, in your testimony you mention the NEMA Field 
Representative Program.
    Would you please tell us more about this program and how, if at 
all, these experts are available as a resource to emergency management 
officials during an emergency?
    Answer. NEMA is the association of electrical equipment and medical 
imaging manufacturers, founded in 1926 and headquartered in Rosslyn, 
Virginia. Its 400-plus member companies manufacture a diverse set of 
products including power transmission and distribution equipment, 
lighting systems, factory automation and control systems, and medical 
diagnostic imaging systems. The U.S. electroindustry accounts for more 
than 7,000 manufacturing facilities, nearly 400,000 workers, and over 
$100 billion in total U.S. shipments.
    The NEMA Field Representative Program is geared toward providing 
information and training to government officials (including building 
code officials, electrical inspectors, and emergency managers), 
maintaining the lines of communications between these individuals and 
the manufacturing community, and assisting in the wake of disasters. 
The relationships forged in advance of the disaster are invaluable in 
the ensuing confusion and turmoil. As advocates of safe electrical 
systems and installations, NEMA Field Representatives make a valuable 
contribution to public safety.
    NEMA has four Field Representatives located in regional offices 
around the country. Their regions of coverage are aligned with the 
International Association of Electrical Inspectors (IAEI) Section 
Regions. The representatives are:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    (1) Mike Stone.--Region: AK, AZ, CA, HI, ID, MT, NV, NM, OR, UT, 
        WA.
    (2) Donald Iverson.--Region: WY, CO, ND, SD, NE, KS, MN, IA, MO, 
        AR, WI, IL, MI, IN, KY, OH, WV.
    (3) Paul Abernathy.--Region: TX, OK, LA, MS, TN, AL, FL, GA, SC, 
        NC, VA.
    (4) Jack Lyons.--Region: ME, NH, VT, NY, MA, RI, CT, NJ, PA, MD, 
        DE, DC.
                       preparing for emergencies
    One of the most important functions of the field representatives is 
to support a 3-year adoption cycle by States and local jurisdictions 
for National model building codes--including electrical, life safety, 
and energy--to coincide with the 3-year National revision cycles. These 
codes are:
  <bullet> NFPA 70 National Electrical Code;
  <bullet> NFPA 101 Life Safety Code;
  <bullet> NFPA 99 Health Care Facilities Code;
  <bullet> NFPA 72 National Fire Alarm and Signaling Code;
  <bullet> NFPA 720 Carbon Monoxide Detection Code;
  <bullet> International Building Code (IBC);
  <bullet> International Residential Code (IRC);
  <bullet> International Energy Conservation Code (IECC);
  <bullet> International Green Construction Code (IgCC);
  <bullet> International Fire Code (IFC).
    National model building codes provide the blueprint for 
constructing residential, commercial, and institutional buildings and 
other structures. They prescribe the minimum safety and performance 
standards which allow occupants to live and operate in a safe and 
optimally-performing building. Model building codes also prescribe the 
latest advancements in energy efficiency, resiliency in building 
structure, and life safety through the use of hazardous elements 
detection. The codes are revised through an open and transparent 
stakeholder process led by the International Code Council (ICC) and 
National Fire Protection Association (NFPA) every 3 years to 
incorporate advances in safety and technology in homes and buildings. 
Therefore, timely adoption in accordance with the National model 
revision schedule is vitally important.
    Direct adoption and enforcement of the latest building codes every 
3 years provides:
  <bullet> enhanced safety to homeowners and building occupants through 
        the use of the latest technology and knowledge in life safety 
        (i.e., emergency lighting; fire, smoke, and carbon monoxide 
        detection) and electrical hazard protection (i.e., arc fault 
        circuit interrupters, ground fault circuit interrupters);
  <bullet> utilization of the latest advancements in technology, 
        enabling the use of on-site energy generation for back-up power 
        and for ensuring the structural integrity of buildings.
    Proper installation of electrical equipment is key to safety and 
resiliency. The NEMA Field Representative Program provides training to 
State and local code officials, inspectors, and installers on the 
latest codes and on the proper installation and use of NEMA member 
products.
                       recovering from disasters
    While preparation is essential, loss of life and damage to property 
will inevitably occur. One responsibility of a NEMA Field 
Representative is to make himself available to Government officials 
after a natural disaster.
    Because safety is of paramount importance to our member companies, 
all time, travel, and materials associated with the Field 
Representative Program is paid for by NEMA members. In years past, NEMA 
Field Representatives have visited areas destroyed by Hurricanes Irene, 
Katrina, and Sandy. They've also responded to both flood and snow 
emergencies in the Midwest, as well as the Colorado flood earlier this 
year. In January of 2010, NEMA offered its Field Representatives to 
assist in Haiti after its devastating earthquake.
    When disaster strikes, NEMA promotes a number of resources for 
public officials addressing major infrastructure damage. NEMA's user-
friendly Evaluating Water-Damaged Electrical Equipment \1\ and 
Evaluating Fire- and Heat-Damaged Electrical Equipment guides are 
critical resources for protecting life and property after a disaster. 
Additionally, Storm Reconstruction: Rebuild Smart offers strategies for 
reconstructing electrical infrastructure in such a way that mitigates 
future disasters. All of these resources are available on NEMA's 
website, www.nema.org.
---------------------------------------------------------------------------
    \1\ http://www.nema.org/Standards/Pages/Evaluating-Water-Damaged-
Electrical-Equipment.- aspx#download.
---------------------------------------------------------------------------
    As rebuilding commences, NEMA Field Representatives assist in 
solving problems involving the installation of NEMA member products by 
serving as intermediaries between Government officials and NEMA member 
companies. Decision makers should involve NEMA in the wake of disasters 
and a recent example highlights this.
    In the wake of Superstorm Sandy, the New Jersey Department of 
Consumer Affairs (DCA) issued a directive for installers. The DCA 
stated that for wiring that had been submerged under water, ``If 
undamaged, no replacement is necessary.''\2\ This directive is at best 
unclear and the DCA implied on its web page the continued use of 
previously submerged wire is fine by stating that equipment was safe to 
use for 90 days.
---------------------------------------------------------------------------
    \2\ http://www.nj.gov/dca/divisions/codes/alerts/pdfs/
hurricane_sandy_guidance_11_- 2012.pdf.
---------------------------------------------------------------------------
    This position does not comport with the NEMA recommendations in 
Evaluating Water-Damaged Electrical Equipment.
    The guide states:

``Electrical equipment exposed to water can be extremely hazardous if 
reenergized without performing a proper evaluation and taking necessary 
actions. Reductions in integrity of electrical equipment due to 
moisture can affect the ability of the equipment to perform its 
intended function. Damage to electrical equipment can also result from 
flood waters contaminated with chemicals, sewage, oil, and other 
debris, which will affect the integrity and performance of the 
equipment. Ocean water and salt spray can be particularly damaging due 
to the corrosive and conductive nature of the salt water residue.
`` . . . 
``4.6 Wire, Cable and Flexible Cords When any wire or cable product is 
exposed to water, any metallic component (such as the conductor, 
metallic shield, or armor) is subject to corrosion that can damage the 
component itself and/or cause termination failures. If water remains in 
medium voltage cable, it could accelerate insulation deterioration, 
causing premature failure. Wire and cable listed for only dry locations 
may become a shock hazard when energized after being exposed to water.
``Any recommendations for reconditioning wire and cable in Section 1.0 
are based on the assumption that the water contains no high 
concentrations of chemicals, oils, etc. If it is suspected that the 
water has unusual contaminants, such as may be found in some 
floodwater, the manufacturer should be consulted before any decision is 
made to continue using any wire or cable products.''

    NEMA Field Representatives expressed their objection to the DCA 
directive after it was issued, but NEMA's concerns were not addressed, 
and have yet to be. Subsequent to issuance of the directive, tragedy 
struck Seaside Park and Seaside Heights, New Jersey, when more than 50 
businesses on the boardwalk were destroyed by fire. Investigators have 
ruled the fire accidental and believe electrical wiring that had been 
submerged by seawater during Superstorm Sandy is the culprit.
    NEMA continues to advocate for electrical safety in New Jersey and 
across the country.

                                 <all>

</pre></body></html>
